APPENDIX INDEX
Appendix A—Second Circuit’s Opinion
(June 7, 2019) ................................................................. 1a
Appendix B—District Court’s Opinion
(August 6, 2018) ............................................................. 8a
Appendix C—Second Amended Consolidated
Complaint (August 28, 2017)......................................31a

-App. 1a -

APPENDIX A
18-2621-cv(L)
O’Day v. Chatila
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED
BY
FEDERAL
RULE
OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A
SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY
COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 7th day of June, two
thousand nineteen.
PRESENT: GERARD E. LYNCH,

-App. 2a RAYMOND J. LOHIER, JR.,
Circuit Judges,
BRIAN M. COGAN,*
District Judge.
__________________________
ERIC O’DAY, ROBERT
LINTON, LEE MEDINA,
GAURAB SAMANTA,
Individually, on Behalf of the
SunEdison, Inc. Retirement
Savings Plan, and on Behalf of
All Other Similarly Situated
Plan Participants and
Beneficiaries,

Nos. 14 18-2621-cv(L),
18-2632-cv(CON)

Plaintiffs-Appellants,
v.
AHMAD CHATILA,
EMMANUEL HERNANDEZ,
ANTONIO R. ALVAREZ,
CLAYTON C. DALEY, JR.,
GEORGANNE C. PROCTOR,
STEVEN V. TESORIERE,
JAMES B. WILLIAMS,
RANDY H. ZWIRN, PETER
BLACKMORE, THE
SUNEDISON
RETIREMENT SAVINGS
*

Judge Brian M. Cogan, of the United States District Court for the
Eastern District of New York, sitting by designation.

-App. 3a PLAN INVESTMENT
COMMITTEE, BRIAN
WUEBBELS, PHELPS
MORRIS, MATTHEW
HERZBERG, MATT
MARTIN, JAMES WELSH,
Defendants-Appellees.
_______________________
FOR APPELLANTS:

DANIELLA QUITT, Glancy
Prongay & Murray LLP,
New York, NY (Robert I.
Harwood, Glancy
Prongay & Murray LLP,
New York, NY, Nancy A.
Kulesa, Levi &
Korsinsky, LLP, New
York, NY, Thomas J.
McKenna, Gregory M.
Egleston, Gainey
McKenna & Egleston,
New York, NY, Francis
A. Bottini, Jr., Albert Y.
Chang, Bottini & Bottini
Inc., La Jolla, CA, on the
brief).

FOR APPELLEES
AHMAD CHATILA,
EMMANUEL
HERNANDEZ,
ANTONIO R.
ALVAREZ, CLAYTON
C. DALEY, JR.,

MARK B. BLOCKER,
Sidley Austin LLP,
Chicago, IL (Christopher
K. Meyer, Sidley Austin
LLP, Chicago, IL, Sarah
A. Hemmendinger, Sidley
Austin LLP, San

-App. 4a GEORGEANNE C.
PROCTOR, STEVEN V.
TESORIERE, JAMES
B. WILLIAMS, RANDY
H. ZWIRN, THE
SUNEDISON
RETIREMENT
SAVINGS PLAN
INVESTMENT
COMMITTEE, BRIAN
WUEBBELS, PHELPS
MORRIS, MATTHEW
HERZBERG, MATT
MARTIN, JAMES
WELSH:

Francisco, CA, on the
brief).

FOR APPELLEE
PETER BLACKMORE:

Michael Bongiorno,
Timothy Perla, Wilmer
Cutler Pickering Hale
and Dorr LLP, Boston,
MA.

Appeal from a judgement of the United States
District Court for the Southern District of New York (P.
Kevin Castel, Judge).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgement of the District Court is
AFFIRMED.
Plaintiffs are participants in a definedcontribution retirement savings plan (the Plan) that was
available to employees of SunEdison, Inc. They appeal
from the judgment of the District Court (Castel, J.)
granting Defendants’ motion to dismiss the complaint.
The Plan gave employees the opportunity to invest in an

-App. 5a employee stock ownership plan consisting largely of
publicly traded shares of SunEdison stock. Plaintiffs
claim that Defendants breached various duties under the
Employee Retirement Income Security Act of 1974
(ERISA), 29 U.S.C. § 1001, et seq., by failing to protect
the Plan when Defendants knew or should have known
that SunEdison was on the verge of bankruptcy. We
assume the parties’ familiarity with the underlying facts
and the record of prior proceedings, to which we refer
only as necessary to explain our decision to affirm.
Plaintiffs claim that Defendants breached their
duty of prudence by continuing to offer SunEdison
shares as an investment option despite their access to
public and non-public information regarding
SunEdison’s dire financial straits. The District Court
correctly held that Plaintiffs did not allege any “special
circumstances” that would affect the reliability of the
market price as a reflection of the value of SunEdison
shares. In the absence of special circumstances,
allegations that a fiduciary should have recognized that a
publicly traded stock was overvalued or risky from
publicly available information alone are generally
implausible. See Fifth Third Bancorp v. Dudenhoeffer,
573 U.S. 409, 426–27, 134 S.Ct. 2459, 189 L.Ed.2d 457
(2014); Rinehart v. Lehman Bros. Holdings Inc., 817
F.3d 56, 65–67 (2d Cir. 2016).
Relying on Jander v. Retirement Plans
Committee of IBM, 910 F.3d 620 (2d Cir. 2018), cert.
granted, 139 S.Ct. 2667, 204 L.Ed.2d 1068, 2019 WL
1100213 (June 3, 2019), Plaintiffs also argue that
Defendants should have responded to non-public
information of SunEdison’s financial troubles by making
proper disclosures and halting purchases or divesting
the Plan of SunEdison stock. In Jander we held that a

-App. 6a prudent fiduciary could have concluded that disclosing
the overvaluation of IBM’s microelectronics business
would not have done more harm than good because it
was inevitable that the overvaluation would be disclosed
(the business was about to be sold) and studies showed
early disclosure of fraud would soften the reputational
damage. Id. at 628–30. Unlike the plaintiff in Jander, the
Plaintiffs here have not alleged that an earlier disclosure
of SunEdison’s financial problems might have caused
less damage than a later disclosure. Nor have they
alleged that disclosure of SunEdison’s problems alone,
without also halting purchases of SunEdison stock or
divesting SunEdison stock altogether, would have
sufficed. This case is therefore quite different from
Jander and much closer to Rinehart, in which we
addressed allegations that a prudent fiduciary should
have divested or stopped purchasing stock and held that
a prudent fiduciary could have concluded that such an
action would have done more harm than good. Rinehart,
817 F.3d at 68; see also Fifth Third, 573 U.S. at 429–30,
134 S.Ct. 2459.
Plaintiffs also allege that Defendants breached
their duty of prudence by failing to monitor the Plan’s
assets. But such a claim requires Defendants both to
have improperly monitored investments and to have
failed to remove imprudent ones. See Tibble v. Edison
Int’l, 135 S. Ct. 1823, 1828–29, 191 L.Ed.2d 795 (2015).
Plaintiffs failed to plausibly allege that it was imprudent
for Defendants not to remove any investments.
Plaintiffs further claim that Defendants breached
their duty of loyalty because their compensation was
linked to SunEdison’s financial performance.
Specifically, Plaintiffs argue that Defendants’
compensation structure caused them to pursue a growth

-App. 7a strategy that led to SunEdison’s demise. But Plaintiffs
do not even allege that the compensation structure
caused Defendants to act adversely to the Plan while
acting as fiduciaries, and for that reason we agree with
the District Court’s decision to dismiss that claim. See
Pegram v. Herdrich, 530 U.S. 211, 225–26, 120 S.Ct.
2143, 147 L.Ed.2d 164 (2000); In re DeRogatis, 904 F.3d
174, 191 (2d Cir. 2018). Finally, the District Court
correctly dismissed, on the ground that Plaintiffs failed
to identify any underlying breach of a fiduciary duty
under ERISA, Plaintiffs’ claim that certain fiduciaries
failed to adequately monitor other fiduciaries. See
Rinehart, 817 F.3d at 68.
We have considered Plaintiffs’ remaining
arguments and conclude that they are without merit.
For the foregoing reasons, the judgment of the District
Court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan
Wolfe, Clerk of Court

-App. 8a-

APPENDIX B
UNITED STATES
DISTRICT COURT
SOUTHERN DISTRICT OF
NEW YORK
_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _x
IN RE: SUNEDISON,
INC. ERISA
LITIGATION

OPINION AND ORDER
16-md-2742 (PKC)
16-mc-2744 (PKC)

_ _ _ _ _ _ _ _ _ _ _ _ _ _ _x
CASTEL, U.S.D.J.
Plaintiffs are participants in a definedcontribution retirement savings plan that was available to
employees of SunEdison, Inc. (“SunEdison” or the
“Company”). Before SunEdison filed for bankruptcy
protection in April 2016, it briefly described itself as the
world’s largest renewable energy development company.
Plaintiffs allege that over the course of 2015 and 2016, the
Company launched an aggressive expansion strategy,
which left SunEdison with dwindling liquidity and
onerous borrowing terms. Plaintiffs allege that
management’s decisions caused a collapse in SunEdison’s
share price and drove the Company into bankruptcy.
SunEdison made available to its employees a
retirement savings plan (the “Plan”) governed by the
Employee Retirement Income Security Act of 1974
(“ERISA”), 29 U.S.C. § 1001, et seq. Within the Plan, one

-App. 9ainvestment option was an employee stock ownership plan
(“ESOP”) that invested in the publicly traded shares of
SunEdison itself (the “SunEdison Stock Fund”).
Plaintiffs allege that defendants continued to offer
SunEdison shares as an investment option despite
knowing that the Company was in extreme financial peril.
Plaintiffs allege that defendants knew or should have
known that SunEdison was teetering on collapse, and that
they should have frozen the SunEdison Stock Fund’s
purchase of additional shares and/or sold its existing
holdings. They allege that defendants breached their
duties under ERISA to act as prudent fiduciaries,
monitor the Plan’s investments and loyally represent the
best interests of the Plan and its beneficiaries.
Defendants move to dismiss the Second Amended
Complaint (the “Complaint”) pursuant to Rule 12(b)(6),
Fed. R. Civ. P. Because the Complaint does not satisfy the
pleading standards set forth in Fifth Third Bancorp v.
Dudenhoeffer, 134 S.Ct. 2459, 189 L.Ed.2d 457 (2014), or
otherwise set forth facts that state a claim for relief, the
motion is granted.
BACKGROUND
Plaintiffs Eric O’Day, Robert Linton and Lee
Medina are former SunEdison employees who
participated in the Plan pursuant to ERISA, 28 U.S.C. §
1102(7). (Compl’t ¶¶ 13-16.) They allege that defendants
breached their obligations to act as prudent fiduciaries
under ERISA by continuing to make shares of SunEdison
stock an investment option under the Plan between the
dates of July 20, 2015 and April 21, 2016 (the “Relevant
Period”), when a reasonable fiduciary would not have
done so in light of the Company’s rapidly deteriorating
finances and poor long-term prospects. (Compl’t ¶¶ 1-2.)
All defendants sat on either the Company’s board

-App. 10aof directors or its Investment Committee. As plan
administrator, the Investment Committee was
responsible for the Plan’s day-to-day management, and
was comprised of SunEdison officers and employees
appointed by the Company’s board of directors.1 (Compl’t
¶¶ 26, 41.) Plaintiffs allege that the board of directors had
a duty to appoint prudent individuals to serve on the
Investment Committee and to monitor its performance,
and that the directors failed to take appropriate actions
when they knew or should have known that the
Company’s future was imperiled.2 (Compl’t ¶¶ 5, 7.) The
Complaint alleges that all defendants were fiduciaries of
the SunEdison Stock Fund under ERISA, 29 U.S.C. §
1002(21)(A)(i). (Compl’t ¶¶ 242-43.)
The Plan is a defined-contribution retirement
savings plan that covers eligible employees of SunEdison
and its subsidiaries. (Compl’t ¶ 39.) Participants had a
choice to contribute between 1% and 50% of their pre-tax
salary to the Plan. (Compl’t ¶ 44.) During the Relevant
Period, the Plan offered a number of investment options
to employees, including the SunEdison Stock Fund,
whose holdings typically consisted of 97% SunEdison
stock and 3% cash. (Compl’t ¶ 46.)
1

The Investment Committee’s members included SunEdison CFO
and Chief Administrative Officer Brian Wuebbels, Vice President of
Investor Relations Phelps Morris, Chief Human Resource Officer
Matthew Herzberg, Senior Compensation and Benefits Leader Matt
Martin, and Global Benefits Manager James Welsh, all of whom are
named as defendants. (Compl’t ¶¶ 28-32.)
2

The director defendants include Ahmad Chatila, the company’s
CEO, president and director, as well as board members Emmanuel
T. Hernandez, Antonio R. Alvarez, Peter Blackmore, Clayton Daley,
Georganne Proctor, Steven Tesoriere, James Williams and Randy
Zwirn. (Compl’t ¶¶ 17-25.)

-App. 11aThe Complaint describes “the rise and fall of
SunEdison,” which once touted itself as “the world’s
largest renewable energy development company,” before
it launched an ambitious expansion strategy that left it
with unsustainable debt and diminishing liquidity.
(Compl’t ¶ 57.) Plaintiffs allege that SunEdison lacked
adequate internal controls to track its cash flows and
made numerous public misrepresentations about the
Company’s financial wellbeing. (Compl’t ¶¶ 58-63.) They
describe how SunEdison’s acquisition spree and its
decision to spin off two subsidiaries as public companies
contributed to a growing liquidity crisis that management
failed to disclose, culminating in the Company’s
dependence on certain high-interest, undisclosed loans.
(Compl’t ¶¶ 64-179.) Plaintiffs allege that SunEdison CEO
Ahmad Chatila and CFO Brian Wuebbels had the
incentive to pursue risky, high-growth strategies because
the Company’s executive-compensation package adopted
a formula based on projected future earnings, and not
actual earnings. (Compl’t ¶¶ 104-12.)
According to plaintiffs, because of SunEdison’s
mounting problems, its shares of common stock should
not have been available as an investment choice under the
Plan. (Compl’t ¶¶ 180-207.) Plaintiffs allege that
SunEdison’s risks were “widely reported,” and that based
on these public reports, defendants knew or should have
known that those risks threatened the investments of the
SunEdison Stock Fund. (Compl’t ¶¶ 180-81.) When the
Company’s public statements gradually revealed the
extent of its liquidity shortfalls and unfavorable loan
terms, the price of SunEdison common stock dropped
accordingly. (Compl’t ¶¶ 183-207.) Plaintiffs allege that, as
these disclosures came to light, defendants failed to
conduct themselves as prudent ERISA fiduciaries and to
undertake an investigation of whether SunEdison

-App. 12aremained a prudent investment. (Compl’t ¶¶ 183-207.) In
April 2016, the New York Stock Exchange de-listed
SunEdison and suspended trading of its common stock,
and the Company filed for bankruptcy protection.
(Compl’t ¶¶ 206-07.)
Plaintiffs also allege that, as Company insiders,
the defendants had access to nonpublic information about
the risks confronting SunEdison. (Compl’t ¶ 218.) They
allege that if defendants had divested the Plan of
SunEdison shares based on non-public information, they
could have saved the Plan millions of dollars. (Compl’t ¶¶
219-20.) The Complaint alleges that defendants could not
reasonably have concluded that accumulating more
SunEdison shares would be beneficial to participants, and
that the exercise of prudence should have prompted
defendants to freeze further share purchases and sell
existing holdings. (Compl’t ¶ 222, 224, 231-32.)
The Complaint alleges that defendants breached
their fiduciary duties under ERISA, 29 U.S.C. § 1109(a),
by failing to discharge their duties solely in the interest of
the Plan’s participants. (Compl’t ¶¶ 245-46.) Count One
alleges that the Investment Committee defendants failed
to prudently manage the Plan’s assets and thus breached
fiduciary duties under ERISA. (Compl’t ¶¶ 255-66.) Count
Two alleges that all defendants breached a duty of loyalty
to the Plan’s participants and beneficiaries. (Compl’t ¶¶
267-79.) Count Three alleges that all defendants failed to
adequately monitor the performance of the Plan’s
holdings, and that the board of directors separately failed
to monitor the performance of the Investment Committee
that administered the Plan. (Compl’t ¶¶ 280-91.)
RULE 12(b)(6) STANDARD.
Rule 12(b)(6) requires a complaint to “contain
sufficient factual matter, accepted as true, to ‘state a claim

-App. 13ato relief that is plausible on its face.’ ” Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009)
(quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
570, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007) ). In assessing
the sufficiency of a pleading, a court must disregard legal
conclusions, which are not entitled to the presumption of
truth. Id. Instead, the Court must examine the wellpleaded factual allegations and “determine whether they
plausibly give rise to an entitlement to relief.” Id. at 679,
129 S.Ct. 1937. “Dismissal is appropriate when ‘it is clear
from the face of the complaint, and matters of which the
court may take judicial notice, that the plaintiff’s claims
are barred as a matter of law.’ ” Parkcentral Global Hub
Ltd. v. Porsche Auto. Holdings SE, 763 F.3d 198, 208-09
(2d Cir. 2014) (quoting Conopco, Inc. v. Roll Int’l, 231 F.3d
82, 86 (2d Cir. 2000) ).
In Fifth Third Bancorp v. Dudenhoeffer, 134 S.Ct.
2459, 2470, 189 L.Ed.2d 457 (2014), the Supreme Court
stated that courts must undertake a “careful, contextsensitive scrutiny of a complaint’s allegations” that an
ESOP fiduciary acted imprudently by continuing a plan’s
purchase of company stock. Fifth Third requires a district
court to consider at the pleading stage whether a plaintiff
has plausibly alleged an alternative to the ESOP’s
continued purchase of company shares, including whether
the plaintiff’s proposed course of action would have been
permissible under the federal securities laws and whether
any prudent fiduciary could have concluded that
plaintiffs’ proposed actions would have done more harm
than good to a plan and its participants. Id. at 2472-73.
The Second Circuit has cautioned plaintiffs against
attempts to “plead around” Fifth Third.Rinehart v.
Lehman Bros. Holdings Inc., 817 F.3d 56, 65 (2d Cir.
2016).

-App. 14aDISCUSSION.
A. Overview of ERISA’s Duties for ESOP
Fiduciaries.
“The central purpose of ERISA is ‘to protect
beneficiaries of employee benefit plans.’ ” Rinehart, 817
F.3d at 63 (quoting Slupinski v. First Unum Life Ins. Co.,
554 F.3d 38, 47 (2d Cir. 2009) ). “ERISA requires
fiduciaries to use ‘the care, skill, prudence, and diligence
under the circumstances then prevailing that a prudent
man acting in a like capacity and familiar with such
matters would use in the conduct of an enterprise of a like
character and with like aims.’ ” Pension Benefit Guar.
Corp. ex rel. St. Vincent Catholic Med. Ctrs. Ret. Plan v.
Morgan Stanley Inv. Mgmt., Inc., 712 F.3d 705, 709 (2d
Cir. 2013) (quoting 29 U.S.C. § 1104(a)(1)(B) ). This duty
is assessed “according to the objective prudent person
standard developed in the common law of trusts,” one that
requires the fiduciary to act with “prudence, not
prescience.” Rinehart, 817 F.3d at 63-64 (quotation marks
omitted). A fiduciary who breaches this duty “shall be
personally liable” for any resulting losses. 29 U.S.C. §
1109(a).
ERISA permits and encourages employers to
offer ESOPs, which are considered beneficial because
they encourage participants to invest their savings in the
stock of their employer. Fifth Third, 134 S.Ct. at 2467; see
also Rothstein v. Am. Int’l Grp., 837 F.3d 195, 208 (2d Cir.
2016) (ERISA balances Congress’s encouragement of
ESOPs with a recognition that the interests of a plan and
the employer will sometimes diverge). Fiduciaries of an
ESOP are required to act in the capacity of a prudent
person, but, because of the nature and purpose of an
ESOP, they have no duty to diversify the ESOP’s
holdings. Fifth Third, 134 S.Ct. at 2467; 29 U.S.C. §

-App. 15a1104(a)(2).
When plan documents require ESOP fiduciaries to
invest in the stock of a struggling company, a prudent
fiduciary may “find[ ] himself between a rock and a hard
place....” Fifth Third, 134 S.Ct. at 2470. If the ESOP
continues to invest in a declining stock, the fiduciary could
be potentially liable for acting imprudently in violation of
ERISA’s standard of care, 29 U.S.C. § 1104(a)(1)(B), but
if it stops investing and the company’s stock price rises,
the fiduciary could potentially be liable for disobeying the
plan’s governing documents in violation of 29 U.S.C. §
1104(a)(1)(D). See id. Under ERISA, the duty of prudence
nevertheless “trumps the instructions of a plan
document....” Id. at 2468. Fiduciaries of ESOPs are not
entitled to a presumption of prudence, and courts must
undertake a “careful, context-sensitive scrutiny of a
complaint’s allegations.” Id. at 2470.
In Fifth Third, the Supreme Court explained that
a breach of prudence claim against an ESOP fiduciary
must overcome certain pleading hurdles, depending on
whether the claim is premised on public information that
was available to the markets or, alternatively, whether
the information was known exclusively to insiders. Id. at
2471-73.
“[W]here a stock is publicly traded, allegations
that a fiduciary should have recognized from publicly
available information alone that the market was over- or
undervaluing the stock are implausible as a general rule,
at least in the absence of special circumstances.” Id. at
2471. Because markets are presumed to function
efficiently and incorporate public information, investors
rely on a stock’s price as the market’s accurate valuation.
Id. The Supreme Court left open the possibility that in
certain “special circumstances,” a plaintiff might be able

-App. 16ato plausibly allege that a security’s market price did not
accurately reflect its actual value in light of all public
information, but it did not offer guidance as to what those
circumstances could entail. Id. at 2471. The Second
Circuit has since cautioned that a plaintiff cannot “plead
around Fifth Third” by claiming that a company had
“excessive risk” not reflected in a share’s market value.
Rinehart, 817 F.3d at 65-66.
Separately, where a plaintiff alleges a breach of
the duty of prudence based on inside, non-public
information, the “plaintiff must plausibly allege an
alternative action that the defendant could have taken
that would have been consistent with the securities laws
and that a prudent fiduciary in the same circumstances
would not have viewed as more likely to harm the fund
than to help it.” Fifth Third, 134 S.Ct. at 2472. “[C]ourts
must bear in mind that the duty of prudence ... does not
require a fiduciary to break the law,” including the
securities laws’ restrictions on sales based on inside
information. Id. A court reviewing a motion to dismiss
“should also consider whether the complaint has plausibly
alleged that a prudent fiduciary in the defendant’s
position could not have concluded that stopping
purchases—which the market might take as a sign that
insider fiduciaries viewed the employer’s stock as a bad
investment—or publicly disclosing negative information
would do more harm than good to the fund by causing a
drop in the stock price and a concomitant drop in the value
of the stock already held by the fund.” Id. at 2473.
B. Plaintiffs’ Breach of Prudence Claim Based on
Publicly Available Information Is Dismissed.
The Complaint alleges that members of the
Investment Committee breached a duty of prudence by
continuing to offer SunEdison shares as an investment

-App. 17aoption under the Plan, despite public information
suggesting its shares were excessively risky and unfit for
retirement savings. (Compl’t ¶¶ 212-17.) Because
plaintiffs have not satisfied the pleading threshold of
Fifth Third and Rinehart, any prudence-based claim
premised on public information is dismissed.
In Fifth Third, the Supreme Court concluded that
claims alleging a breach of the duty of prudence based on
the market’s over-valuation of share price “are
implausible as a general rule, at least in the absence of
special circumstances.” 134 S.Ct. at 2471. It explained
that there is “a presumptively efficient market” that
“provides the best estimate of the value of the stocks
traded on it....” Id. at 2472 (quotation marks omitted).
Because an efficient market will incorporate all publicly
available information into the price of publicly traded
stocks, it is generally implausible to allege that a fiduciary
knew or should have known that a stock was overvalued
in light of public information. Id. at 2471-72.
In Rinehart, the Second Circuit concluded that
Fifth Third applies to any prudence-based claim premised
on publicly available information, and is not limited to a
claim asserting market over-valuation. 817 F.3d at 66. The
Rinehart plaintiffs alleged that the fiduciaries of an ESOP
for Lehman Brothers employees imprudently continued
to offer company shares as an investment option, despite
public information showing that the investment “had
become increasingly risky throughout 2008 ....” Id. at 65.
Plaintiffs attempted to distinguish their claims from Fifth
Third by alleging a claim of “excessive risk” rather than
asserting that the share price was inflated above its true
market value. Id. at 65-66. However, the Second Circuit
concluded that Fifth Third’s analysis is “applicable to all
allegations of imprudence based upon public

-App. 18ainformation—regardless of whether the allegations are
framed in terms of market value or excessive risk....” Id.
at 66 (emphasis in original); see also In re Citigroup
ERISA Litig., 104 F.Supp.3d 599, 615-16 (S.D.N.Y. 2015)
(dismissing as implausible a claim that ESOP fiduciaries
imprudently continued to permit investment in an
excessively risky company because the market had
already incorporated risk into share price) (Koeltl, J.).
As in Rinehart, plaintiffs allege that defendants
knew that SunEdison shares were too risky to be an
appropriate retirement investment. (Compl’t ¶¶ 7-9, 56,
211, 230, 256.) The Complaint purports to identify special
circumstances in the public information known about the
Company, pointing to negative press coverage and the
assertion that “global markets turned decisively against
SunEdison and its growth strategy” by mid-2015.
(Compl’t ¶¶ 212-17.) It lists eight items of public
information that it calls “special circumstances” going
toward “the financial stability of the Company....”
(Compl’t ¶ 212.) They include negative press coverage of
SunEdison’s public offerings for its two subsidiary
YieldCo companies, corresponding drops in SunEdison
share price, a 70% drop in the share price of a SunEdison
competitor, the reclassification of Company debt, drastic
changes to the composition of management at a
SunEdison subsidiary and a March 2016 Wall Street
Journal article reporting on an SEC investigation of the
Company. (Compl’t ¶ 212.) Plaintiffs assert that these
special circumstances demonstrated that SunEdison was
not a prudent retirement investment. (Compl’t ¶ 213.)
But these items of public information fail to allege
the special circumstances required by Fifth Third and
Rinehart. They identify negative developments for the
Company, corresponding press reports and subsequent

-App. 19adrops in share price. These drops in share price
correlated to negative news, which is consistent with the
market’s integration of risk into share value. Separately,
a steep drop in the share price of an unaffiliated
competitor does not plausibly allege that a fiduciary was
imprudent in continuing to make shares of SunEdison
available under the Plan. Instead of supporting the
plausibility of plaintiffs’ claims, the relationship between
negative public announcements and declining share price
make it less plausible that SunEdison shares were riskier
than the market’s assessment. The Court therefore
concludes that plaintiffs have not alleged the special
circumstances required by Fifth Third and Rinehart. See
also Kinra v. Chicago Bridge & Iron Co., 2018 WL
2371030 (S.D.N.Y. May 24, 2018) (negative public reports
do not constitute special circumstances) (Schofield, J.).
With no plausible allegations that show special
circumstances, plaintiffs are left with their claim that
defendants breached a duty of prudence by permitting
participants to invest in a plan that was excessively risky.
This does not overcome the pleading threshold adopted
by Fifth Third and Rinehart, and therefore fails to allege
breach of a duty of prudence. Any such claim premised
upon defendants’ actions in light of public information is
therefore dismissed.
C. Plaintiffs’ Breach of Prudence Claim Premised
on Information Known Only to Company Insiders
Is Dismissed.
As noted, Fifth Third also set a pleading bar for
claims premised on a fiduciary’s decision to continue
purchasing company shares in an ESOP, despite the
fiduciary’s access to negative, non-public information. “To
state a claim for breach of the duty of prudence on the
basis of inside information, a plaintiff must plausibly

-App. 20aallege an alternative action that the defendant could have
taken that would have been consistent with the securities
laws and that a prudent fiduciary in the same
circumstances would not have viewed as more likely to
harm the fund than to help it.” Fifth Third, 134 S.Ct. at
2472.
First, Fifth Third explained that the duty of
prudence under ERISA does not require a fiduciary to
break the law, possibly including the federal securities
laws. Id. at 2472-73. If a complaint alleges that fiduciaries
should have stopped purchases or disclosed non-public
information, courts should consider at the pleading stage
any conflict with insider-trading or corporate-disclosure
laws. Id. at 2743.
A court separately must consider “whether the
complaint has plausibly alleged that a prudent fiduciary
in the defendant’s position could not have concluded that
stopping purchases—which the market might take as a
sign that insider fiduciaries viewed the employer’s stock
as a bad investment—for publicly disclosing negative
information would do more harm than good to the fund by
causing a drop in the stock price and a concomitant drop
in the value of the stock already held by the fund.” Id. at
2473. The Supreme Court emphasized this requirement in
Amgen Inc. v. Harris, 136 S.Ct. 758, 760, 193 L.Ed.2d 696
(2016) (per curiam), when it explained that the Ninth
Circuit failed to weigh whether a complaint plausibly
alleged that a prudent fiduciary in the same position “
‘could not have concluded’ that the alternative action
‘would do more harm than good.’ ” (quoting Fifth Third,
134 S.Ct. at 2463). As articulated by the Fifth Circuit,
under this formulation, “the plaintiff bears the significant
burden of proposing an alternative course of action so
clearly beneficial that a prudent fiduciary could not

-App. 21aconclude that it would be more likely to harm the fund
than to help it.” Whitley v. BP, P.L.C., 838 F.3d 523, 529
(5th Cir. 2016) (emphasis in original).
The Complaint notes that SunEdison’s share price
collapsed by 100% during the Relevant Period. (Compl’t ¶
209.) It asserts that, “following proper disclosure,”
defendants could have satisfied their duties under ERISA
by “freezing or limiting additional purchases of
SunEdison Stock by the Plan” and “allowing for the
orderly liquidation of the Plan’s holdings of SunEdison
Stock.” (Compl’t ¶ 209.) According to the Complaint,
defendants “could not reasonably have concluded” that
stopping additional purchases of SunEdison shares
“would do more harm than good” by potentially causing a
drop in share price, since they had “already observed a
significant drop” in the Company’s share price. (Compl’t
¶¶ 222, 235-38.) The Complaint explains that the Plan held
a relatively small percentage of the Company’s total
outstanding shares, making it unlikely that a freeze of
purchases would have caused a significant price drop.
(Compl’t ¶ 224.) The Complaint also contrasts the
performance of SunEdison shares with other investment
options available to Plan participants, and alleges that for
every $100 invested in the SunEdison Stock Fund at the
start of the Relevant Period, a participant would have lost
all but $1.47, whereas the alternative investments
available under the Plan would have left a participant with
an average figure of $97.83. (Compl’t ¶¶ 239-41.)
These allegations do not satisfy Fifth Third’s
strenuous pleading requirements. Plaintiffs speculate
that a “proper disclosure” and subsequent freeze on
purchases and liquidation of shares would not have done
more harm than good. (Compl’t ¶ 209.) While this
allegation incorporates language from Fifth Third, it is

-App. 22aconclusory, and does not plausibly explain its reasoning.
In Rinehart, plaintiffs alleged that fiduciaries of an ESOP
for Lehman Brothers employees should have disclosed
material non-public information and divested company
stock during the summer of 2008, when the company was
on the eve of collapse. 817 F.3d at 68. Rinehart concluded
that “[s]uch an alternative action in the summer of 2008
could have had dire consequences,” and affirmed the
district court’s conclusion that a prudent fiduciary could
have concluded that divesting or freezing company stock
would do more harm than good by accelerating the
company’s collapse and reducing the plan’s value. Id.
(citing In re Lehman Bros. Sec. & ERISA Litig., 113
F.Supp.3d 745, 763 (S.D.N.Y. 2015) ). Plaintiffs have not
plausibly explained why such a scenario would not apply
here.
Plaintiffs do not plausibly allege why such actions
would not have triggered a decline in share price due to
the Plan’s small holdings in SunEdison stock relative to
the overall number of shares outstanding. The Sixth
Circuit rejected such reasoning, concluding “that ceasing
purchases might indicate to the market ‘that insider
fiduciaries viewed the employer’s stock as a bad
investment,’ ” thus causing the stock to drop and “hurting
plan participants.” Saumer v. Cliffs Natural Resources
Inc., 853 F.3d 855, 865 (6th Cir. 2017) (quoting Fifth
Third, 134 S.Ct. at 2473). The same opinion described a
fiduciary’s divestment of a distressed company’s stock as
a “clarion call” that the fiduciary lacked confidence in the
company, with a potential “catastrophic effect” on the
stock price and plan participants. Id. at 860. Given the
status of the Plan’s fiduciaries within the Company, a
freeze or liquidation of shares would plausibly have
prompted a negative market reaction on a scale beyond
the mathematic proportion of the Plan’s holdings

-App. 23astanding alone.
The Complaint asserts that any such negative
consequence is “highly debatable” and “more appropriate
for expert testimony” than scrutiny on a motion to
dismiss. (Compl’t ¶ 224.) However, Fifth Third “requires
careful judicial consideration of whether the complaint
states a claim that the defendant has acted imprudently”
and a “context specific” consideration of then-prevailing
circumstances. 134 S.Ct. at 2471. On a motion to dismiss,
courts are required to address whether a complaint
contains facts that plausibly allege that any reasonable
fiduciary would have concluded that the benefits of
plaintiffs’ proposed actions would have been greater than
the possible harms of a drop in stock price and loss of
value to a plan. Id. at 2473; accord Amgen, 136 S.Ct. at
760. Under Fifth Third, it is a plaintiff’s burden to set
forth facts that plausibly allege why the proposed course
of action would have had the claimed beneficial effect.
Plaintiffs allege that to the extent defendants were
concerned that their actions to protect Plan participants
may have violated the securities laws, they could have
sought guidance from the Department of Labor or the
SEC. (Compl’t ¶ 234.) This allegation turns Fifth Third’s
pleading burden on its head, and leaves an open-ended
question of whether plaintiffs’ proposed course of action
to freeze and/or sell the Plan’s holdings would be
consistent with the federal securities laws.
Because the Complaint has raised conclusory and
speculative allegations that defendants breached their
duty of prudence by not disclosing material non-public
information and thereafter selling or freezing the Plan’s
purchase of SunEdison’s shares, plaintiffs’ prudencebased claims premised on such non-public information are
dismissed.

-App. 24aD. The Complaint Does Not Plausibly Allege a
Separate Failure to Monitor Claim.
Count Three alleges that defendants violated their
duties under ERISA by failing to monitor the
performance of the Plan’s holdings. (Compl’t ¶¶ 280-91.)
The Complaint identifies items of public information
allegedly showing that Company stock “was clearly an
imprudent investment option,” and alleges that the failure
“to actively monitor and assess” the prudence of the
investment caused a material risk to the SunEdison Stock
Fund. (Compl’t ¶ 211.) Plaintiffs urge that the duty to
monitor creates a “ ‘procedural’ prudence” requirement,
which, they say, requires a fiduciary to review a plan’s
holdings and make “prudent consideration” of whether its
investments should continue, regardless of whether the
fiduciaries ultimately maintain or alter the Plan’s
holdings. (Opp. Mem. at 18.)
The Supreme Court described the duty to monitor
in Tibble v. Edison International, 135 S.Ct. 1823, 1828, 191
L.Ed.2d 795 (2015). The Tibble plaintiffs alleged that a
plan’s fiduciaries harmed participants by purchasing
mutual funds at a retail price, instead of at a lessexpensive price available to institutional investors. Id. at
1826. Tibble explained that “[u]nder trust law, a trustee
has a continuing duty to monitor trust investments and
remove imprudent ones. This continuing duty exists
separate and apart from the trustee’s duty to exercise
prudence in selecting investments from the outset.” Id. at
1828. “A plaintiff may allege that a fiduciary breached the
duty of prudence by failing to properly monitor
investments and remove imprudent ones.” Id. at 1829.
Tibble declined to further define the scope of the duty to
monitor. Id.
The relationship between Tibble and the Fifth

-App. 25aThird pleading requirements was raised in Rinehart,
which endorsed without elaboration the district court’s
conclusion that monitoring claims involving an ESOP
should be reviewed under the standards of Fifth Third.
817 F.3d at 66 n.3. Preceding the Second Circuit’s
Rinehart decision, the district court explained: “Plaintiffs
are correct that changed circumstances can trigger a
fiduciary’s obligation to review the prudence of an
investment, but to make out such a claim plaintiffs must
allege that circumstances actually have changed
sufficiently and that the failure to make such a review
injured the plan.” In re Lehman Bros. Sec. & ERISA
Litig., 113 F.Supp.3d 745, 757 (S.D.N.Y. 2015) (Kaplan,
J.). Judge Kaplan concluded that “plaintiffs allege no
facts to suggest that the review they claim should have
been done would have averted the injury that ultimately
occurred when Lehman later collapsed.” Id. He also
described as “pure speculation” the allegation that
additional review by plan fiduciaries “would or should
have resulted in the slightest change of course” in the
plan’s holdings. Id. at 757-58.
The Second Circuit expressly endorsed the district
court’s analysis, stating in a footnote that “[f]or the
reasons stated by the District Court,” the plaintiffs’
reliance on Tibble “is misplaced.” Rinehart, 817 F.3d at 66
n.3. Similarly, prior to Rinehart, Judge Koeltl observed
that Tibble’s description of the duty to monitor had
limited application to claims brought against fiduciaries of
an ESOP, because the claims in Tibble were not directed
to a drop in the stock price of the employer’s shares. In re
Citigroup ERISA Litig., 112 F.Supp.3d 156, 159-60
(S.D.N.Y. 2015). He noted that Tibble cited Fifth Third
without comment, for the limited purpose of re-affirming
ERISA standards on duty-of-prudence claims, and that
Tibble did not speak to Fifth Third’s pleading standard.

-App. 26aId. at 160.
Under the reasoning of Judge Kaplan, which
Rinehart endorsed, it remains plaintiffs’ burden to allege
facts suggesting that additional monitoring of the Plan’s
holdings “would have averted the injury” and caused a
“change of course.” 113 F.Supp.3d at 757-58. The
Complaint does not do so. Plaintiffs’ monitoring claim
again fails to plausibly allege that no prudent fiduciary
could have concluded that a change in the Plan’s holdings
would have done more harm than good. Fifth Third, 134
S.Ct. at 2473. Accepting the truth of the Complaint’s
allegations, a reasonable fiduciary monitoring the Plan’s
holdings of SunEdison stock could have concluded that
freezing or selling the Company’s shares would have
driven the share price downward, hastening its decline
and injuring plan participants.
Separately, plaintiffs’ argument that Tibble
recognized an actionable “procedural” duty to monitor a
plan’s holdings, regardless of any subsequent action
concerning those holdings, over-reads the language of
Tibble. (Opp. Mem. at 18.) Tibble stated that a trustee
“has a continuing duty to monitor trust investments and
remove imprudent ones.” 135 S.Ct. at 1826 (emphasis
added). But Tibble does not stand for the proposition that
ERISA provides an actionable claim based solely on a
procedural duty to monitor, and instead includes the next
step of removing imprudent investments. In the context
of an ESOP claim, that would necessarily require a
plausible allegation explaining how no reasonable
fiduciary could conclude that removing such investments
would not be likely to do more harm than good to the plan
and its participants. Fifth Third, 134 S.Ct. at 2472; see
also Kopp v. Klein, 894 F.3d 214, 221 (5th Cir. 2018)
(assuming that a fiduciary can be liable for breach of

-App. 27aprocedural prudence, a plaintiff would still have to
identify losses resulting from that breach).
To the extent that the Complaint alleges that
members of the board of directors are liable for failing to
monitor the imprudent actions of the Investment
Committee and take corrective actions, any such claim is
dismissed because the Complaint does not plausibly
allege a breach of the duty of prudence. See, e.g.,
Rinehart, 817 F.3d at 68 (affirming dismissal of
monitoring claim when plaintiffs failed to identify a
breach of prudence by the plan committee); Jander v. Int’l
Bus. Machines Corp., 205 F.Supp.3d 538, 546-47
(S.D.N.Y. 2016) (“Because Plaintiffs have failed to allege
an underlying breach, the duty to monitor claim is
dismissed.”) (Pauley, J.). Any claims purporting to allege
that defendants breached co-fiduciary obligations by
participating in one another’s breaches are dismissed for
the same reason. See, e.g., Coulter v. Morgan Stanley &
Co., 753 F.3d 361, 368 (2d Cir. 2014) (dismissing breach of
co-fiduciary duty because such a claim “cannot survive
absent a viable claim for breach of a duty of prudence.”).
Plaintiffs have failed to plausibly allege that
defendants breached a duty to monitor the Plan’s
holdings. Because plaintiffs fail to plausibly allege the
breach of a separate duty to monitor, Count Three of the
Complaint is dismissed.
E. The Complaint Does Not Plausibly Allege a
Breach of the Duty of Loyalty.
Count Two of the Complaint alleges that
defendants breached the duty of loyalty that they owed to
the Plan under ERISA. ERISA’s duty of loyalty is based
in 29 U.S.C. § 1104(a)(1), which requires plan fiduciaries
to act “solely in the interest” of plan “participants and
beneficiaries.” The Second Circuit has described the duty

-App. 28aas one requiring a fiduciary to “act, in Judge Friendly’s
felicitous phrase, with an ‘eye single to the interests of the
participants and beneficiaries.’ ” State St. Bank & Trust
Co. v. Salovaara, 326 F.3d 130, 136 (2d Cir. 2003) (quoting
Donovan v. Bierwirth, 680 F.2d 263, 271 (2d Cir. 1982) ).
If a company’s officers or directors are appointed to act
as plan fiduciaries, they must act loyally to plan
participants when serving in their capacities as ERISA
fiduciaries, and must not be swayed by their separate
responsibilities to the corporation. See Rothstein, 837
F.3d at 209. Because “ERISA presumes that the interests
of the employer and the employer-sponsored plans are
adverse,” the statute’s duty of loyalty is to be strictly
enforced so as to prevent a plan from being controlled by
the employer corporation. Id. at 208 (emphasis in
original).
Plaintiffs allege that all defendants violated the
duty of loyalty. (Compl’t ¶¶ 267-79.) They allege that
because “at least some” defendants were compensated
with SunEdison stock, they were in conflict with the
interests of Plan participants and unable to fulfill their
fiduciary obligations. (Compl’t ¶¶ 272, 276.) They also
allege that defendants did not satisfy the duty of loyalty
because they took no action to protect the Plan when
faced with negative developments for the Company. As an
example, plaintiffs observe that SunEdison’s stock price
fell after the July 2015 announcement of the planned
acquisition of Vivint Solar, Inc., and that the market
reaction was a “red flag[ ]” ignored by defendants.
(Compl’t ¶ 85; Opp. Mem. at 17.)
Plaintiffs’ allegations that some defendants had a
financial interest in the performance of SunEdison stock
is insufficient to allege a breach of the duty of loyalty. As
explained by the Second Circuit:

-App. 29aPlaintiffs do not allege any specific facts
suggesting that defendants’ investments in
[company] stock prompted them to act
against the interests of Plan participants.
Under plaintiffs reasoning, almost no
corporate manager could ever serve as a
fiduciary of his company’s Plan. There
simply is no evidence that Congress intended
such a severe interpretation of the duty of
loyalty.
In re Citigroup ERISA Litig., 662 F.3d 128, 145-46 (2d
Cir. 2011), abrogated on other grounds by Fifth Third,
134 S.Ct. at 2465; accord Coulter, 753 F.3d at 368 (citing
Citigroup ); Kopp, 894 F.3d at 221-22 (allegation that
defendants acted to protect the value of their own shares
could be “consistent with protecting the Plan’s existing
holdings of [company] stock.”). Plaintiffs have not alleged
facts that raise a plausible inference that the interests of
the fiduciaries were antagonistic to those of the Plan, or
that any defendant was enriched at the expense of the
Plan or its participants.
To the extent that plaintiffs allege that defendants
breached the duty of loyalty by failing to act appropriately
in light of negative developments about the Company,
such allegations merely repackage plaintiffs’ breach of
prudence claims under a different label. Because these
allegations are derivative and do not satisfy the Fifth
Third standard, the duty of loyalty claim is also dismissed.
See, e.g., In re Pfizer Inc. ERISA Litig., 2013 WL
1285175, at *10 (S.D.N.Y. Mar. 29, 2013) (dismissing duty
of loyalty claims that were derivative of plaintiffs’
unsuccessful duty of prudence claims) (Swain, J.).
CONCLUSION
Defendants’ motion to dismiss is GRANTED. The

-App. 30aClerk is directed to terminate the motion, as well as the
previous motion to dismiss that was filed prior to the
Complaint’s most recent amendment. (16-md-2742,
Docket # 228, 248; 16-mc-2744, Docket # 27, 33.)
SO ORDERED.

Dated: New York, New York
August 6, 2018

-App. 31a-

APPENDIX C

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
)
IN RE: SUNEDISON,
INC. SECURITIES
LITIGATION

)
)
)
)

Case No. 16-md2742-PKC

THIS DOCUMENT
APPLIES TO:
)
IN RE: SUNEDISON,
INC. ERISA
LITIGATION

)
)
)
)

Case No. 16-mc2744-PKC

SECOND AMENDED
CONSOLIDATED COMPLAINT
FOR BREACH OF ERISA’S FIDUCIARY DUTIES
Plaintiffs Eric O’Day, Robert Linton, Lee Medina,
and Gaurab Samanta (“Plaintiffs”), individually, on behalf
of the SunEdison, Inc. Retirement Savings Plan (the
“Plan”), and on behalf of all other similarly situated Plan
participants and beneficiaries (the “Participants”), bring

-App. 32athis action in a derivative capacity against the belownamed defendants (collectively “Defendants”) pursuant
to §§ 404, 405, 409, and 502 of the Employee Retirement
Income Security Act of 1974 (“ERISA”), 29 U.S.C. §§
1104, 1105, 1109, and 1132.1
NATURE OF THE ACTION
1. This case is about the abject failure of the
SunEdison, Inc. (“SunEdison” or the “Company”)
fiduciaries of the Plan, to protect the interests of Plan
Participants in violation of Defendants’ (defined below)
and SunEdison’s legal obligations under ERISA.
Defendants and SunEdison breached the duties they
owed to the Plan and Plaintiffs by, inter alia, retaining
SunEdison’s common stock (hereafter, “SunEdison
Stock” or “Company Stock”) as an investment option
under the Plan, when a reasonable fiduciary using the
“care, skill, prudence, and diligence . . . that a prudent
man acting in a like capacity and familiar with such
matters” would have done otherwise. See ERISA §
404(a)(1), 29 U.S.C. § 1104(a)(1).
2. Specifically, and as shown in greater detail
below, Defendants permitted the Plan to continue to offer
SunEdison Stock as an investment option to Plan
Participants even after Defendants knew or should have
known that during the Relevant Period — between July
1

All allegations contained herein are based upon personal
information as to Plaintiffs and the investigation of Plaintiffs’ counsel,
including, but not limited to a review of publicly filed documents, or
upon information and belief, where indicated. It is likely that, once
discovery begins in earnest, the roles of additional persons or entities
in the wrongdoing alleged below will be revealed and the wrongdoing
itself will be further illuminated. In that event, Plaintiffs will seek to
amend this Complaint to add new parties and/or claims in accordance
with the Federal Rules of Civil Procedure and this Court’s rules.

-App. 33a20, 2015 and April 21, 2016 — that: (i) the Company was
in extremely poor financial condition and (ii) the Company
faced equally poor long-term prospects, making it an
imprudent retirement investment for the Plan.
Defendants and SunEdison were empowered, as
fiduciaries, to remove SunEdison Stock from the Plan’s
investment options, yet they failed to do that, or to act in
any way to protect the interests of the Plan or its
Participants, in violation of their legal obligations under
ERISA.
3. Throughout the Relevant Time Period,
defendants Ahmad R. Chatila (“Chatila”) and Brian A.
Wuebbels (“Wuebbels”) misrepresented, inter alia, the
Company’s access to capital and cash reserves, progress
of certain energy products to be run by SunEdison’s yield
company subsidiaries (“YieldCos”), TerraForm Power,
Inc. (“TERP”) and TerraForm Global, Inc. (“Global”),
and the financial contribution of a blizzard of acquisitions
to SunEdison’s bottom line. In order to carry out this
scheme, Chatila and Wuebbels filed documents setting
forth false information with the Securities and Exchange
Commission (“SEC”), gave false information to third
parties with which SunEdison was doing business, and
misstated the Company’s prospects in earnings calls and
investor presentations. When SunEdison’s liquidity
needs became particularly acute, defendants even went so
far as to use their voting control over the YieldCos to
replace the conflicts committees of the YieldCos with new
individuals, including defendant Peter Blackmore
(“Blackmore”) who would acquiesce to the looting of the
corporate coffers of Global, Inc. This looting was done in
order to satisfy ill-advised debt obligations that the
Company had assumed in order to finance the reckless
acquisition spree spearheaded by Chatila in his capacity
as CEO.

-App. 34a4. Separate and apart from defendant Chatila’s
wrongdoing, defendant Wuebbels’ wrongdoing is
particularly acute because he sat on the SunEdison
Investment Committee (defined below), which was
responsible for investing Plan assets in SunEdison Stock,
even though the Company’s employees were counting on
those funds for retirement. At the same time that
defendant Wuebbels was misleading SunEdison
shareholders, the SEC, and other companies with which
SunEdison was doing business, he was also directing
employee-class members’ money into a fund that
purchased SunEdison Stock. There were so many red
flags and warning signs that came to light during
SunEdison’s demise that defendant Wuebbels and the
other members of the Investment Committee could not
have possibly thought that SunEdison Stock was a
prudent investment option. As a result of their
imprudence, the Plan Participants lost their hard-earned
money.
5. The Investment Committee members however,
were not the only people at SunEdison who were at fault.
Each member of the Company’s Board of Directors (the
“SunEdison Board”) had a responsibility to appoint
prudent individuals to the Investment Committee,
monitor their performance, and keep them apprised of
facts and circumstances that would impact the
performance of SunEdison Stock. Each defendant on
SunEdison’s Board had actual knowledge of the
Company’s poor performance outlook, and nevertheless
failed to take action to have the Investment Committee
cease investment of Plan Assets in SunEdison Stock, or
otherwise appoint Investment Committee members who
would.
6.

In the Declaration of Patrick M. Cook (“Cook”)

-App. 35afiled on the date that SunEdison petitioned for relief
under the Bankruptcy Code, Cook, the Company’s Vice
President of Capital Markets and Global Finance,
attested to the truth of a chart detailing the “pivotal
events preceding the filing of” the bankruptcy petition:

7. Defendants had knowledge of the facts,
circumstances, risks, and dangers posed by many of these
events, yet did nothing to safeguard the interest of the
Plan Participants. As a result, the Plan Participants’
investments in SunEdison Stock have been completely
wiped out, as there will not be any distribution of assets
to equity holders. As explained in the Debtors’ Omnibus
Response to Requests to Appoint an Official Committee
of Equity Security Holders filed with the Bankruptcy
Court on June 2, 2016:
The Debtors and their advisors are fully aware of the
financial hardship suffered by SunEdison, Inc.
equity holders as a result of the present situation.
Recognizing that hardship, the Debtors and their
advisors have been taking all appropriate steps to
maximize the value of the estate for all stakeholders,
including equity holders, and intend to continue
doing so. There is nothing the Debtors desire more
than to be able to pay all creditors and return value
to equity holders. Unfortunately, the facts of this

-App. 36asituation lead to the inevitable conclusion that this is
entirely unlikely. Accordingly, in response to certain
requests and this Court’s Order to Show Cause Why
an Official Committee of Equity Security Holders
Should Not Be Appointed in these Chapter 11 Cases
[Doc. No. 356] (“Order to Show Cause”), the Debtors
respectfully submit that such “extraordinary relief”
is not appropriate here. Simply put, there is no basis
to conclude that there will be any recovery – let alone
a “meaningful” one – for equity holders. To the
contrary, numerous indicators demonstrate that
many of the Debtors’ creditors will themselves
receive only a fractional recovery on their claims,
thereby precluding any recovery for equity under
the absolute priority rule.”
8. The thrust of Plaintiffs’ allegations under
Counts I (breach of the duty of prudence) and II (breach
of the duty of loyalty) is that Defendants allowed the
investment of the Plan’s assets in SunEdison Stock
throughout the Relevant Period despite the fact that
Defendants knew or should have known at least by the
beginning of the Relevant Period that that investment
was imprudent as a retirement vehicle for the Plan.
9. SunEdison Stock was also imprudent during
the Relevant Period in light of the circumstances
demonstrating SunEdison’s perilous financial condition
including, among other things and as explained in detail
below, a sea-change in the basic risk profile and business
prospects of SunEdison.
JURISDICTION AND VENUE
10. Subject Matter Jurisdiction. This Court has
subject matter jurisdiction over this action pursuant to 28
U.S.C. § 1331 and ERISA § 502(e)(1), 29 U.S.C. §
1132(e)(1).

-App. 37a11. Personal Jurisdiction. This Court has
personal jurisdiction over all Defendants because they
are all residents of the United States and ERISA
provides for nation-wide service of process pursuant to
ERISA § 502(e)(2), 29 U.S.C. § 1132(e)(2).
12. Venue. Venue is proper in this District pursuant
to ERISA § 502(e)(2), 29 U.S.C.§ 1132(e)(2). This case was
filed in the Eastern District of Missouri, where venue was
proper because the Plan is administered in such District,
some or all of the fiduciary breaches for which relief is
sought occurred in such District, and one or more
defendants reside or may be found in such District. This
action was transferred to this District by the MDL Panel
in response to a motion filed by the court-appointed lead
plaintiffs in a related securities fraud action.
PARTIES
Plaintiffs
13. Plaintiff Eric O’Day (“O’Day”) is a former
SunEdison employee and “participant” in the Plan, within
the meaning of ERISA § 3(7), 29 U.S.C. § 1102(7). During
the Relevant Period, Plaintiff O’Day held shares of
SunEdison Stock through his individual Plan account, and
suffered losses as a result of investing his retirement Plan
assets in SunEdison Stock. Specifically, during the
Relevant Period, the value of SunEdison shares in
Plaintiff O’Day’s account diminished as a result of
Defendants’ and SunEdison’s breaches of fiduciary duty
described herein. Plaintiff O’Day is no different, in all
material respects, than the thousands of other SunEdison
employees who entrusted the Defendant-fiduciaries with
their retirement savings.
14. Plaintiff Robert Linton (“Linton”) is a former
SunEdison employee and “participant” in the Plan, within

-App. 38athe meaning of ERISA § 3(7), 29 U.S.C. § 1102(7). During
the Relevant Period, Plaintiff Linton held shares of
SunEdison Stock through his individual Plan account, and
suffered losses as a result of investing his retirement Plan
assets in SunEdison Stock. Specifically, during the
Relevant Period, the value of SunEdison shares in
Plaintiff Linton’s account diminished as a result of
Defendants’ and SunEdison’s breaches of fiduciary duty
described herein. Plaintiff Linton is no different, in all
material respects, than the thousands of other SunEdison
employees who entrusted the Defendant-fiduciaries with
their retirement savings.
15. Plaintiff Lee Medina (“Medina”) is a former
SunEdison employee and “participant” in the Plan, within
the meaning of ERISA § 3(7), 29 U.S.C. § 1102(7). During
the Relevant Period, Plaintiff Medina held shares of
SunEdison Stock through his individual Plan account, and
suffered losses as a result of investing his retirement Plan
assets in SunEdison Stock. Specifically, during the
Relevant Period, the value of SunEdison shares in
Plaintiff Medina’s account diminished as a result of
Defendants’ and SunEdison’s breaches of fiduciary duty
described herein. Plaintiff Medina is no different, in all
material respects, than the thousands of other SunEdison
employees who entrusted the Defendant-fiduciaries with
their retirement savings.
16. Plaintiff Gaurab Samanta (“Samanta”) is a
former SunEdison employee and "participant" in the Plan,
within the meaning of ERISA § 3(7), 29 U.S.C. § 1102(7).
During the Relevant Period, Plaintiff Samanta held
shares of SunEdison Stock through his individual Plan
account, and suffered losses as a result of investing his
retirement Plan assets in SunEdison Stock. Specifically,
during the Relevant Period, the value of SunEdison

-App. 39ashares in Plaintiff Samanta’s account diminished as a
result of Defendants’ and SunEdison’s breaches of
fiduciary duty described herein. Plaintiff Samanta is no
different, in all material respects, than the thousands of
other SunEdison employees who entrusted the
Defendant-fiduciaries with their retirement savings.
Director Defendants
17. Defendant Chatila served as the President,
Chief Executive Officer (“CEO”) and a Director of
SunEdison, a Director and Chairman of the Board of
Directors of TERP, and a Director and Chairman of the
Board of Directors of Global. Chatila became President
and CEO of SunEdison and a member of the SunEdison
Board in March 2009. Chatila oversaw the acquisition of
SunEdison LLC in 2009 and, during the Relevant Period,
developed SunEdison’s solar strategy. On November 20,
2015, Chatila resigned as Chairman of the Board, and on
May 26, 2016, as Director of both TERP and Global. On
June 22, 2016, Chatila resigned as President and CEO of
SunEdison. During the Relevant Period, Chatila
possessed discretionary authority or discretionary
responsibility in the administration of the Plan, and he
exercised authority or control with respect to the
management of the Plan’s assets through his appointment
of other Plan fiduciaries.
18. Defendant
Emmanuel
T.
Hernandez
(“Hernandez”) has served as Chairman of the SunEdison
Board since January 2013 and as a member of the
SunEdison Board since 2009. He served as Executive
Chairman of the Board beginning in November 2015.
From April 2005 to November 2008, he served as the CFO
of SunPower Corporation. Hernandez retired as CFO of
SunPower in November 2008, but continued in a
transition role at SunPower until January 2009. The adult

-App. 40ason of Hernandez was employed by the Company during
2014 in the capacity of a software quality assurance
engineer. The Company paid Hernandez’s son $136,837 in
2014. Hernandez’s son has been employed with the
Company since 2011. During the Relevant Period,
Hernandez possessed discretionary authority or
discretionary responsibility in the administration of the
Plan, and he exercised authority or control with respect
to the management of the Plan’s assets through his
appointment of other Plan fiduciaries.
19. Defendant Antonio R. Alvarez (“Alvarez”) has
served as a director of SunEdison since 2012. During the
Relevant Period, Alvarez also served as a member of
SunEdison’s Compensation Committee. Among other
documents, Alvarez signed the September 9, 2013 Shelf
Registration Statement2 and was a director of SunEdison
on August 18, 2015, the date of the Preferred Offering.
During the Relevant Period, Alvarez possessed
discretionary authority or discretionary responsibility in
the administration of the Plan, and he exercised authority
or control with respect to the management of the Plan’s
assets through his appointment of other Plan fiduciaries.
2

On August 17, 2015, SunEdison announced that it intended to
conduct an offering of 500,000 shares of convertible preferred
securities to raise funds “for general corporate purposes,” including
“funding working capital and growth initiatives.” (defined above as
the “Preferred Offering”). Just one day later, on August 18, the
Company announced that it had increased the Preferred Offering to
650,000 shares, priced at $1,000 per share, to raise $650 million in
total. That day, SunEdison filed a prospectus supplement (the
“Offering Prospectus”) to its September 9, 2013 shelf registration
statement filed on Form S-3 (the “Shelf Registration,” and together
with the Preferred Offering Prospectus, the “Offering Documents”)
for the offering of series A perpetual convertible preferred stock
(“Preferred Stock”).

-App. 41a20. Defendant Peter Blackmore (“Blackmore”)
was, at all relevant times, a director of SunEdison.
Blackmore became a director of MEMC Electronic
Materials, Inc. (“MEMC”) the former name of the
SunEdison parent company, in February 2006. He served
as a director of SunEdison from February 2006 until
November 2015 when he resigned from the Company’s
Board. During the Relevant Period, Blackmore served as
Chairman of SunEdison’s Nominating and Corporate
Governance Committee and a member of SunEdison’s
Compensation and Finance and Investment Committees.
After resigning from SunEdison in November 2015,
Blackmore served as Chairman of the Board of TERP
and Global as of November 2015 and served as Chairman
of TERP and Global’s Corporate Governance and
Conflicts Committee (the “Conflicts Committee”) as of
November 2015. Blackmore signed the September 9, 2013
Shelf Registration Statement and was a director of
SunEdison on August 18, 2015, the date of the Preferred
Offering. As a member of Global’s Conflicts Committee,
Blackmore authorized the filing of the Global Complaint
against SunEdison. During the Relevant Period,
Blackmore possessed discretionary authority or
discretionary responsibility in the administration of the
Plan, and he exercised authority or control with respect
to the management of the Plan’s assets through his
appointment of other Plan fiduciaries.
21. Defendant Clayton Daley (“Daley”) was, at all
relevant times, a director of SunEdison. Daley joined
SunEdison as member of the SunEdison Board on August
1, 2014. Daley also served as a member of SunEdison’s
Audit Committee and Finance and Investment
Committee. Daley was a director of SunEdison on August
18, 2015, the date of the Preferred Offering. During the
Relevant Period, Daley possessed discretionary authority

-App. 42aor discretionary responsibility in the administration of the
Plan, and he exercised authority or control with respect
to the management of the Plan’s assets through his
appointment of other Plan fiduciaries.
22. Defendant Georganne Proctor (“Proctor”)
was, at all relevant times, a director of SunEdison.
Proctor joined SunEdison’s Board on October 30, 2013.
Proctor also served on SunEdison’s Audit Committee,
and, in June 2014, was appointed Chairman of
SunEdison’s Audit Committee, a position which she held
throughout the end of the Relevant Period. Proctor was a
director of SunEdison on August 18, 2015, the date of the
Preferred Offering. During the Relevant Period, Proctor
possessed discretionary authority or discretionary
responsibility in the administration of the Plan, and she
exercised authority or control with respect to the
management of the Plan’s assets through his appointment
of other Plan fiduciaries.
23. Defendant Steven Tesoriere (“Tesoriere”)
was, at all relevant times, a director of SunEdison. In
October 2012, Tesoriere was appointed to serve as a
director of the Board of MEMC, and served on the
SunEdison Board from that time until his resignation on
January 19, 2016. Tesoriere also served as a member of
SunEdison’s Audit Committee and served as the
Chairman of the Company’s Finance and Investment
Committee. Tesoriere also served as a TERP director
beginning in May 2014, a Global director beginning in
August 2015, and served as a member of the YieldCos’
Audit Committees until he resigned as director of the
YieldCos on November 20, 2015. Tesoriere signed the
September 9, 2013 Shelf Registration Statement and was
a director of SunEdison on August 18, 2015, the date of
the Preferred Offering. During the Relevant Period,

-App. 43aTesoriere possessed discretionary authority or
discretionary responsibility in the administration of the
Plan, and he exercised authority or control with respect
to the management of the Plan’s assets through his
appointment of other Plan fiduciaries.
24. Defendant James Williams (“Williams”) was,
at all relevant times, a director of SunEdison. Williams
served as a director of MEMC beginning in 2003 and
thereafter served as a director of SunEdison after the
Company changes its name. Williams also served as
Chairman of SunEdison’s Compensation Committee and
as a member of SunEdison’s Nominating and Corporate
Governance Committee. Williams signed the September
9, 2013 Shelf Registration Statement and was a director
of SunEdison on August 18, 2015, the date of the
Preferred Offering. During the Relevant Period, Williams
possessed discretionary authority or discretionary
responsibility in the administration of the Plan, and he
exercised authority or control with respect to the
management of the Plan’s assets through his appointment
of other Plan fiduciaries.
25. Defendant Randy Zwirn (“Zwirn”) was, at all
relevant times, a director of SunEdison. Zwirn joined
MEMC’s Board of Directors and served as a director
beginning in March 2013 and thereafter served as a
director of SunEdison. Zwirn also served as a member of
SunEdison’s Finance and Investment Committee and
Nominating and Corporate Governance Committee.
Zwirn signed the September 9, 2013 Shelf Registration
Statement and was a director of SunEdison on August 18,
2015, the date of the Preferred Offering. During the
Relevant Period, Zwirn possessed discretionary authority
or discretionary responsibility in the administration of the
Plan, and he exercised authority or control with respect

-App. 44ato the management of the Plan’s assets through his
appointment of other Plan fiduciaries.
Investment Committee Defendants
26. Defendant the Investment Committee
(“Investment Committee”). The Investment Committee
is comprised of certain Company employees/officers
appointed by the SunEdison Board on behalf of the
Company as Plan Administrator. The Investment
Committee is charged with the day-to-day management
and administration of the Plan and/or management and
disposition of the Plan’s assets.
27. Pursuant to Article XVIII, Section 18.1 of the
MEMC/SunEdison Retirement Savings Plan:
The Investment Committee may establish one or
more Pooled Investment Funds, with different
investment objectives, from time to time; and
establish procedures consistent with the Plan
permitting Participants to direct investment of all or
a designated portion of their Individual Accounts
among such Pooled Investment Funds. The
Investment Committee also may designate
Segregated Investment Funds in which Participants
may direct investment of all or a designated portion
of their Individual Accounts. […]
See Wheeler-104b_0004597.
28. Defendant Wuebbels was, at all relevant times,
the Executive Vice President, Chief Administrative
Officer (“CAO”), and CFO of SunEdison. Wuebbels is also
a member of the Investment Committee. Beginning his
tenure at SunEdison in 2007, Wuebbels held numerous
positions before being appointed Executive Vice
President and CFO of SunEdison in May 2012 and its
CAO in December 2014. Wuebbels served as TERP’s and

-App. 45aGlobal’s director and was also appointed as the CEO and
President of TERP and Global in November 2015. On
March 30, 2016, Wuebbels resigned as TERP’s and
Global’s President and CEO. On May 10, 2016, SunEdison
announced that Wuebbels would be resigning as CFO and
CAO of SunEdison, with his last day of employment being
on June 9, 2016. During the Relevant Period, Wuebbels
possessed discretionary authority or discretionary
responsibility in the administration of the Plan, and he
exercised authority or control with respect to the
management of the Plan’s assets through his appointment
of other Plan fiduciaries.
29. Defendant Phelps Morris (“Morris”) was the
Vice President of Investor Relations at the Company.
Morris is also a member of the Investment Committee.
During the Relevant Period, Morris possessed
discretionary authority or discretionary responsibility in
the administration of the Plan, and he exercised authority
or control with respect to the management of the Plan’s
assets through his appointment of other Plan fiduciaries.
30. Defendant Matthew Herzberg (“Herzberg”)
joined SunEdison as Senior Vice President and Chief
Human Resource Officer in March 2011. Herzberg is also
a member of the Investment Committee. During the
Relevant Period, Herzberg possessed discretionary
authority or discretionary responsibility in the
administration of the Plan, and he exercised authority or
control with respect to the management of the Plan’s
assets through his appointment of other Plan fiduciaries.
31. Defendant Matt Martin (“Martin”) was a
Senior Compensation and Benefits Leader at the
Company. Martin is also a member of the Investment
Committee. During the Relevant Period, Martin
possessed discretionary authority or discretionary

-App. 46aresponsibility in the administration of the Plan, and he
exercised authority or control with respect to the
management of the Plan’s assets through his appointment
of other Plan fiduciaries.
32. Defendant James Welsh (“Welsh”) was, at all
relevant times, SunEdison’s Global Benefits Manager.
Welsh is also a member of the Investment Committee.
During the Relevant Period, Welsh possessed
discretionary authority or discretionary responsibility in
the administration of the Plan, and he exercised authority
or control with respect to the management of the Plan’s
assets through his appointment of other Plan fiduciaries.
33. Defendants John Does 1-10 were persons who
had the duty and responsibility to properly appoint,
monitor and inform the members of the Investment
Committee and/or other persons who exercised day-today responsibility for the management and
administration of the Plan and its assets. John Does 1–10
failed to properly monitor and inform such persons in that
these defendants failed to adequately inform such
persons about the true financial and operating condition
of the Company or, alternatively, these defendants did
adequately inform such persons of the true financial and
operating condition of the Company (including the
financial and operating problems being experienced by
SunEdison during the Relevant Period identified herein),
but nonetheless continued to allow such persons to offer
SunEdison Stock as investment options when SunEdison
Stock was not a prudent investment for the Plan
Participants’ retirement accounts under the Plan.
34. Instead of delegating fiduciary duties for the
Plan to outside service providers, SunEdison internalized
the Plan’s fiduciary functions and appointed its officers
and senior executives as Plan fiduciaries. As such, all of

-App. 47athese officers and senior executives owed a fiduciary duty
of loyalty to act solely in the interests of the Plan and its
Participants.
Non-Party SunEdison
35. SunEdison, Inc., a solar startup that was
acquired by semiconductor company MEMC Electronic
Materials, Inc. in 2009 for $200 million, is a Delaware
corporation headquartered at 13736 Riverport Dr.,
Maryland Heights, Missouri. On May 30, 2013, MEMC
Electronic Materials, Inc. changed the entire
conglomerate’s name to SunEdison, and the Company
subsequently changed its business model to focus on clean
energy.
36. According to the Plan’s annual report on the
Form 11-K for the fiscal year ended December 31, 2014,
filed with the SEC on June 29, 2015 (“2014 Form 11-K”),
SunEdison is the sponsor of the Plan. Id. at 4.
37. At all relevant times, SunEdison acted with
respect to the Plan’s assets through its officers and
employees and members of the SunEdison Board, who
performed Plan-related fiduciary functions in the course
and scope of their employment and/or affiliation with
SunEdison. Upon information and belief, the SunEdison
Board and/or the Investment Committee members are
responsible for reviewing the performance of any Plan
fiduciary or other person(s) or entity(ies) to whom
fiduciary duties have been delegated or allocated with
respect to the Plan’s assets.
38. SunEdison is not named as a defendant in this
Consolidated Complaint because it petitioned for relief
under the United States Bankruptcy Code on April 21,
2016, and is therefore subject to the automatic stay
provision set forth at 11 U.S.C. § 362. SunEdison was
named in Plaintiffs’ earlier complaints, which were filed

-App. 48abefore that date, and Plaintiffs reserve any and all claims
against and rights with respect to SunEdison, including
but not limited to the right to seek relief from the
automatic stay provision and add SunEdison as a party.
Plaintiffs’ election to not name SunEdison in this Second
Amended Consolidated Complaint shall not constitute a
waiver of Plaintiffs’ rights or claims.
THE PLAN
Purpose
39. The Plan is “a defined contribution retirement
savings plan,” covering all eligible employees of
SunEdison and its subsidiaries. See 2014 Form 11-K at 4.
40. Upon information and belief, the purpose of the
Plan is to provide Plan Participants with the opportunity
to save for retirement.
Administration of the Plan
41. As noted above, the Investment Committee has
served as the Plan Administrator during the Relevant
Period. See 2014 Form 11-K at 4.
42. Upon information and belief, the Investment
Committee, as Plan Administrator, is responsible for the
day-to-day administration and operation of the Plan.
Contributions
43. As explained by the 2014 Form 11-K, during the
Relevant Period, the Plan has provided for the following
types of contributions:
•

Employee salary deferrals;

•

Employee matching contributions;

•

Employer non-matching contributions; and

•

Employer “rollover” contributions.

See 2014 Form 11-K at 4.

-App. 49a44. In particular, Plan Participants may elect to
contribute to the Plan from 1% to 50% of their salary on a
pre-tax basis.3 See 2014 Form 11-K at 4. With respect to
the Company’s matching contributions, a Plan
Participant “is eligible to receive employer-matching
contributions of 100% of the first 3% of the employee’s
contribution, 50% of the next 2% contributed, and 20% of
the next 1% contributed, up to 4.2% of the participant’s
covered compensation for the Plan year.” Id. The
Company “additionally contributes 2% of compensation
as a non-matching contribution on behalf of all
participants.” Id. Finally, Plan Participants can
contribute amounts representing distributions from other
qualified defined benefit or contribution plans (rollover).
Id.
Vesting
45. According to the 2014 Form 11-K, all Plan
Participant accounts are immediately and fully vested. Id.
at 4.
SUNEDISON STOCK FUND
46. During the Relevant Period, the Plan offered a
number of investment options, including a fund to invest
in Company Stock (the “SunEdison Stock Fund”). See
2014 Form 11- K at 4, 8. The SunEdison Stock Fund is
“typically comprised of approximately 97% SunEdison
common stock and 3% cash.” Id. at 5. “Unitized
accounting allows for same-day processing of transactions
within the SunEdison Stock Fund.” Id. Inter-fund
3

The pre-tax contribution is limited to the amount specified by
Section 402(g) of the Internal Revenue Code ($17,500 in 2014 and
2013). See 2014 Form 11-K at 4. Plan Participants who attained the
age of 50 before the end of the Plan year are eligible to make catchup contributions. Id.

-App. 50atransfers in and out of the SunEdison Stock Fund are
limited to one per week. Id. at 4.
47. At December 31, 2014 and 2013, the Plan held
1,203,446 and 1,395,713 units of the SunEdison Stock
Fund, respectively, of SunEdison Stock, with a fair
market value of $16,822,243 and $18,214,054, respectively.
As of December 31, 2015, the Plan held 1,285,874 units of
SunEdison Stock, with a fair market value of $4,979,417.4
CLASS ACTION ALLEGATIONS IN THE
ALTERNATIVE
48. Plaintiffs bring this action derivatively
pursuant to § 502(a)(2) and (3) of ERISA, 29 U.S.C. §
1132(a)(2) and (3). Plaintiffs bring this action derivatively
on the Plan’s behalf pursuant to ERISA §§ 409 and 502,
29 U.S.C. §§ 1109 and 1132, and, in the alternative, as a
class action pursuant to Rules 23(a), (b)(1), and/or (b)(2)
of the Federal Rules of Civil Procedure on behalf of the
Plan, Plaintiffs, and the following class of similarly
situated persons (the “Class”):
All persons, except Defendants and their immediate
family members, who were participants in or
beneficiaries of the SunEdison Retirement Savings
Plan at any time between July 20, 20155 and April 21,
2016 (the “Relevant Period”) and whose Plan
accounts included investments in SunEdison Stock.

4

The Company’s Form 11-Ks report the Stock Fund units as
shares. The Stock Fund consists of shares of the Company and cash
and the therefore the number of Plan’s share equivalent is less than
the Stock Fund.
5

Plaintiffs reserve their right to modify the Relevant Period
definition in the event that further investigation/discovery reveals a
more appropriate and/or broader time period during which SunEdison
Stock constituted an imprudent investment option for the Plan.

-App. 51a49. Given ERISA’s distinctive representative
capacity and remedial provisions, courts have observed
that ERISA litigation of this nature presents a
paradigmatic example of a FED. R. CIV. P. 23(b)(1) class
action.
50. The members of the Class are so numerous that
joinder of all members is impracticable. While the exact
number of Class members is unknown to Plaintiffs at this
time, and can only be ascertained through appropriate
discovery, Plaintiffs believe there are thousands of
employees of SunEdison who participated in, or were
beneficiaries of, the Plan during the Relevant Period
whose Plan accounts included SunEdison Stock. For
example, at the end of Plan year 2014, there were 2,153
Participants in the Plan. See 2014 Plan Form 5500 filed
with the Department of Treasury Internal Revenue
Service and the Department of Labor.
51. At least one common question of law or fact
exists as to Plaintiffs and all members of the Class.
Indeed, multiple questions of law and fact common to the
Class exist, including, but not limited to:
•

whether Defendants each owed a fiduciary duty
to the Plan, Plaintiffs, and members of the
Class;

•

whether Defendants breached their fiduciary
duties to the Plan, Plaintiffs, and members of
the Class by failing to act prudently and solely
in the interests of the Plan and the Plan’s
Participants and beneficiaries;

•

whether Defendants violated ERISA; and

•

whether the Plan, Plaintiffs, and members of
the Class have sustained damages and, if so,
what is the proper measure of damages.

-App. 52a52. Plaintiffs’ claims are typical of the claims of the
members of the Class because the Plan, Plaintiffs, and the
other members of the Class each sustained damages
arising out of Defendants’ wrongful conduct in violation of
ERISA as complained of herein.
53. Plaintiffs will fairly and adequately protect the
interests of the Plan and members of the Class because
they have no interests antagonistic to or in conflict with
those of the Plan or the Class. In addition, Plaintiffs have
retained counsel competent and experienced in class
action litigation, complex litigation, and ERISA litigation.
54. Class action status in this ERISA action is
warranted under Rule 23(b)(1)(B) because prosecution of
separate actions by the members of the Class would
create a risk of adjudications with respect to individual
members of the Class which would, as a practical matter,
be dispositive of the interests of the other members not
parties to the action, or substantially impair or impede
their ability to protect their interests.
55. Class action status is also warranted under the
other subsections of Rule 23(b)(1)(A) and (b)(2) because:
(i) prosecution of separate actions by the members of the
Class would create a risk of establishing incompatible
standards of conduct for Defendants; and (ii) Defendants
have acted or refused to act on grounds generally
applicable to the Class, thereby making appropriate final
injunctive, declaratory, or other appropriate equitable
relief with respect to the Class as a whole.
FACTS BEARING UPON DEFENDANTS’
FIDUCIARY BREACHES
56. During the Relevant Period, Defendants knew
or should have known that Company Stock had become
an imprudent Plan investment option because the
Company’s basic risk profile had been so dramatically

-App. 53aaltered due to reckless acquisition strategy detailed below
that it was no longer a prudent retirement investment for
the Plan. As explained herein, the Relevant Period begins
no later than July 20, 2015. During the Relevant Period,
Defendants failed to cure their fiduciary breaches
because, upon information and belief, SunEdison Stock
Fund remained an investment option under the Plan and
the fiduciaries did not freeze the SunEdison Stock Fund,
or taken any other action, consistent with ERISA and the
federal securities laws, to prevent the Plan and its
Participants from investing any more money in the failing
SunEdison Stock.
57. Plaintiffs’ action concerns the rise and fall of
SunEdison, which at its peak billed itself as “the world’s
largest renewable energy development company.”
Defendants caused the Company to fall victim, however,
to rapid, aggressive, and ill-advised expansion plans
spearheaded by Chatila, the Company’s former CEO,
which required taking on inordinate amounts of corporate
debt. During the Relevant Period, Chatila and CFO
Wuebbels, among others, both publicly and privately
downplayed the severity of the liquidity constraints and
debt burdens. Indeed, as set forth herein, Defendants
misrepresented and omitted facts relevant to the
Company’s cash on hand and debt exposure. Insiders at
SunEdison and the YieldCo subsidiaries repeatedly
raised issues and pointed out red flags. According to a
complaint filed by Global against Sun Edison, Chatila,
Wuebbels, and SunEdison’s Senior Vice President,
General Counsel and Secretary Martin H. Truong,6
certain Global insiders, including former Global CFO
6

Terraform Global, Inc. v. SunEdison Inc, et al., C.A. No.
12159-VCL (Del. Ch. filed Apr. 3, 2016) (the “Global/SunEdison
Action”).

-App. 54aAlex Hernandez, former Global CEO Carlos Domenech
Zornoza (“Domenech”), and former Global COO
Francisco Perez Gundin (“Perez”)7 had collectively
“raised concerns with SunEdison’s Board about the
extent of SunEdison’s liquidity and the accuracy of
SunEdison’s public statements regarding its financial
condition.” Even in the face of this and other
protestations, however, Defendants continued their
reckless course forward despite Defendants’ knowledge
of severe liquidity problems.
58. SunEdison admitted that its internal controls
over financial reporting suffered from material
undisclosed weaknesses. On March 16, 2016, in a Form 8K filed with the SEC, SunEdison announced that it would
be delaying the filing of its 2015 Form 10-K because it had
identified material weaknesses in its internal controls
over financial reporting. Specifically, SunEdison stated
that “[t]he scope of work required to finalize the
Company’s financial statements included in the 2015
Annual Report on Form 10-K has expanded due to the
identification by management of material weaknesses in
its internal controls over financial reporting, primarily
resulting from deficient information technology controls
in connection with newly implemented systems.” As a
result, the Company would not be able to file its annual
Form 10-K with the SEC in a timely manner. That same
day, TERP also announced that it would be delaying the
filing of its 2015 Form 10-K because it relied on
SunEdison’s flawed internal controls over financial
7

Domenech and Perez are plaintiffs in two
whistleblower actions against TERP and others pending in the
United States District Court for the District of Maryland:
Zornoza v. TerraForm Global, Inc., No. 17-cv-0515-GJH (D.
Md.), and Gundin v. TerraForm Global, Inc., No. 17-cv- 0516GJH (D. Md.) (together, the “Whistleblower Actions”).

-App. 55areporting which were “primarily due to ineffective
controls in relation to our Enterprise Resource Planning
(ERP) systems and processes for validating revenue
recognition.” Then on March 29, 2016, Global admitted
that it suffered from material weaknesses in its internal
controls, stating that: “We currently have identified a
material weakness in internal controls over financial
reporting primarily due to SunEdison, Inc.’s ineffective
controls over accounting consolidation and reporting
system that we rely upon.” Accordingly, the Company has
admitted that its ERP system, SunEdison’s accounting
platform, suffered from material weaknesses during the
Relevant Period.
59. Indeed, SunEdison lacked internal controls
necessary to produce reliable financial information about
the Company. As SunEdison admitted in its Form 8-K,
filed with the SEC on April 14, 2016, an internal
investigation conducted by the Board revealed that
SunEdison lacked “sufficient controls and processes
regarding the Company’s managing of cash flows,
including extensions of accounts payable and the use of
cash committed for projects, and related disclosures to
the Board were not comprehensive or made on a timely
basis”:
The Independent Directors have determined that as
of the date of the independent counsel report, there
were no identified material misstatements in the
Company’s historical financial statements as well as
no substantial evidence to support a finding of fraud
or willful misconduct of management, other than
with respect to the conduct of one former nonexecutive employee as described below. However,
the independent counsel materials identified issues
with the Company’s overly optimistic culture and its

-App. 56atone at the top. The Independent Directors also
identified several specific issues regarding the
Company’s cash forecasting and liquidity
management practices, including that:
•

the Company’s cash forecasting efforts lack
sufficient controls and processes;

•

certain assumptions underlying the cash
forecasts provided to the Board by the
Company’s management were overly optimistic
and a more fulsome discussion of risks and
adjustments with the Board was warranted;

•

the Company’s management has not responded
appropriately when forecasted targets were not
met; and

•

the Company lacked sufficient controls and
processes regarding the Company’s managing of
cash flows, including extensions of accounts
payable and the use of cash committed for
projects, and related disclosures to the Board
were not comprehensive or made on a timely
basis.

As a result of SunEdison’s admitted “cash forecasting and
liquidity management” failures, there was no reliable
basis for the Company to determine whether it had
sufficient available cash to meet its present and future
needs.
60. On May 12, 2016, SunEdison again admitted to
“material weakness in its internal controls” during the
Relevant Period:
[The filing of SunEdison’s Form 10-K for 2015]
continues to be delayed due to the previously
disclosed identification by management of material
weaknesses in its internal controls over financial

-App. 57areporting, primarily resulting from deficient
information technology controls in connection with
newly implemented systems. Because of these
material weaknesses, additional procedures are
necessary for management to complete the
Company’s annual financial statements and related
disclosures, and for the finalization of the audit of the
Company’s annual financial statements and the
effectiveness of internal controls over financial
reporting as of December 31, 2015.
61. On May 17, 2016, Global admitted that because
of its reliance on SunEdison’s ineffective internal controls
over financial reporting, Global too suffered from:
•

“ineffective controls in the area of security and
access to an accounting consolidation and
reporting system implemented by SunEdison
… specifically the design and maintenance of
user access controls to ensure that access to the
financial applications and data is adequately
restricted to appropriate personnel”;

•

“inadequate controls over general and
administrative expenses as well as acquisition,
formation and related costs, specifically
completeness, accuracy and timely recording of
expenses and equity contributions in the
appropriate reporting period”; and

•

“inadequate controls over regional reporting,
specifically timely identification and resolution
of complex transactions and appropriate
application of policy or U.S. generally accepted
accounting principles.”

-App. 58a62. The Company lacked sufficient controls and
processes regarding its managing of cash flows, including
extensions of accounts payable and the use of cash
committed for projects, and related disclosures to the
SunEdison Board were not comprehensive or made on a
timely basis.
63. While Defendants continued to misrepresent
the Company’s financial well-being— at one point
representing that the Company had $1.4 billion in cash
and cash equivalents when, in fact, it had only $90 million
in available cash, according to an internal document
reported on by the Wall Street Journal on April 14,
2016—it repeatedly failed to pay critical vendors. These
vendors repeatedly threatened to cease operations, which
would result in, among other things, fines to SunEdison
and failure of projects to be “dropped down” to the
YieldCos. In fact, as alleged in the March 17, 2017 Second
Amended Securities Class Action Complaint in Horowitz
v. SunEdison, Inc., No. 16 Civ. 7917 PKC (S.D.N.Y.),
since as early as 2014, and throughout the Relevant
Period, SunEdison systematically delayed or refused to
pay its critical vendors due to its liquidity shortfalls.
Numerous former employees reported that SunEdison’s
failure to timely pay its vendors directly impeded its
ability to operate effectively. The knowledge of
SunEdison’s broken system to pay vendors reached the
highest level of SunEdison’s management, including
Chatila. Notwithstanding their knowledge of SunEdison’s
existential liquidity crunch, Defendants continued to
misrepresent the financial health of the Company and
invest Plan assets in the SunEdison Stock Fund.
A.

The Strategy Leading To The Liquidity Crisis

64. SunEdison finances, builds, owns, and operates
various solar and wind power plants, having developed

-App. 59aover 1,300 solar and wind projects in 20 countries. A key
part of SunEdison’s business is use of YieldCos, which are
used in the energy industry, particularly in the renewable
energy sector, as a way to finance various types of clean
energy production. YieldCos are dividend growthoriented public companies created by a parent company,
such as SunEdison, that bundles long-term contracted
operating assets to produce predictable cash flows.
YieldCos are taken public, and the proceeds are upstreamed to the parent to allow for further project
development. The parent company, such as SunEdison,
acquires assets such as power-generating plants, and
then sells those assets and their customer contracts for
power purchasing to the YieldCos. The contracts then
generate ongoing cash flows, meant to be distributed to
the YieldCos’ shareholders as dividends.
65. Prior to the start of the Relevant Period,
SunEdison spun off two separate corporate entities set up
as YieldCos, to raise capital to fund the massive solar and
wind power projects that are at the heart of the
Company’s business.
66. On May 29, 2014, SunEdison announced that
TERP had filed a registration statement with the SEC for
a proposed initial public offering (“IPO”). SunEdison
retained over 90% of the voting power in the company.
According to SunEdison’s filings, “our business model is
to contribute or sell solar energy systems to our
TerraForm Power [TERP] segment, and to realize cash
upon the completion and sale of a solar energy system.”
SunEdison’s Annual Report on Form 10-K for the 2014
fiscal year.
67. Throughout the next year, SunEdison issued
quarterly financial statements touting the prospects of its
growth in the alternative energy market. At the same

-App. 60atime, the Company also continued its acquisition strategy,
announcing its acquisition of First Wind Holdings, LLC
(“First Wind”) for $2.4 billion in a transaction that was
announced on November 18, 2014 and completed on
January 29, 2015.
68. To fund this and other acquisitions, discussed
below, SunEdison raised $190 million through a
secondary offering of shares in Singapore-based
SunEdison Semiconductor Ltd., offered $400 million of
convertible senior notes due 2022, $375 million aggregate
principal amount of convertible senior notes due 2023, and
$375 million aggregate principal amount of convertible
senior notes due 2025.
69. Importantly, in order to further fund the First
Wind acquisition, on January 29, 2015, a wholly-owned
subsidiary of SunEdison entered into a $410 million
margin loan agreement (the “Margin Loan”). At the time
of the Margin Loan agreement, SunEdison concurrently
entered into a guaranty agreement in favor of the
administrative agent for the benefit of each of the lenders,
pursuant to which SunEdison guaranteed all of the
subsidiary’s obligations under the Margin Loan
agreement.
70. The Margin Loan was secured by a first priority
lien on 32.2 million shares of a super-voting class of TERP
stock controlled by SunEdison and certain other rights,
and was conditioned upon the performance of TERP
stock. SunEdison was required to take certain remedial
measures in the event that TERP’s stock price
underperformed. Specifically, if the value of the loan
eclipsed a certain percentage of the value of the pledged
TERP stock, based on the price of TERP’s publicly
traded stock, then SunEdison would either have to pay
the loan in full or provide cash to satisfy the loan-to-value

-App. 61ashortfall.
71. As explained further below, SunEdison’s need
to post cash collateral to satisfy calls on the Margin Loan,
coupled with the liquidity crunch it brought upon itself,
were a significant factor in the demise of the Company.
72. At the time of the First Wind acquisition,
SunEdison’s liquidity problems were already known to
Defendants. Indeed, on April 22, 2016, the Company
admitted to the Bankruptcy Court that it had begun to
face a “liquidity challenge” by, at latest, the spring of
2015.
73. On May 7, 2015, SunEdison announced that
Global, its second YieldCo, had filed a registration
statement in preparation for its IPO.
74. Also at this time, SunEdison began an
incredibly
aggressive
series
of
acquisitions
notwithstanding its liquidity crunch, agreeing to purchase
certain entities as follows (and as detailed further below):
•

On May 19, 2015, the Company entered into a
share repurchase agreement to acquire
outstanding shares of Latin America Power
Holding, B.V.;

•

On June 16, 2015, SunEdison announced that it
would acquire Globeleq Mesoamerica Energy.
In the press release, Chatila touted the
expansion of SunEdison, thereby encouraging
investors, including the Plan Participants, to
retain and buy SunEdison Stock on the
perception that the Company was building a
plan of sustainable growth;

•

On June 16, 2015, the Company announced it
had entered into an agreement to acquire
Continuum Wind Energy Limited;

-App. 62a•

On June 25, 2015, TERP and SunEdison jointly
announced the acquisition from Duke Energy
Renewables of a 9 megawatt net ownership
stake in certain solar power plants;

•

On July 1, 2015, SunEdison announced the $360
million financing and start of construction, to
cost $420 million, on the Bingham Wind project
in Maine;

•

On July 2, 2015, the Company announced that it
had entered into a memorandum of
understanding with Gamesa, a Spanish wind
turbine company, pursuant to which SunEdison
would acquire certain power plants by 2018 to
be “dropped down” to TERP;

•

On July 6, 2015, SunEdison announced a $2
billion agreement to acquire wind power plants
from Invenergy Wind LLC;

•

On July 15, 2015, Global entered into an
agreement with Renova Energia, S.A.,
pursuant to which it would acquire the rights to
wind and hydropower projects in Brazil for cash
and Global stock after Global’s IPO; and

•

On July 15, 2015, SunEdison acquired Mark
Group, a U.K. based solar panel installer, for
$36 million in total consideration.

75. As a result of the acquisitions in the first six
months of 2015, SunEdison’s overall corporate debt shot
up from $7.2 billion at the end of 2014 to $10.7 billion by
the end of the second quarter of 2015.
76. On July 19, 2015, Global announced that it
would offer, in a private transaction, up to $800 million
aggregate principal amount of senior notes due 2022 “to
fund in whole or in part, renewable energy projects

-App. 63a(‘Eligible Green Projects’), which includes the financing
or refinancing of, or investments in, equipment and
systems which generate or facilitate the generation of
energy from renewable sources, such as solar, wind and
hydroelectric energy.”
77. Following the July 19, 2015 announcement,
SunEdison and Global’s underwriters immediately
commenced a road show seeking to encourage investors
to participate in the Global IPO and a related bond
offering. A team of company representatives, including
Alex Hernandez, TERP CFO; Avenier, Global CFO;
Manu Sial, SunEdison Senior Vice President of Finance;
and Robert Morris, SunEdison Vice President of Investor
Relations, solicited investors in a teleconference call on
July 23, 2015 and during presentations in London on July
22, 2015, New York on July 23 and 24, 2015, Boston on
July 27, 2015, Los Angeles on July 28, 2015 and July 29,
2015 and San Francisco on July 29, 2015. Another team of
representatives, including Kevin Lapidus, SunEdison
Senior Vice President, and Adam Kuehne, Global
Director of Capital Markets, solicited investors during
presentations in Hong Kong on July 21, 2015 and
Singapore three days later.
78. During the July 20–29, 2015 road show ahead of
the offering, Defendants continued to represent to
investors that it had sufficient liquidity to run its
business.
79. On July 29, 2015, Global sent letters to the SEC
requesting acceleration of the effective date of the
registration statement to July 30, 2015, at 4:00 p.m., or as
soon thereafter as possible. At the time the request for
acceleration was submitted, Defendants were aware or
should have known that SunEdison’s 2Q15 results would
be significantly below market expectations, as described

-App. 64abelow. They were aware or should have known of the
breach or impending breach of the Margin Loan debt
covenants.
80. Rather than address known needs to increase
revenues, lower debt, and service existing debt, the
Company again jumped into another acquisition. On July
20, 2015, SunEdison announced in a press release that it
had entered into a merger agreement with Vivint Solar,
Inc. (“Vivint” or “VSLR”), a provider of residential solar
systems in the United States, for $2.2 billion in cash,
stock and convertible notes (the “Vivint Solar
Acquisition”). Defendant Chatila stated in pertinent part
as follows with regard to the Vivint Solar Acquisition:
SunEdison’s acquisition of Vivint Solar is a logical
next step in the transformation of our platform after
the successful execution of our First Wind
acquisition in January 2015. We expect the Vivint
Solar transaction to create significant value for our
stockholders through the accretion in our
TerraForm Power ownership, the acceleration of our
Incentive Distribution Rights and an immediate
expansion of our capacity and bandwidth to grow our
residential business in the U.S. and globally. As of
the fourth quarter of 2015, our organic growth and
recent acquisitions will put SunEdison on track to
deploy more than 1 gigawatt per quarter.
*

*

*

With Vivint Solar, we’re tripling our value.
See July 20, 2015 SunEdison Press Release.
81. However, SunEdison’s acquisition plan was not
sustainable. By the time of the Vivint Solar Acquisition,
the Company was already highly leveraged and in
financial distress as evidenced by its quarterly reports

-App. 65adiscussed below. As such, SunEdison needed TERP’S
liquidity and credit resources to help finance the Vivint
Solar Acquisition. Consequently, SunEdison used its
control over TERP (SunEdison retained over 90% of the
voting power in TERP Power after its IPO) to compel
TERP to purchase the assets that SunEdison was
acquiring as part of its acquisition of Vivint. As alleged in
a derivative action against SunEdison filed on behalf of
TERP, Appaloosa Investment Limited Partnership I v.
SunEdison, Inc., et al., Case No. 11898 (Del. Ch. Jan. 12,
2016), unlike the traditional utility-scale projects that
TERP acquired from SunEdison in the past, which
involved credit-worthy counterparties and generated
reliable cash flows, the residential rooftop solar assets
that SunEdison was selling to TERP as part the Vivint
Solar Acquisition, had individual homeowners as
counterparties, reflecting significantly higher credit risk
and lower reliability of cash generation.
82. The Vivint deal was criticized in the financial
community as overpriced and too divergent from
SunEdison’s traditional utility-scale projects. MacQuarie
Group stated in a July 21, 2015 analyst report that “There
is no denying that a ~60% premium paid for VSLR’s
[Vivint Solar] vs. its Friday close is gob smacking.”
83. The day prior to the announcement of the Vivint
deal, SunEdison’s stock closed at $31.56 per share. By the
end of the following week, the shares traded at $26.01 per
share, with weekly volume of 93.2 million shares as
compared to the prior week’s volume of 36.4 million
shares. The one-week decline in the price of the shares
was equivalent to 17.6% or $5.55 per share. Unbeknownst
to Plan Participants and the investing public, this
dramatic decline put the Company at risk for triggering a
substantial margin call on the Margin Loan.

-App. 66a84. Around the same time, in late July 2015,
SunEdison completed Global’s IPO, selling 45 million
shares at $15 per share. Global had initially stated that it
planned to offer 56.6 million shares for $19 to $21 each.
Due to the insufficient investor demand, however,
SunEdison agreed to acquire $30 million of Global’s Class
A common stock that had been expected to be purchased
by public shareholders. Defendants, of course, were well
aware of the market’s negative response to the Vivint
Solar Acquisition and to Global’s IPO.
85. The falling price of SunEdison Stock in the
wake of the announcement of the Vivint Solar Acquisition,
as well as the media reports criticizing this deal, were red
flags that should have prompted Defendants to
investigate the continued prudence of retaining and
purchasing further SunEdison Stock for the Plan. Yet,
Defendants continued to maintain the SunEdison Stock
Fund as a Plan investment to the detriment of Plan
Participants. Following the announcement of the Vivint
Solar Acquisition, SunEdison Stock remained on a
downward trajectory, thereby eroding the value of the
Plan Participants’ retirement savings.
86. Rather than pulling back after the Vivint Solar
Acquisition, the Company continued to strain its liquidity
even further. On July 31, 2015, Global launched its IPO.
Originally, Global intended to raise a total of $1 billion.
However, SunEdison was ultimately only able to raise
$675 million through this IPO.
87. Following the disappointing IPO of Global,
SunEdison Stock’s price continued to decrease.
Defendants had knowledge of the problems with the
Company’s YieldCos because both YieldCos were
dominated and controlled by SunEdison, its officers and
its Board. The SunEdison Directors used SunEdison’s

-App. 67aownership of more than 90% of the voting power of the
YieldCos (through the ownership of Class B common
stock) to install SunEdison executives and other insiders
as officers and a majority of the directors of Global and
TERP. Under management services agreements with the
YieldCos, SunEdison is responsible for carrying out all
day-to-day management, secretarial, accounting,
banking, treasury, administrative, liaison, representative,
compliance, regulatory and reporting functions and
obligations. Pursuant to its Management Services
Agreement with Global, SunEdison, among other things,
hires and supervises Global’s employees; oversees the
preparation of Global’s books and records and financial
statements; oversees Global’s accountants, legal counsel
and other accounting, financial or legal advisors; and
arranges for individuals to carry out the functions of the
principal executive, accounting and financial officers of
Global for purposes of applicable securities laws and the
regulations of any stock exchange on which Global
securities are listed. SunEdison also finances, supports
and controls Global’s operations through other
contractual arrangements with Global, including a
Support Agreement, Project Investment Agreement,
Repowering Services Agreement and Interest Payment
Agreement.
88. The YieldCos were designed to return most of
the cash flow from the projects to investors in the form of
dividends. SunEdison was the sponsor of and retained a
significant amount of the equity in the YieldCos.
Defendants touted both YieldCos as “high growth”
entities that would generate consistent and growing
dividends from the projects SunEdison would develop
and drop down.

-App. 68a89. Defendants asserted that the YieldCos would
generate stable dividends due to the lower risk associated
with renewable energy plants, which had contracted offtakes with relatively low maintenance costs and were not
subject to rising fuel prices like traditional power plans.
When Global was formed in mid-2015, Defendants told
investors that Global planned to return 85% of its annual
cash available for distribution (“CAFD”) to investors as
dividends and projected it would be able to achieve a
compound annual growth rate (“CAGR”) in dividends per
share (“DPS”) of 20% over the three years following its
IPO. SunEdison and Global regularly disclosed CAFD
“because,” as stated in the registration statement used in
connection with Global’s IPO, “management recognizes
that it will be used as a supplemental measure by
investors and analysts to evaluate our liquidity.”
90. By virtue of its ongoing equity stake in the
YieldCos, Defendants told investors it would continue to
share in the cash flow generated by developed projects
after they were dropped down to Global or TERP.
SunEdison’s ownership interests in its YieldCos gave it
the right to receive dividends and additional payments,
called incentive distribution rights (“IDRs”), as
performance targets were met. YieldCos thus became the
primary vehicle by which SunEdison could monetize the
projects in its development pipeline. Defendants
repeatedly asserted that this retained indirect ownership
of SunEdison’s renewable energy projects allowed
SunEdison to realize greater value than it could by simply
developing and selling the projects outright to third
parties.
91. To grow dividends, SunEdison needed to be
able to continue to develop and drop projects down to the
YieldCos. To assure investors that it could do so,

-App. 69aSunEdison provided each YieldCos with a “call rights list”
that provided the YieldCos with a right of first offer
(“ROFO”) on specified projects in SunEdison’s
development pipeline. These lists could include projects
SunEdison had developed on its own as well as projects it
had acquired from other entities. The projects on the call
rights list, together with forecasts of other projects in
SunEdison’s development pipeline, were used to provide
investors with forecasts of CAFD, DPS and megawatt
(“MW”) growth.
92. To succeed, SunEdison’s plan required that
projects be dropped down at prices that would allow the
YieldCos to realize an internal rate of return (“IRR”) in
excess of the cost of capital and thereby result in spreads
that would generate substantial CAFD per share and fuel
dividend payments to investors. Defendants repeatedly
told investors that SunEdison would sacrifice sales
margins on dropped down projects where needed to
provide an IRR that would permit the YieldCos to meet
its CAFD and DPS growth targets. Defendants also told
investors that such sales would increase the dividends and
IDRs it received from its equity stake in the YieldCos by
an amount that would exceed the value of foregone
margins on such sales. SunEdison also told investors that
the increased dividends and IDRs it would receive from
those projects as a result of its ownership stake in the
YieldCos would exceed the value of any profits it
sacrificed by selling the projects to YieldCos at prices that
were lower than what it could have realized on the open
market.
93. The ability of the YieldCos to access equity and
debt markets at attractive terms to fund project
acquisitions from their parent was thus critical for
SunEdison given its highly leveraged balance sheet. The

-App. 70ainability of the YieldCos to do so, or the inability of
SunEdison to drop projects down at high enough IRRs,
would necessarily result in insufficient CAFD to fund
expected dividend growth, stalling SunEdison’s growth,
tying up its liquidity, and giving rise to risk of default on
its borrowing arrangements.
94. Thus, SunEdison’s balance sheet, capital
structure, liquidity and financial strength were critical to
investors.
95. Defendants represented to investors that its
liquidity and financial strength gave its Renewable
Energy Development Segment, or “DevCO,” the ability
to finance the development or acquisition of projects that
could be dropped down to Global and TERP at prices that
provided an IRR that would generate CAFD sufficient to
meet DPS growth forecasts. To further assure investors
of its liquidity, in 2015 the Company announced plans to
launch more than $2.5 billion of warehouse financing
facilities that could hold projects between the time they
were completed and the time they were dropped down to
one of the YieldCos. Defendants told investors that the
warehouses protected the YieldCos from being forced to
go to the capital markets when lending conditions were
unfavorable and protected SunEdison from having it
liquidity tied up in completed projects awaiting
acquisition.
96. In fact, by the summer of 2015, Defendants
knew that SunEdison’s liquidity was significantly worse
than publicly represented. Contrary to Defendants’
representations, SunEdison lacked sufficient liquidity to
acquire and construct the projects needed to meet its
growth estimates, or to drop those projects down to its
YieldCos to meet their forecast CAFD and DPS
estimates. Moreover, the price of the YieldCos’ stock had

-App. 71adeclined, and their ability to access the financial markets
at reasonable rates of return had declined, significantly
worsening SunEdison’s liquidity position and eliminating
its ability to meet the MW, CAFD, and DPS growth
estimates Defendants had led the market to expect.
97. At all relevant times, Chatila and Wuebbels,
pursuant to the Sarbanes-Oxley Act of 2002 (“SOX”),
certified in documents filed publicly with the SEC that
they had evaluated the “the effectiveness of the design
and operation of [SunEdison’s] disclosure controls and
procedures” and deemed them compliant.
98. Throughout the Relevant Period, Chatila and
Wuebbels certified that they had reviewed the Company’s
internal financial disclosure controls and procedures. Had
Chatila and Wuebbels conducted an honest and earnest
review, they would have found—as later came to light—
that the Company’s internal controls were severely
lacking. In such circumstances, a prudent ERISA
fiduciary (such as Wuebbels was required to be) would not
have invested Plan assets in the SunEdison Stock Fund.
99. In its Form 10-Q for first quarter of 2015, the
Company represented that Chatila and Wuebbels had
personally reviewed SunEdison’s internal financial
disclosure controls and procedures and deemed them
legally compliant. The similarly specifically provided that:
We carried out an evaluation as of March 31, 2015
under the supervision and with the participation of
our management, including our Chief Executive
Officer and Chief Financial Officer, of the
effectiveness of the design and operation of our
disclosure controls and procedures, as defined in
Rules 13a-15(e) and 15d-15(e) under the Securities
Exchange Act of 1934, as amended. Based upon that
evaluation, our Chief Executive Officer and Chief

-App. 72aFinancial Officer have concluded that our disclosure
controls and procedures were effective as of March
31, 2015.
Changes in Internal Control over Financial
Reporting
There have been no changes in SunEdison's internal
control over financial reporting during the quarter
ended March 31, 2015 that have materially affected,
or are reasonably likely to materially affect,
SunEdison's internal control over financial
reporting.
See 1Q15 Form 10-Q at 58.
100. The Form 10-Q for 2Q15 specifically provided
that:
We carried out an evaluation as of June 30, 2015
under the supervision and with the participation of
our management, including our Chief Executive
Officer and Chief Financial Officer, of the
effectiveness of the design and operation of our
disclosure controls and procedures, as defined in
Rules 13a-15(e) and 15d-15(e) under the Securities
Exchange Act of 1934, as amended. Based upon that
evaluation, our Chief Executive Officer and Chief
Financial Officer have concluded that our disclosure
controls and procedures were effective as of June 30,
2015.

-App. 73aChanges in Internal Control over Financial
Reporting
There have been no changes in SunEdison's internal
control over financial reporting during the quarter
ended June 30, 2015 that have materially affected, or
are reasonably likely to materially affect,
SunEdison's internal control over financial
reporting.
See 2Q15 Form 10-Q at 67.
101. In its Form 10-Q for the third quarter of 2015,
Chatila and Wuebbels once again certified that its
internal financial disclosure controls and procedures were
“effective,” though this quarter they added that the
Company was undertaking measures to “enhance” these
already “effective” controls:
We carried out an evaluation as of September 30,
2015 under the supervision and with the
participation of our management, including our
Chief Executive Officer and Chief Financial Officer,
of the effectiveness of the design and operation of our
disclosure controls and procedures, as defined in
Rules 13a-15(e) and 15d-15(e) under the Securities
Exchange Act of 1934, as amended. Based upon that
evaluation, our Chief Executive Officer and Chief
Financial Officer have concluded that our disclosure
controls and procedures were effective as of
September 30, 2015.
Changes in Internal Control over Financial
Reporting
During the third quarter of 2015, we completed the
implementation of a new global consolidation system
that will enhance our consolidation processes, and we

-App. 74aare in the process of implementing a new global
enterprise resource planning system (“ERP”) that
will enhance our business and financial processes
and standardize our information systems. In October
2015, we substantially completed the ERP
implementation with respect to several operations
and will continue to roll out the ERP in phases over
the next several years. As with any new information
systems we implement, these applications, along
with the internal controls over financial reporting
and consolidation included in these processes, will
require testing for effectiveness. In connection with
these implementations, we are updating our internal
controls over financial reporting and consolidation,
as necessary, to accommodate modifications to our
business processes and accounting procedures. We
do not believe that these implementations will have
an adverse effect on our internal control over
financial reporting or consolidation. Except as
described above, there were no changes in
SunEdison's internal control over financial reporting
during the quarter ended September 30, 2015 that
have materially affected, or are reasonably likely to
materially affect, SunEdison's internal control over
financial reporting.
102. Chatila and Wuebbels personally certified that
each of these Forms 10-Q were true and correct. The
CEO and CFO certifications repeatedly represented, in
language identical or nearly identical, to that set forth
below:
I, [Chatila or Wuebbels], certify that:
1. I have reviewed this quarterly report on Form
10-Q of SunEdison, Inc.;

-App. 75a-

2. Based on my knowledge, this report does not
contain any untrue statement of a material fact or
omit to state a material fact necessary to make the
statements made, in light of the circumstances under
which such statements were made, not misleading
with respect to the period covered by this report;
3. Based on my knowledge, the financial
statements, and other financial information included
in this report, fairly present in all material respects
the financial condition, results of operations and cash
flows of the registrant as of, and for, the periods
presented in this report;
4. The registrant’s other certifying officer(s) and I
are responsible for establishing and maintaining
disclosure controls and procedures (as defined in
Exchange Act Rules 13a-15(e) and 15d-15(e)) and
internal control over financial reporting (as defined
in Exchange Act Rules 13a-15(f) and 15d-15(f)) for
the registrant and have:
a) Designed such disclosure controls and
procedures, or caused such disclosure controls
and procedures to be designed under our
supervision; to ensure that material information
relating to the registrant, including its
consolidated subsidiaries is made known to us
by others within those entities, particularly
during the period in which this report is being
prepared;

-App. 76ab) Designed such internal control over
financial reporting, or caused such internal
control over financial reporting to be designed
under our supervision, to provide reasonable
assurance regarding the reliability of financial
reporting and the preparation of financial
statements for external purposes in accordance
with generally accepted accounting principles;
c) Evaluated the effectiveness of the
registrant’s disclosure controls and procedures
and presented in this report our conclusions
about the effectiveness of the disclosure
controls and procedures, as of the end of the
period covered by this report based on such
evaluation; and
d) Disclosed in this report any change in the
registrant’s internal control over financial
reporting that occurred during the registrant’s
most recent fiscal quarter (the registrant’s
fourth fiscal quarter in the case of an annual
report) that has materially affected, or is
reasonably likely to materially affect, the
registrant’s internal control over financial
reporting.
5. The registrant’s other certifying officer(s) and I
have disclosed, based on our most recent evaluation
of internal control over financial reporting, to the
registrant’s auditors and the audit committee of the
registrant’s board of directors (or persons
performing the equivalent functions):

-App. 77aa) All significant deficiencies and material
weaknesses in the design or operation of
internal control over financial reporting which
are reasonably likely to adversely affect the
registrant’s ability to record, process,
summarize and report financial information;
and
b) Any fraud, whether or not material, that
involves management or other employees who
have a significant role in the registrant’s
internal control over financial reporting.
103. Pursuant to the SOX, Chatila and Wuebbels
repeatedly
attested
in
separate
certifications
accompanying the Forms 10-Q that “[t]he information
contained in the Report fairly presents, in all material
respects, the financial condition and results of operations
of the Company.”
B.

Defendants Chatila And Wuebbels Were
Incentivized To Pursue Growth At Any Cost

104. SunEdison’s executives, including executives
responsible for administering the Plan, recklessly
pursued growth, in substantial part because SunEdison’s
executive compensation plan incentivized Chatila and
Wuebbels to dramatically build up SunEdison’s pipeline,
even at the cost of SunEdison’s long-term profitability.
105. In March 2014, SunEdison altered its executive
compensation program to focus on SunEdison’s
“Foregone Margin,” rather than the typical measures of
corporate profitability such as operating income and cash
flow, on which the 2013 plan had been based. As detailed
in SunEdison’s 2015 Annual Proxy Statement, filed with

-App. 78athe SEC on April 17, 2015, the 2014 executive
compensation plan measured Foregone Margin as “the
sum of SunEdison EBITDA and foregone margin (a
measure which tracks margin foregone due to the
strategic decision to hold projects on the balance sheet vs.
selling them).” Moreover, SunEdison provided a more
detailed description of Foregone Margins in its 2014
Form 10-K, stating that the Foregone Margin “means the
net income (or loss) in connection with the Disposition or
planned Disposition of any Solar Energy System (or any
Person owning such Solar Energy System) by the
Borrower[.]” SunEdison calculated the Foregone Margin
by multiplying (i) the difference between the total
revenue “earned or projected to be earned” from a project
and the “total projected costs” to construct the project by
(ii) the estimated percentage completion of the project,
and then subtracting any previous Foregone Margin
previously included in the calculation. In March 2014, for
purposes of the Company’s executive compensation plan,
SunEdison’s Board:
[M]odif[ied] the specific measures of corporate
performance to 70% profitability, as measured by the
sum of EBITDA and foregone margin (a measure
which tracks margin foregone done to the strategic
decision to hold projects on the balance sheet vs.
selling them) and 30% megawatts completed to
better reflect key 2014 areas of focus.
106. The Second Lien Credit Agreement, filed as
Exhibit 10.1 to SunEdison’s Form 8- K filed on January
11, 2016, also provided additional details about Foregone
Margin and how it was to be calculated. Foregone Margin
was defined as “the net income (or loss) in connection with
the Disposition or planned Disposition of any Solar
Energy System (or any Person owning such Solar Energy

-App. 79aSystem) by the Borrower.” It was calculated by
“multiplying (i) the difference between (x) total revenue
… earned or projected to be earned” from the project
“and (y) total projected costs” to construct the project “by
(ii) the estimated percentage of completion” of the
project, “and then subtracting any previous foregone
margin previously included in the calculation.
107. The result was that SunEdison’s executives
could now benefit from “projected” earnings, rather than
actual earnings.
108. Defendants responded to these incentives. Over
the course of 2014 and 2015, particularly after SunEdison
instituted this new compensation model, SunEdison
reported substantial Foregone Margins:
[Graphic omitted]
109. Meanwhile, SunEdison’s total operating income
and free cash flow—on which the 2013 executive incentive
plan had been based—fared poorly. Total operating
income declined from a loss of $313 million in 2013 to a
loss of $536 million in 2014—a 70% decrease.
110. Similarly, on a non-GAAP basis, SunEdison’s
free cash flow plummeted from a loss of $107.1 million in
2013 to a loss of $562.1 million in 2014—a decline of over
425%.
111. Nonetheless, because of SunEdison’s changes
to its executive compensation plan, its executives,
including some of the Defendants named herein
responsible for administering the Plan, received
significant bonuses. In 2014, Chatila received Annual
Incentive Awards that likely far exceeded the
compensation he would have received under the 2013
executive incentive plan, which was based upon
measurements of total cash flow and operating income.

-App. 80aIndeed, the Company’s total operating income declined
from a loss of $313 million in 2013 to a loss of $536 million
in 2014 – a 70% decline. Similarly, on a non-GAAP basis,
the Company’s free cash flow plummeted from a loss of
$107.1 million in 2013 to a loss of $562.1 million in 2014 – a
decline of over 425%. Accordingly, the Executive
Defendants would have received far less in personal
compensation under the prior, more typical, measures of
corporate profitability.8
112. SunEdison also relied on the Foregone Margin
measurement to expand its access to credit. The
Company’s February 2014 credit agreement for its letter
of credit facility (which was critical to providing
SunEdison with operating capital) had, at the time it was
entered into, a liquidity covenant requiring SunEdison to
maintain a “Consolidated Leverage Ratio” of the
Company’s indebtedness to EBITDA (Earnings Before
Interest, Taxes, Depreciation, & Amortization). On
January 20, 2015, SunEdison amended the credit
agreement to materially change the liquidity covenant to
include Foregone Margins, rather than just net income.
C.

SunEdison Leverages Its TERP Interests to
Obtain Additional Financing, Including the $410
Million Margin Loan

113. On January 29, 2015, SunEdison had completed
the $2.4 billion acquisition of First Wind LLC. Funding
for the acquisition included the $410 million two-year
Margin Loan from Deutsche Bank AG, Goldman Sachs
Lending Partners LLC, Barclays Bank plc, Morgan
Stanley Bank, N.A. and MIHI LLC. Additional
8

SunEdison always filed an annual proxy statements in April.
In April 2016, because it had filed for bankruptcy, SunEdison did not
file an annual proxy reflecting its executive compensation awarded in
2015.

-App. 81aacquisition financing was provided by the sale of
approximately $337 million worth of SunEdison 3.75%
Guaranteed Exchangeable Senior Secured Notes due
2020 (the “Exchangeable Notes”).
114. SunEdison was the exclusive owner of TERP’s
Class B Shares, which were convertible to shares of
TERP’s publicly traded Class A common stock. Both the
Margin Loan and the Exchangeable Notes were secured
by SunEdison’s interests in TERP Class B securities,
consisting of its 62.7 million shares of Class B stock, Class
B units and IDR rights in TERP. As described above,
with respect to the Margin Loan, SunEdison initially
pledged 32.2 million shares of its Class B stock and units
and 50% of its IDRs as collateral. Both agreements also
required SunEdison to post additional collateral if the
value of the Class B securities—as measured by the
public trading price of TERP Class A stock—fell below
specified levels.
115. The Margin Loan provided for debt covenants
that required (i) the value of TERP common stock to
remain above a specified value (the “Market Value
Trigger”); and (ii) the loan- to-value ratio of TERP
common stock relative to the total borrowings under the
loan be maintained above a specified level (the “Market
Trigger Level”). If TERP’s stock price fell below the
Market Value Trigger, SunEdison was required to
prepay in full all outstanding indebtedness on the loan the
next business day. If the loan-to-value ratio exceeded the
Margin Trigger Level, SunEdison was required to either
prepay the loan or provide additional cash collateral to
bring the Market Trigger Level down to the permitted
level by 5:00 p.m. on the second business day after the
limit was exceeded. In addition, by 5:00 p.m. of the first
business day after the covenant violation, SunEdison was

-App. 82arequired to provide an irrevocable notice of its intent to
either prepay the loan or post additional collateral, along
with “a description, in reasonable detail of the source of
such prepayment and/or such Margin Cash Collateral.”
116. The Market Value Trigger, Margin Trigger
Level and related terms of the agreement (including the
“Margin Initial Level,” “Margin Reset Level” and
“Margin Release Trigger”) were defined in a side letter
agreement that was not publicly disclosed. SunEdison’s
1Q15 Report on Form 10-Q filed with the SEC on May 7,
2015 stated that the loan required SunEdison to maintain
a loan-to-value ratio not to exceed 50% (meaning it had to
post at least $2 in collateral for each $1 borrowed under
the agreement). In the Form 10-Q filed with the SEC on
November 9, 2015, the loan-to-value ratio was reported to
be 40%.
117. Neither the 1Q15 Report on Form 10-Q nor any
other publicly filed document specified the collateral
values or the method of their calculation with sufficient
specificity to permit investors to determine at what stock
price the Margin Trigger Level or Market Value Trigger
or other debt covenants would be breached.
118. Critically, the Margin Loan agreement was
executed by Wuebbels on behalf of SUNE ML1, LLC,
i.e., the SunEdison subsidiary party to the Margin Loan
agreement.
119. The Margin Loan and Exchangeable Notes
were also falsely classified in SunEdison’s 1Q15 and 2Q15
Reports on Form 10-Q as debt that was “Non-recourse to
SunEdison.” SunEdison’s 3Q15 Report on Form 10-Q
later filed on November 9, 2015, corrected the entries to
identify both agreements to indicate that they were not
non-recourse debt, thereby admitting that Defendants
had understated the amount of SunEdison’s recourse

-App. 83adebt by $740 million on its prior financial statements.
120. At this time, the Company represented in its
public filings that it had significant cash and cash
equivalents on hand to operate continuously for the
following year. For example, in the 2014 Annual Report,
which was incorporated into the Form 10-K filed with the
SEC on March 2, 2015, the Company misrepresented its
liquidity position:
Liquidity
Cash and cash equivalents, plus cash committed for
construction projects, at December 31, 2014 totaled
$1,074.4 million, compared to $831.5 million at
December 31, 2013. . . . We believe our liquidity will
be sufficient to support our operations for the next
twelve months, although no assurances can be made
if significant adverse events occur, or if we are
unable to access project capital needed to execute
our business plan. . . . We expect cash on hand, 2015
operating cash flows, project finance debt, the Solar
Energy credit facility, the TerraForm term loan and
project construction facility to provide sufficient
capital to support the acquisition and construction
phases of our currently planned projects for 2015
and otherwise meet our capital needs for the
remainder of 2015.
121. Wuebbels reported on the SunEdison and
TERP Q2 earnings conference call on Thursday, August
6, 2015, that while there would be construction financing
“on a project-by- project basis . . . as far as corporate
financing” was concerned, Wuebbels said that the
Company did not “see any additional financings to be able

-App. 84ato achieve” its sought-after growth. Notwithstanding this
representation, and as discussed in further detail below,
in July 2015, SunEdison had negotiated a lien loan of $169
million from Goldman Sachs, carrying an interest rate of
9.25% and an origination fee of $9 million, good for an
effective interest rate of 15% (the “15% Goldman Loan”)
and, consequently, payments of $25 million to Goldman
Sachs over the one-year loan term just for access to the
capital. The corresponding loan agreement was entered
into on August 11, 2015, though the loan was not disclosed
until November 9, 2015.
122. In the SunEdison and TERP Q2 2015 earnings
call on August 6, 2015 with Morris, Wuebbels, and
Chatila, the Company misrepresented its access to
certain credit warehouse facility funds in an amount up to
$673 million. Specifically, Wuebbels discussed an
accompanying presentation showing approximately $2
billion in Q215 ending cash, stating that:
On slide 15 I want to talk to you about cash. We show
the cash walk at the end of the first quarter to the
end of the second quarter for the consolidated
businesses, including TerraForm Power. As you can
see, we have a good match of sources and uses with
the global private placements largely offsetting the
acquisitions for TerraForm Global, as well as organic
construction expenses being offset by warehouses,
further illustrating the strong liquidity position in
SunEdison. Of the $2 billion in cash at the end of the
quarter, roughly $400 million was in TerraForm
Power and $620 million related to TerraForm Global,
leaving SunEdison, the development company, with
greater than $1 billion of cash and sufficient liquidity
to support the future growth of the platform

-App. 85a123. In actuality, however, the Company could not
access this warehouse facility. As reported in a March 28,
2016 Wall Street Journal article entitled “SEC
Investigating SunEdison’s Disclosures To Investors
About Its Liquidity,” the purported cash on hand at
DevCo was comprised “largely of cash that SunEdison
couldn’t access. The Company had direct access to only
a few hundred million dollars throughout September and
October, and by November, the balance had dropped
under $100 million” in large part because the “roughly
$500 million credit facility, whose funds could only be
accessed by delivering projects that met certain criteria,
of which SunEdison had few.” As the Company admitted
to the Bankruptcy Court on April 21, 2016:
[I]n October 2015 the entire Margin Loan became
mandatorily prepayable. This Prepayment, which
amounted to $439 million, drained SunEdison’s cash
reserves and fundamentally changed its and
YieldCos’ financial outlook.
In The Matter of SunEdison, Inc., et al., 16-10992 (SMB)
United States Bankruptcy Court for the Southern
District of New York, Declaration of Patrick M. Cook,
Dkt. No. 4 at 28 (April 21, 2016). In other words, by this
time the Company was effectively insolvent. As detailed
herein, the Company managed to continue for several
months thereafter because it looted a subsidiary.
124. The Wall Street Journal’s March 28, 2016
account is confirmed by two former senior officers of
SunEdison, Domenech and Perez, who brought the
Whistleblower Actions against TERP and others,
including Chatila, Wuebbels, Hernandez, and Blackmore.
125. Notwithstanding the Company’s inability to tap
into this credit, Wuebbels repeated his claim about access
to this facility in the Q315 earnings call held on November

-App. 86a10, 2015 when he represented that SunEdison had access
to approximately $1.4 billion in liquidity.
D.

SunEdison Incurs Billions of Dollars in Debt
and Obligations to Acquire Projects to Drop
Down to Global and TERP and Misrepresents
that It Has Ample Liquidity to Do So

126. On June 16, 2015, SunEdison announced it had
signed an agreement to acquire Continuum Wind Energy
Limited, which owned 412 MW of wind power projects
operating and under development in India and 1,000 MW
of wind projects under development. In a separate
announcement the same day, SunEdison announced it
would acquire Globeleq Mesoamerica Energy, owner of
405 MW of wind and solar projects operating or under
development in Central America and 246 MW of wind
projects under development. SunEdison stated that all of
the projects from both acquisitions were to be placed on
the Global call rights list. Terms of and financing
arrangements for the transactions were not announced.
127. On June 29, 2015, SunEdison announced that it
had acquired 521 MW of wind power plants located in
Idaho and Oklahoma from Atlantic Power and had formed
a $525 million warehouse financing facility to hold the
assets pending dropping them down to TERP. Morgan
Stanley, Citi, and Goldman Sachs led the structuring of
the finance facility and provided debt in the form of a 7year term loan funded by MacQuarie, John Hancock, and
SunEdison. SunEdison CFO Wuebbels was quoted in the
release as stating that the warehouse “provides
repeatable and scalable funding,” and SunEdison
expected to add additional warehouse facilities to house
future acquisition.

-App. 87a128. On July 6, 2015, SunEdison announced a $2
billion agreement to acquire 930 MW of wind power
plants from Invenergy Wind LLC. The agreement called
for TERP to acquire 460 MW through a combination of
cash on hand and bond financing and assume $450 million
in project debt. The remaining 470 MW was to be
acquired by a new SunEdison warehouse financing
facility, to be held for later drop down in TERP. TERP
raised its 2016 dividend guidance from $1.53 to $1.70
based on the acquisition, representing 26% growth over
its 2015 dividend.
129. On July 15, 2015, Global entered into an
agreement to acquire the rights to wind and hydropower
projects in Brazil from Renova Energia for cash and
Global common stock upon the completion of Global’s
IPO. The transaction was initiated in May 2015 when
Global signed a sale and purchase agreement for the three
Renova projects. In connection with Global’s IPO, Global
committed, subject to certain conditions, to acquire 12
additional Brazilian wind and hydro projects from Renova
over the following four years. Global also acquired a 15%
ownership interest in Renova from Light Energia, S.A.
for $250 million, payable in shares of SunEdison common
stock. SunEdison publicly announced the deal on July 21,
2015.
130. On July 20, 2015, SunEdison announced the $2.2
billion acquisition of U.S. residential solar installer Vivint.
In connection with the announcement, SunEdison
forecast that it would complete 4.2-4.5 gigawatts (“GW”)
of projects in 2016, a roughly 50% increase from previous
guidance of 2.8-3.0 GW. The VSLR deal called for TERP
to finance $922 million of the acquisition price for cash by
issuing $737 million in common stock to the public and
borrowing $225 million to acquire 523 MW of VSLR solar

-App. 88asystem assets. The remainder of the financing was to be
provided by SunEdison through a $500 million secured
debt facility, the issuance of $370 million in common stock,
$350 million in convertible notes and $57 million in cash.
131. Negotiations to finalize the terms of the VSLR
acquisition were underway before the June 9, 2015 sale of
Global Class D Securities. The VSLR acquisition was
originally proposed by Domenech in a phone call with
VSLR’s CEO on March 6, 2015. Due diligence for the
transaction commenced by March 26, 2015. Following
negotiations in May 2015, SunEdison submitted an offer
to acquire VSLR on June 3, 2015, and proposed an
exclusive negotiating period to finalize the terms of the
transaction. After further negotiations leading to a
preliminary agreement on the acquisition price, on June
8, 2015—the day before the closing of the Global Class D
offering—SunEdison and VSLR signed a confidentiality
agreement opening a four-week exclusive period to
finalize the deal terms. During those negotiations,
SunEdison told VSLR that it lacked the liquidity
necessary to complete the transaction on the terms
agreed and would need to obtain substantial additional
financing in order to consummate the transaction.
Notwithstanding the foregoing, SunEdison did not
negotiate a financing contingency or condition.
132. The July 20, 2015 announcement of the VSLR
acquisition described the substantial financing that would
be required to permit the merger to go forward, causing
some investors to question whether SunEdison had the
ability to raise the capital needed to complete the merger
and also fund the acquisition, development and
construction of the other projects needed to meet the
high-growth expectations it had set for Global and TERP,
and to do so on terms that would permit completed

-App. 89aprojects to be dropped down to the YieldCos at IRRs that
would be sufficient to fund the CAFD and DPS growth
Defendants had led the market to expect. Market concern
over the acquisition was heightened by the increased
risks associated with residential solar, which was a
significant shift in SunEdison’s existing business that
targeted commercial and industrial projects that had
stronger counterparties and less risk. TERP’s failure to
raise dividend guidance to the level that was imputed by
the combined asset of VSLR and TERP further fueled
concerns over the transaction. These and other concerns
over the deal caused the price of both SunEdison and
TERP shares to decline significantly following the
announcement of the VSLR acquisition.
133. By the end of trading on July 21, 2015, the price
of SunEdison Stock had fallen nearly 7% from its preannouncement level to close at $29.37 per share while the
price of TERP shares had fallen by more than 9% to close
at $33.71 per share.
134. Continued declines in the price of SunEdison
and TERP shares led TERP to announce on July 27, 2015
that it would not issue new shares to finance the
acquisition, but would instead do so with a combination of
cash on hand and increased debt. To further allay
concerns, a conference call was convened that day in
which TERP’s CEO Domenech and CFO Alex Hernandez
(a former Managing Director in the Investment Banking
Division of Goldman Sachs) represented to investors that
TERP and SunEdison had adequate liquidity to carry out
all of the recently announced acquisitions. Alex
Hernandez asserted that TERP shares were
“significantly undervalued” as a result of recent market
activity, which had resulted from “misconceptions [about
the VSLR acquisition] that are apparent from a number

-App. 90aof inquiries we have received.” He asserted that the
Company had “ample liquidity and a conservative capital
structure,” “full flexibility to deploy this liquidity to fund
the pending transactions and the overall growth of our
business,” and the ability to do so “in a disciplined manner
that is consistent with our financial policy and strategic
objectives.” Alex Hernandez also confirmed that TERP
had sufficient cash flow to meet both its 2015 and 2016
dividend and CAFD guidance without issuing additional
equity, asserted that its dividend forecasts were
conservative, and claimed that its CAFD forecasts for the
transaction were still reliable despite the increased debt
required by the restructured deal announced on the call.
135. By the close of trading on July 31, 2015, the
price of both SunEdison and TERP shares fell to $23.28
per share and $30.16 per share, respectively, triggering,
or causing an imminent risk of triggering, a substantial
margin call on the Margin Loan, which fact was not
disclosed to investors.
136. By August 6, 2015, SunEdison Stock’s price had
dropped to $17.08 (the stock was trading over $31 prior to
the announcement of the Vivint Solar Acquisition). That
same day, SunEdison issued a press release announcing
its financial results for the 2015 second quarter, reporting
a loss of $263 million. The Company sustained a net loss
of $.93 per share. SunEdison also reported that gross
margins on the projects that the Company had sold to
TERP were only 12.5%, a drastic cut from SunEdison’s
prior guidance of 18%. Furthermore, according to its
financials, SunEdison’s debt now stood at a whopping $11
billion, which included debt from a number of multi-billion
dollar deals to acquire new wind and solar assets. Once
again in the face of increasing debt and other serious
issues plaguing the Company, Chatila assured investors,

-App. 91aincluding the Plan Participants that:
During the second quarter, we continued to balance
operational execution while meeting our strategic
objectives. On the operations front, our leading
organic development engine continues to execute as
we exceeded our megawatt (MW) and Retained Cash
Available for Distribution (CAFD) guidance,
delivering 404 MW and $63 million, respectively. In
addition, TerraForm Power delivered $65 million of
CAFD and continues to create value for
shareholders with its leading DPS growth. Finally,
we have largely completed our platform
transformation with the agreement to acquire Vivint
Solar, a leader in residential solar, as well as the IPO
of our Emerging Markets-focused asset ownership
platform, TerraForm Global.
See August 6, 2015 Company Press Release.
137. Despite the falling price of SunEdison Stock
and adverse Company-specific news available in the
public domain, such as the announcement of multi-million
dollar losses, the heavy debt incurred by SunEdison, and
criticism of the Company’s prospects in light of the Vivint
Solar Acquisition, Defendant-fiduciaries continued to
take no action to protect the Plan Participants’ interests,
and continued to offer the imprudent SunEdison Stock
Fund as a Plan option.
E.

Unbeknownst to Investors SunEdison Borrows
$169 Million from Goldman Sachs at an
Astounding 15% Interest Rate to Finance the
Acquisition of Global’s Start-up Projects

-App. 92a138. On August 11, 2015, SunEdison entered into an
agreement for the 15% Goldman Loan to borrow $169
million at a rate of 9.25% and pay the lender an origination
fee of $9 million (5.3%), equating to an effective interest
of 15% or more than 14 percentage points over the thenprevailing LIBOR one-year rate of 0.8467%. By
comparison, the credit facilities adequately disclosed in
SunEdison’s 2Q15 Report on Form 10-Q required the
Company to pay from 1.25 percentage points to 4.25
percentage points over LIBOR.
139. Neither the existence of the loan nor its terms
were disclosed publicly or to investors until three months
later on November 9, 2015, when SunEdison filed its 3Q15
Report on Form 10-Q, which described the loan as follows:
On August 11, 2015, we entered into a Second Lien
Credit Agreement (“Second Lien Term Loan”) with
Goldman Sachs Bank USA (“Goldman Sachs”)
providing for a term loan maturing on August 11,
2016, in an aggregate principal amount of $169
million. As of September 30, 2015, the current
interest rate on the Term Loan is 9.25%. … We paid
fees of $9 million upon entry into the Second Lien
Term Loan which were recognized as deferred
financing costs.
140. On November 18, 2015, Deutsche Bank
reported that SunEdison management had admitted that
the 15% Goldman Loan had been “structured in July as
part of the portfolio formation for the Global IPO. The
company entered into the loan in August as part of the
initial agreement in order to fund the construction of
some of the international projects.”
141. Given the concerns of the market following the
announcement of the VSLR acquisition, any disclosure
that SunEdison needed to borrow funds at 15% in order

-App. 93ato fund construction of the projects in Global’s start-up
portfolio would have immediately alerted investors that
SunEdison was unable to finance its projects at a
reasonable cost and would not earn the expected IRR or
be able to return dividends to investors. For these
reasons, SunEdison Stock was no longer a prudent
investment, especially for retirement savings. That
SunEdison needed to borrow funds at a 15% rate, at a
time when the corporate borrowing rate was 5.19%, was a
tacit admission, or at a minimum a red flag, that the
representation of SunEdison’s financial strength,
liquidity and capital resources, and the benefits Global
would derive as a result thereof, were false. As a result,
demand for Global’s IPO shares, which had already fallen
significantly
following
the
VSLR
acquisition
announcement, would have dissipated along with demand
for any subsequent offerings of SunEdison securities.
F.

SunEdison Does Not Disclose a Breach of the
Debt Covenants on the Margin Loan

142. The falling price of SunEdison and TERP
shares following the July announcement of the VSLR
acquisition prompted large margin calls on the Margin
Loan. By August 4, 2015, two days before 2Q15 earnings
were announced, TERP shares had fallen nearly 14%
below their value on the day the Margin Loan was closed.
Thus, by the time of the 2Q15 call, the breach of the
Margin Loan debt covenants had either already occurred
or was imminent.
143. The margin call was not publicly disclosed by
Defendants at the time it occurred.
On August 25, 2015, UBS reported that it had

-App. 94alearned that a margin call had been made on the loan
but had been satisfied by SunEdison and that UBS
presumed it had been satisfied by pledging
additional Class B shares as collateral. SunEdison
did not file a Report on Form 8-K with the SEC as
required at the time it advised UBS of the Margin
Loan breach and margin call and did not itself report
the margin call until October 7, 2015, when it
admitted that a $152 million call had previously been
made on the Margin Loan and was satisfied by
posting cash, not shares, as additional collateral.
144. While Defendants did not disclose the source of
the cash used to satisfy the call, the following facts
indicate that the margin call was satisfied from the
proceeds of the 15% Goldman Loan: (i) the 15% Goldman
Loan was signed August 11, 2015, which would have been
the deadline set by the Margin Loan agreement to cure
the violation if the breach occurred on August 7, 2015;9 (ii)
the size of the loan ($169 million) is roughly the same as
the size of the call ($152 million), which is consistent with
the need to post additional collateral to provide a cushion
to prevent further calls as the value of TERP common
stock continued to fall; and (iii) Goldman Sachs was one of
the brokers and lenders on the Margin Loan, and thus
9

Based on the 50% loan-to-value requirement and using the
value of the Class B shares pledged to the loan (but not the value of
the Class B units or IDR rights, which are unknown), the covenant
appears to have been breached on or about August 7, 2015, when
TERP’s shares closed at $25.24 per share. SunEdison has not
disclosed the specific date of the breach. However, based on the 32.2
million Class B shares originally pledged on the Margin Loan
agreement and assuming a $410 million loan balance on August 7,
2015, the $25.24 closing price would have equated to a loan-to-value
ratio of 50% ($410 million + (32.2 million x $25.24)).

-App. 95aknew about the call and the need to raise money to satisfy
it. To the extent SunEdison satisfied the call by using the
proceeds of the 15% Goldman Loan, the disclosure of
SunEdison’s inability to satisfy the call absent borrowing
funds at an extraordinary 15% interest rate would have
caused investors to disbelieve Defendants’ statements
about the Company’s liquidity, efficient use of capital and
financial strength, and to discredit the defendants’ bullish
outlook for the business.
G.

SunEdison Sells $650 Million in Preferred Stock
Without Disclosing the 15% Goldman Loan, the
Breach of the Margin Loan and Worsening
Liquidity Risks to Investors

145. On August 12, 2015, SunEdison announced the
syndication of an additional $280 million seven-year term
loan for the TERP warehouse facility. The proceeds were
added to the warehouse facility formed in connection with
the Atlantic Power acquisition, increasing the warehouse
facility to $525 million. Later that day, SunEdison
announced that it would sell 50% of the cash equity (and
99% of the tax equity) on a 420 MW solar project on
TERP’s call rights list (the Four Brothers project in
Utah) for $500 million to Dominion Resources to raise the
capital needed to complete development and construction
of the project. Both of these announcements
misrepresented that SunEdison’s financial condition
remained strong and it had the ability to raise the capital
necessary to fund project development and meet forecast
MW, CAFD and DPS growth at its YieldCos, causing the
price of both SunEdison and TERP shares to rise.
146. In an interview with Christopher Martin for
Bloomberg Technology on September 2, 2015 at
SunEdison’s office in Belmont, California, Chatila stated
that “[t]he most important question for investors is when

-App. 96ado we start generating cash for a living,” adding that he
had previously “said it’s at the end of 2016 or early 2017,”
SunEdison had recently “been signaling it’s going to be a
lot sooner than that, probably early 2016 or late 2015.” On
September 3, 2015, Chatila’s assurances drove up the
price of SunEdison Stock approximately 11% to a close of
$11.94. As subsequently reported by the Wall Street
Journal April 14, 2016 piece, however, “an internal
presentation to SunEdison’s [B]oard showed the
company wouldn’t have positive cash flow until at least the
second quarter of 2016. Senior executives read the
Bloomberg story agape.”
147. On September 8, 2015, SunEdison announced
that an agreement had been reached to form a
partnership with unnamed institutional investors advised
by JP Morgan to provide equity to purchase projects
developed by SunEdison at “an agreed upfront
development margin.” Financial terms of the
arrangement were not disclosed. SunEdison said that the
partnership agreement would provide $300 million to fund
the purchase of a 33% interest in a 425 MW portfolio of
solar assets owned by Dominion Resources. SunEdison’s
press release went on to state:
The partnership also contemplates the acquisition of
new development projects into mid-2016, providing
an ongoing source of capital for SunEdison projects
ready to go into construction or operation. “This
partnership supports SunEdison’s growth strategy
while strengthening our liquidity,” said Paul Gaynor,
executive vice president of SunEdison’s EMEA and
Americas business unit. “Attracting strong investors
such as J.P. Morgan Asset Management reinforces

-App. 97athe breadth and depth of demand for ownership of
renewable energy assets.”
148. Also on September 8, 2015, SunEdison
announced another joint venture agreement with
Dominion Resources to invest $320 million to develop the
265 MW Three Cedars solar project in Utah, on terms
similar to the previously announced joint venture on the
Four Brothers project, and told investors it would finance
the balance of the capital through a loan from Deutsche
Bank.
149. On October 1, 2015, analysts at CreditSights
disclosed that a margin call on a $410 million SunEdison
“non-recourse” margin loan that SunEdison carried may
have been triggered, which would wipe out a large portion
of SunEdison’s available cash. That day SunEdison
Stock’s price closed at $7.20. Still, the Defendantfiduciaries continued to do nothing to protect the Plan’s
assets invested in SunEdison Stock.
150. Furthermore, Defendants continued to make
misrepresentations concerning the strength of its
financial condition, even as it filed its Form 8-K with the
SEC on October 5, 2015, announcing layoffs of 15% of its
workforce and restricting charges of $30 to $40 million for
Q3 2015 through Q1 2016. The October 5, 2015 Form 8-K
reported that on September 29, 2015, the SunEdison
Board approved the management’s plan to reorganize.
However, the October 5, 2015 Form 8-K misrepresented
the purpose of these layoffs as a vehicle to “optimize
business operations in alignment with current and future
market opportunities, and accelerate cash flow positive
operations.” In reality, the Company did not have the cash
flow to sustain its operations.
151. The next day, on October 6, 2015, the Wall
Street Journal reported in an article entitled “SunEdison

-App. 98aWon’t Complete $700 Million Buyout of Latin America
Power” that as its “woes mount[ed],” SunEdison failed to
make a required $400 million upfront payment for a
roughly $700 million planned acquisition of Latin
American Power (“LAP”). The article noted that
attorneys for LAP stated that SunEdison was in breach
of its obligations under the deal. That day, SunEdison
Stock closed at $8.69.
152. In a call with investors on October 7, 2015,
however, Chatila disputed that SunEdison was at fault,
claiming that “[t]he seller there did not satisfy the
conditions precedent” to closure of the deal, “[s]o instead
of trying to fix it, remedying it, [SunEdison was] saying
that the agreement [wa]s terminated.”
153. LAP would later petition the New York
Supreme Court for an order of attachment to remedy the
breach.10 In its February 10, 2016 petition, LAP
shareholders sought to attach assets, accounts, and other
property held by SunEdison and TERP in satisfaction of
LAP’s $150 million claim. The petition alleged that “In
numerous meetings, phone calls, and emails thereafter,
the highest levels of Respondents’ management—
including SunEdison, Inc. CEO Ahmad Chatila,
SunEdison, Inc. CFO Brian Wuebbels, TerraForm CEO
Carlos Domenech, and TerraForm CFO Alex
Hernandez—reassured LAP and the LAP Shareholders
that closing was to proceed as scheduled on September 23
and that they intended for SunEdison Holdings to comply
with its payment obligations under the Purchase
Agreement.” The petition cited a Deutsche Bank report
10

BTG Pactual Brazil Infrastructure Fund II, L.P.,
et al. v. SunEdison, Inc., et al., Index No. 650676/2016 (Sup.
Ct. N.Y. Cnty. Feb. 10, 2016).

-App. 99aclaiming that SunEdison was “laden with debt,” and
observed that “in an apparent attempt to burnish their
third quarter end balance sheet, [SunEdison and TERP]
requested that they be permitted to delay paying the full
amount of certain payments on September 30 and instead
defer $125 million of that amount until two days later, to
October 2.” While SunEdison signed the closing
documents, it never made a single payment. On October
1, LAP terminated the Purchase Agreement and
delivered to SunEdison a formal dispute notice, notifying
it of intent to initiate arbitration proceedings.
154. The October 1, 2015 disclosure of the margin
call on SunEdison’s loan and the October 5, 2015
announcement of the Company layoffs, as well as the
continually falling Company Stock price, were additional
red flags that should have prompted Defendants to
investigate the continued prudence of retaining
SunEdison Stock as a Plan investment. Yet, Defendants
did no such investigation, ignored the mountain of
information available to them demonstrating the
imprudence of allowing Plan Participants to remain
invested in SunEdison Stock, and continued to maintain
the SunEdison Stock Fund in the Plan.
155. Following the Company’s October 5, 2015
announcement of massive lay-offs, SunEdison Stock price
continued its downward spiral, thereby decimating the
value of the Plan Participants’ retirement savings.
156. On October 7, 2015, SunEdison disclosed that it
was lowering its guidance for 2016, and announced in a
press release that it would not sell any projects to TERP
or Global that year. In a Business Update presentation
released to investors that same day, SunEdison described
a “market dislocation” that had become apparent in the
YieldCo space, noting the recent extremely poor

-App. 100aperformance of both SunEdison’s and TERP’s respective
stock prices. Defendant Chatila announced on a call with
analysts that SunEdison would “pivot to third-party
sales” because there was “a disconnect between the value
of these underlying assets and what people are willing to
pay for them in a yieldco.” Even worse, defendant Chatila
announced that SunEdison planned to reduce expansion
plans in Latin America and other emerging markets,
which were the YieldCos’ geographic focus. Defendant
Chatila explained that SunEdison “de-emphasized
countries, consolidated divisions and walked away from
things that didn’t make sense in the current dislocation in
the market.” In other words, the project acquisition
strategy upon which the YieldCos depended to effectuate
SunEdison’s business plan would not be carried out.
157. Even at this dire time, however, Wuebbels
continued to do nothing to protect the Plan from suffering
losses. On an October 7, 2015 call with investors
concerning SunEdison’s recently announced “Global
Initiative To Optimally Position The Company For Long
Term Profitable Growth,” Wuebbels claimed that
“excluding the cash from TerraForm and Global, the cash
available at the standalone DevCo, was standing at
approximately $1.4 billion at the end of the quarter, up
from $900 million at the end of the second quarter.” Slide
10 in the accompanying deck touted the “Strong Liquidity
Position at DevCo” and claimed Q3 ending cash of $1.38
billion. On that same call, Chatila claimed that SunEdison
was “well capitalized with adequate liquidity” and its
“optimized economic engine positions us with cashgenerating ability that exceeds the liabilities of the
business.”
158. On October 8, 2015, SeekingAlpha issued
another article entitled “SunEdison: Is Bankruptcy

-App. 101aPossible,” noting that SunEdison’s cash expenditures are
“clearly unsustainable” with the Company burning
“around $3.5 billion in the last four quarters.” The article
also noted that “SunEdison is over-leveraged” with
“shareholders equity of only $632 million and total
liabilities of $16,925 million, it is possible to calculate a
debt to equity ratio of 26:78.” The results “severely call
into question the health of the Vivint Solar organization
(especially in the context of strong results from Sunrun
and SolarCity)” wrote Credit Suisse’s Patrick Jobin.
Jobin described the Company’s likely acquisition as
follows:
The decline in volumes and likely guidance miss, in
addition to the weakening financial position (debt
raises challenged recently), indicates troubles either
organizationally or as a consequence of the pending
acquisition by SunEdison which is supposed to close
Q4-Q-1. While no shareholder vote has been
scheduled to approve the merger, it appears financial
underperformance is not a MAC to get out of the
deal. While TerraForm is actively trying to sell the
operating assets upon acquisition, one must as
further questions about the strength of the
development engine SunEdison is acquiring.
159. Deutsche Bank’s Vishal Shah likewise cut his
price target on SunEdison, noting that the Company’s
Form 10-Q included “language around SUNE debt
financing” that “could concern some investors who are
focused on the balance sheet, while opex needs could
complicate SUNE’s ~$150M/Q Guidance.”
160. On October 22, 2015, Chatila informed Vivint
that SunEdison’s Audit Committee of the Board had
serious misgivings about the economics of the merger in
light of the prevailing market conditions for both

-App. 102aSunEdison and Vivint. SunEdison was in a severe
liquidity crunch and was in danger of not being able to
carry out the merger on the agreed upon terms. As the
facts demonstrate, during the Relevant Period,
Defendants knew about SunEdison’s dire financial
condition, yet failed to take any action whatsoever to
protect the Plan Participants.
161. Chatila was acutely aware of SunEdison’s
liquidity crunch at this time. As alleged by Vivint in a
complaint seeking relief for breach of contract that it filed
against SunEdison in the Court of Chancery of the State
of Delaware on March 8, 2016 (Vivint Solar, Inc. v.
SunEdison Inc., et al., C.A. No. 12088 (Del. Ch. Mar. 8,
2016)), “in late October [2015] . . . Chatila also asked
Butterfield for help in seeking financing from the
Blackstone Group to help redress some of SunEdison’s
own capital issues.”
162. On the November 10, 2015 earnings call for
3Q15, which featured Chatila, Wuebbels, and Morris,
Wuebbels reported that SunEdison had “approximately
$1.4 billion as of the end of the quarter.” The
accompanying slide deck also set forth this $1.4 billion
figure. As noted above, the Wall Street Journal on April
14, 2016 reported that, according to an internal report,
SunEdison had only $90 million in available cash at that
time, and “[t]he discrepancies troubled some senior
officials, who raised concerns to SunEdison board
members, according to people familiar with the matter.
They said SunEdison was running out of money and
wasn’t being honest with investors about its financial
problems.” The November 9, 2015 Form 10-Q likewise
claimed that SunEdison “had access to” $1.3 billion in
cash and cash equivalents and sufficient liquidity to
operate for the following year.

-App. 103a163. In November 2015, SunEdison disclosed among
other things: (a) drastically lower margins on retained
projects than had been forecast; (b) significant funding
issues with two separate transactions; (c) the recategorization of over $700 million in “non-recourse” debt
(including the $410 million Margin Loan and the
Exchangeable Notes) to “recourse,” meaning the lenders
could recover the amounts due directly from SunEdison;
and (d) that it had taken out an emergency $170 million
loan from Goldman Sachs on August 11, 2015, at a
staggering effective interest rate of 15%. At the beginning
of November 2015, the stock traded at $7.77 per share; by
November 30, 2015, the stock dropped by 59% to $3.19 per
share.
164. On this troubling news, investors quickly sold
SunEdison Stock, with several prominent hedge funds,
such as Daniel Loeb’s Third Point, selling their entire
positions. Yet, Defendants continued to maintain the
SunEdison Stock Fund in the Plan to the detriment of the
Plan Participants. During the Relevant Period,
Defendants took no action to protect the Plan and its
Participants from, inter alia, not purchasing additional
shares Company Stock, discontinuing the option of
allowing SunEdison Stock as an investment for Plan
Participants,
and/or
recommending
that
Plan
Participants sell SunEdison Stock.
165. On February 29, 2016, SunEdison filed a Form
12b-25 regarding the delayed filing of SunEdison’s
Annual Report on Form 10-K for the year ended
December 31, 2015. Defendants disclosed that, beginning
in late 2015, SunEdison’s Audit Committee, with the help
of independent advisors, investigated allegations
concerning the accuracy of SunEdison’s anticipated
financial position based on certain issues raised by former

-App. 104aexecutives and current and former employees of
SunEdison. As of the end of February 2016,
notwithstanding everything alleged herein, SunEdison
reported that this investigation has not discovered any
wrongdoing.
166. On April 3, 2016, Global filed the
Global/SunEdison Action in the Chancery Court of the
State of Delaware. On April 4, 2016, the next trading day,
news of the Global/SunEdison Action broke. Global’s
complaint alleged claims for “breach of fiduciary duty,
breach of contract and unjust enrichment, to remedy
SunEdison’s misappropriation of $231 in cash from
Global.” Global claimed that SunEdison had solicited
funds from Global based on representations that the
payments were necessary to prevent certain projects in
India, which were to “drop down” to Global after
completion, from failing, when in fact SunEdison needed
the money to close the Vivint deal, as well as for collateral
for the Margin Loan because of decline in the value of
TERP stock due to crashing hydrocarbon prices.
167. Global further alleged that SunEdison had
sought to renegotiate the Vivint acquisition, and that as of
November 18, 2015, TERP’s conflicts committee—which
existed to ensure that transactions involving SunEdison,
TERP’s controlling shareholder, were fair to Global’s
minority shareholders—was still reviewing proposed
revisions to the Vivint acquisition, casting doubt as to
whether that transaction would go forward. At the same
time, Global executives had their own concerns about
SunEdison:
In light of SunEdison’s stated need for cash, as well
as published reports raising concerns about
SunEdison’s liquidity, in or about late October 2015,
Domenech, Hernandez, and Perez raised concerns

-App. 105awith SunEdison’s Board about the extent of
SunEdison’s liquidity and the accuracy of
SunEdison’s public statements regarding its
financial condition.
168. Global alleged that on November 18, 2015 the
conflicts committees of both TERP and Global
determined that they could not complete any transactions
with SunEdison to provide the $100 million SunEdison
was seeking, and that SunEdison subsequently convened
the TERP and Global boards on November 19, 2015 for
purposes of replacing the YieldCos’ senior managers and
members of the conflicts committees with the stated goal
of obtaining “a decision from TERP—positive or
negative—on the request for approval of the revised
terms for the proposed Vivint transaction.” That same
day, SunEdison attorney Sujay Parikh (“Parikh”)
prepared a draft Purchase and Sale Agreement (“PSA”)
calling for a large payment from Global to SunEdison in
exchange for completion of certain projects in India that
were to “drop down” to Global in the near term. Global
alleged that Chatila then called a meeting for the
following day, whereat he, Truong, and Parikh pitched “a
false, misleading, and one-sided recitation” of the
proposed “maneuvers” contemplated by the PSA to the
newly installed Global conflict committee members,
namely: Blackmore, Chris Compton (“Compton”), and
Jack Jenkins-Stark (“Jenkins-Stark”).
169. Global alleged that Chatila, Truong, and Parikh
did not disclose the call on the Margin Loan that needed
to be satisfied by close of business on November 20, 2015,
and that Blackmore, Compton, and Jenkins-Stark agreed
to the PSA based on a mistaken belief that the India
projects were contingent upon its adoption. Wuebbels
subsequently, allegedly caused $150 million to be wired

-App. 106afrom Global to SunEdison that day, which was used to
satisfy the Margin Loan call. An additional $81 million
was wired from Global to SunEdison on December 1, 2015
after Global and SunEdison had entered into an amended
PSA that purportedly provided for liquidated damages
and a provision setting the final purchase price of the
India projects.
170. One defense advanced by Chatila, Truong, and
Wuebbels in their answer is that the contracts did not
provide for use restrictions for the funds.
171. The complaint in the Global/SunEdison Action
was signed by Blackmore, who had served on
SunEdison’s Board for nearly a decade prior to joining
the YieldCos’ conflicts committees.
172. Upon the filing of the complaint in the
Global/SunEdison Action, share prices of SunEdison
Stock lost half their value, closing at a mere $0.21 on April
4, 2016, down from the prior day’s close of $0.43.
173. The intrigue, however, did not end there. The
day after Global filed the complaint in the
Global/SunEdison Action, it also produced documents to
a shareholder pursuant to a written demand to inspect
Global’s books and records that the shareholder had made
on January 22, 2016. That shareholder would later
commence a derivative action alleging that Blackmore,
Compton, and Jenkins-Stark, as well as Global director
Hanif Dahya, had breached their fiduciary duties to
Global’s minority shareholders by approving the PSA.11
The Global Derivative Action alleged that, contrary to the
contentions of Blackmore, Compton, and Jenkins-Stark,
11

Aldridge v. Blackmore, et al., C.A. No. 12196-VCL
(Del. Ch. Apr. 12, 2016) (the “Global Derivative Action”).

-App. 107athose individuals had been specifically installed by
SunEdison, in its capacity as controlling shareholder of
the YieldCos, in order to approve the PSAs and secure
funding to satisfy the Margin Loan call.
174. The Global Derivative Action pointed to a series
of red flags that should have alerted not only the Global
conflicts committee, but also Defendants, in their capacity
as Plan fiduciaries and individuals responsible for
overseeing the Investment Committee, to the fact that
SunEdison Stock was not a prudent investment:
•

Former Global board members Perez, Mark
Florian (“Florian”) and Mark Lerdal (“Lerdal”)
in protestation of SunEdison’s unilateral
enlargement of the Global board to include
Blackmore, Compton, and Jenkins-Stark on
November 20, 2015;

•

The replacement of the old conflicts committees
with Blackmore, Compton, and Jenkins-Stark;

•

Resignation letters, from Florian and Lerdal to
Blackmore, identifying the Global’s board’s
actions on November 20, 2015 as the reason for
their resignation;

•

Immediate pressure by SunEdison executives
on the new Global conflicts committee to
approve a related-party transaction;

•

Blackmore’s resignation from the Board, on
which he had served for nine years;

•

The fact that the PSA presenters were all
SunEdison insiders; and

•

The PSA presenters’ insistence that the new
conflicts board approve the PSA without
consulting independent financial or legal

-App. 108aadvisors.
175. The Global Derivative Action noted that
Blackmore, Compton, and Jenkins-Stark approved the
PSA notwithstanding SunEdison’s liquidity problems and
other troubles, as “widely reported in, for example:
(a) An August 6, 2015 Motley Fool article
entitled ‘SunEdison’s Losses Become a Red
Flag for Investors’;
(b) An August 20, 2015 article by Jim Cramer
on CNBC entitled ‘Kramer: Mea Culpa! Why I
Was Wrong on SunEdison’;
(c) An August 31, 2015 article in The New York
Times entitled ‘Greenlight Capital down 14%
For the Year,’ noting the hedge fund’s huge
losses on SunEdison and stating ‘in August,
[SunEdison] stock took a sharp dive and is now
trading at $10.40 a share’;
(d) An October 2, 2015 ValueWalk article
entitled ‘SunEdison May Have Experienced
Margin Call Says CreditSights’;
(e) An October 7, 2015 article in The Wall
Street Journal entitled ‘SunEdison, Shares
Fizzling, Promises a New Strategy,’ which
stated that ‘[SunEdison] has failed to turn a
profit for the last 2½ years, but financial
performance in recent quarters has gotten
worse. This year’s second-quarter loss was $263
million, or 89 cents a share.’ The article
ominously warned ‘SunEdison’s woes illustrate
how fortunes can quickly change for a moneylosing company when investors grow skeptical’;
(f) A November 10, 2015 Bloomberg article
entitled ‘SunEdison Posts Wider Loss as CEO

-App. 109aSlows Growth, Seeks Cash,’ which discussed
SunEdison’s continued financial woes, and
stated that ‘…SunEdison’s loss of 92 cents a
share was bigger than the 65 cent average of 13
analyst’s [sic] estimates compiled by
Bloomberg.’ The article concluded ‘SunEdison
slumped 22 percent to $5.77 at the close in New
York, the lowest since May 2013’;
(g) A November 11, 2015 Business Insider
article entitled ‘SunEdison is Getting Crushed,’
which set forth the company’s various upcoming
cash commitments and noted ‘[T]he stock price
started falling this summer. The stock is down
75% year-to-date’;
(h) A November 16, 2015 Bloomberg Markets
article entitled ‘SunEdison – Now with $739
Million in Extra Recourse Debt?’ which noted
that CreditSights’ analysts Andy Devries and
Greg Jones argued that the precipitous fall in
one of its yieldcos’s share price means that
SunEdison now faces a collateral call of a $410
million loan secured by TerraForm stock’; and
(i) A November 17, 2015 YahooFinance article
entitled ‘SunEdison is getting butchered,’ which
noted that ‘SunEdison has had to pay $152
million towards a margin loan for one of its
yieldcos, TerraForm.’”
176. The Global Derivative Action further alleged
that Blackmore, Compton, and Jenkins-Stark had
approved the PSA in bad faith, thereby squandering $231
million in corporate assets. Many of the material
allegations in the Global Derivative Action were known to
Wuebbels, Chatila, and Blackmore, who did nothing to
divest, or cause the Investment Committee to divest, Plan

-App. 110aassets from the SunEdison stock fund.
177. On April 21, 2016, SunEdison, as well as twentyfive related entities, filed petitions for relief in the
Bankruptcy Court.
178. During the bankruptcy proceedings, it became
clear that the need to file for bankruptcy protection and
file for Chapter 11 had been contemplated for some time
as the Company was hopelessly insolvent and had been
for some time. See In The Matter of SunEdison, Inc. et
al., 16-10992 (SMB) (Dock. No. 3804: Memorandum
Decision and Order Overruling Shareholder Objections to
Confirmation of the Debtors’ Joint Plan). Counsel for
SunEdison explained at the start of the bankruptcy
proceedings that:
[T]he company tried on its own, over the last year or
so, to manage through this liquidity challenge, but
ultimately, we came to the conclusion that the right
thing to do to save this business and to maximize the
value for all the stakeholders, was to utilize Chapter
11 to create an orderly process leading to a
reorganization.
In The Matter of SunEdison, Inc. et al., 16-10992 (SMB),
Debtors’ Motion for Joint Administration of the Chapter
11 Cases, Dock.. No. 147 at 19:8-22.
179. At long last, in the following two months,
Wuebbels and Chatila left SunEdison, when the former
was terminated on May 10, 2016 and the latter resigned
on June 22, 2016 (having resigned from the boards of
TERP and Global on May 26, 2016).
H.

SunEdison Stock Was an Imprudent Investment
During the Relevant Period Due to the
Company’s Changed Circumstances
180. As discussed above, prior to and during the

-App. 111aRelevant Period, SunEdison incurred a gargantuan
amount of debt to fund its operations. In particular,
SunEdison’s debt load reached $11.7 billion by the end of
the third quarter of 2015. This debt threatened the
Company’s liquidity and its ability to stay solvent.
181. The liquidity risks facing SunEdison were
widely reported during the Relevant Period and were
known or should have been well known to Defendantfiduciaries, who nonetheless failed to investigate the
continued prudence of investing Plan assets in SunEdison
Stock and failed to act to protect the Plan Participants’
assets invested in SunEdison Stock.
182. As alleged above, on August 6, 2015, SunEdison
issued a press release, filed with the SEC as an exhibit to
the Form 8-K, reporting results of its operations for the
2015 second quarter. The results were dismal and should
have alerted Defendant-fiduciaries (among other warning
signs alleged herein that were already out in the public
domain) of the need to investigate the prudence of
maintaining the SunEdison Stock Fund as a Plan
Investment. In particular, SunEdison reported a loss of
$263 million in its second quarter. Additionally,
SunEdison stated it had a loss of 93 cents per share.
SunEdison also reported that gross margins on the
projects that the Company had sold to TERP were only
12.5% (down from SunEdison’s prior guidance of 18%).
183. The market reacted poorly to SunEdison’s
announcement of its 2015 second quarter earnings:
NEW YORK (The Street) -- SunEdison (SUNE - Get
Report) shares are down by 12.90% to $19.92 in early
market trading on Thursday, following the release of
the solar energy company’s 2015 second quarter
earnings results.

-App. 112aThe company reported a net loss of $263 million, or a
loss of 93 cents per share on an adjusted basis on
revenue that rose 5.6% to $455 million for the
quarter.
*

*

*

Separately, TheStreet Ratings team rates
SUNEDISON INC as a Sell with a ratings score of
D+. TheStreet Ratings Team has this to say about
their recommendation:
“We rate SUNEDISON INC (SUNE) a SELL. This
is driven by a number of negative factors, which
we believe should have a greater impact than any
strengths, and could make it more difficult for
investors to achieve positive results compared to
most of the stocks we cover. The company’s
weaknesses can be seen in multiple areas, such as
its generally high debt management risk and
weak operating cash flow.”
See “SunEdison (SUNE) Stock Falling Following
Earnings Results,” The Street, Aug. 6, 2015 (emphasis
added). SunEdison Stock closed at $17.08 on August 6,
2015.
184. On the same day that SunEdison released its
2015 second quarter earnings, alarms rang in the financial
press that instead of building a successful renewable
energy conglomerate, the Company was actually building
nothing more than a “house of cards”:
Debt could be too much for this renewable energy
giant to overcome.

-App. 113a-

In a quarter when its competitors wowed investors
with better than expected profits, SunEdison
(NYSE: SUNE) is plunging after another massive
quarterly loss.
The loss itself shouldn’t surprise anyone who
follows SunEdison, but it highlights how tough
it’s going to be to build a renewable energy
powerhouse with nearly $11 billion in debt and
negative cash flow from operations. The market is
finally starting to realize that this high-profile
renewable energy powerhouse may actually be
building a house of cards.
Constructing a renewable energy giant
What SunEdison has sold to investors over the
past few years is that it can build a massive
renewable energy company that can play in
nearly every end market in every geography
around the world. The company has built an 8.1 GW
pipeline of projects with 1.9 GW under construction
on top of 404 MW finished in the second quarter.
Those are impressive numbers no matter who is
building them.
But building that scale has been costly for
SunEdison. The company has a $10.7 billion debt
load and continual losses quarter after quarter.
Case in point was a loss of $263 million in the second
quarter of 2015 on $455 million of revenue.

-App. 114a-

There are a few alarming numbers in last
quarter’s report besides the loss. First is that
marketing and administration costs were $259
million, more than two and a half times the $103
million gross margin the company generated. On top
of that, interest expense was $146 million, again
more than gross margin.
With losses mounting and debt piling up, the only
way for SunEdison to get out from under the
pressure is to build more projects even faster with
even more debt. It’s the only path to potential
profitability, but it’s fraught with risk if interest
rates rise or competitors with better technology
begin winning projects. Given First Solar and
SunPower’s profitable results over the last two
weeks, I think that second concern is bigger than
SunEdison wants to admit.
TerraForm Power paying money it doesn’t have
You could say that SunEdison is just pushing
projects down to its yieldco, TerraForm Power
(NASDAQ: TERP), which will monetize projects
long term.
That’s true, and it has grown cash available for
distribution (CAFD), but again, it’s starting to
look like a house of cards.
TerraForm Power’s CAFD for Q2 was reported to

-App. 115abe $65 million, and it paid a dividend of $0.335 per
share. But cash provided by operations was just
$45.9 million, and net income was just $29.1 million.
On top of that, the company has $2.3 billion of debt
to pay for with the cash flow.
At the very least, TerraForm Power is being
aggressive about what it pays to shareholders and
SunEdison, who owns all of its incentive distribution
rights, and it is willing to leverage the balance sheet
to do that.
Beware buying the biggest in renewable energy
SunEdison likes to tout itself as the biggest
company in renewable energy, but it’s far from the
most profitable, despite having one of the biggest
debt loads in the industry. That concerns me as an
investor, and I don’t see any sort of sustainable
advantage for the company in renewable energy
right now. SunEdison uses commodity solar panels,
wind turbines manufactured by large conglomerates,
and even battery storage that’s a commodity.
I’m not sure that’s a path to success in renewable
energy, and nearly $11 billion in debt is enough to
scare me far away from this stock.
See “SunEdison’s Losses Become a Red Flag for
Investors,” The Motley Fool, Aug. 6, 2015 (emphasis
added).

-App. 116a185. The massive losses reported by SunEdison for
its second 2015 quarter, the significant Company Stock
price decline, as well as media reports that the Company
was based on nothing but a “house of cards” because of
among other things, SunEdison’s massive debt load and
weak operating cash flow, should have prompted
Defendants to investigate and take protective action with
respect to the Plan’s investment in SunEdison Stock. Had
a proper investigation been conducted, a prudent
fiduciary would have determined that SunEdison Stock
was no longer a prudent retirement investment for the
Plan’s Participants. However, Defendants did no
reasonable investigation and instead continued to offer
the SunEdison Stock Fund as a Plan investment option,
in derogation of their ERISA duties.
186. At the same time, investor demand for energy
stock was unexpectedly weak, with many energy
investors (particularly hedge funds) retrenching in light
of the combined collapses of the oil and equities markets
and an increasingly negative shift in attitudes towards
yieldcos. See J.P. Morgan, North America Equity
Research, SunEdison, Inc.—In Light of Current Events:
Initiating at Overweight, at 4 (Aug. 31, 2015). In fact, the
stock price of SUNE competitor NRG Energy Inc.’s
yieldco—NRG Yield Inc.—shares plunged nearly 70%
between June and October 2015. See Keith Goldberg,
Yieldco Bubble Set To Pop For Clean Energy Cos.,
LAW360 (Oct. 8, 2015).
187. On November 10, 2015, SunEdison issued a
press release, filed with the SEC as an exhibit to the
Form 8-K, reporting results of its operations for the third
quarter ended September 30, 2015. As the second quarter
results, these results were also nothing but dismal.
SunEdison incurred a loss of 92 cents per share from

-App. 117acontinuing operations for the third-quarter 2015, much
wider than the year-ago quarter loss of 77 cents. The
Company’s general and administration expenses
increased about 135% to $296 million. Moreover, interest
expenses doubled to $214 million because of higher debt.
Therefore, SunEdison posted a loss from continuing
operations of $287 million or 92 cents per share compared
with a loss of $204 million or 77 cents posted in the third
quarter of 2014.
188. On the same day, SunEdison released its third
quarter 2015 results, Reuters reported that:
Nov. 10, 2015 (Reuters) -- Shares of SunEdison Inc
slid 24 percent to a nearly two- and-a-half-year low
on Tuesday after the U.S. solar company posted a
wider-than- expected loss, raising fresh concerns
about its ability to fund its operations, projects
and acquisitions.
The stock was down $1.49, or 20.1 percent, at $5.91
in midday trade on the New York Stock Exchange.
The stock has lost 82 percent of its value since hitting
a year high of $33.44 on July 20.
The company also said it would stop selling projects
to its two “yieldcos” - bundles of solar, wind or other
power assets it spun off into dividend-paying public
entities.
The yieldcos had become an important source of
funding for SunEdison. The solar industry

-App. 118abellwether said in its quarterly report on Monday
that there were no assurances it would be able to
raise the $6.5 billion to $8.8 billion needed to fund the
construction of renewable energy assets through
2016. …
See “SunEdison shares slide 24 percent on liquidity
fears,” Reuters, Nov. 10, 2015 (emphasis added).
189. The following day, on November 11, 2015,
Business Insider reported that:
Renewable-energy firm SunEdison is down 14%
after the company disclosed a number of cash
commitments in its quarterly earnings report.
Here are the details:
•

According to an agreement SunEdison made in
September, it has bought $100 million worth of
TerraForm Global stock from one of its
partners, Renova, in March 2016. TerraForm
Global is down 4.2%.

•

It also may have to buy $4 billion worth of windfarm projects from Renova.

•

Meanwhile, another SunEdison affiliate,
TerraForm Power, could be required to buy 450
megawatts of completed Vivint projects in 2016,
and up to 500 megawatts per year from 2017 to
2020 from SunEdison.

-App. 119a-

•

TerraForm Power is also obligated to pay
$580.3 million of assets for some residential
projects. TerraForm Power is down 4.3%.

That’s a lot of cash.
SunEdison has been hurting some of Wall Street’s
biggest names since the stock price started falling
this summer. The stock is down 75% year-to-date.
David Einhorn of Greenlight Capital, and Leon
Cooperman of Omega Advisors, have taken a hit. In
August, Cooperman asked SunEdison executives if
they would buy back some stock to stop the bleeding.
He said: “Is there a massive change in the absolute
relative prices of a number of your entities you’re
involved with? Does this create an opportunity for
you creating additional value for shareholders by
capitalizing on the short-term pessimism in midterm
market or is that financial resource pretty much
earmarked for reinvestment in the business?”
In plain English, Cooperman was hoping that the
company might embark on stock buybacks. The
answer was “no” then, and given these disclosures
regarding the company’s hefty cash commitments,
it’s probably “no” now, too.
See “SunEdison is getting obliterated,” Business

-App. 120aInsider, Nov. 11, 2015.
190. In the meantime, despite the additional red
flags raised by the third quarter 2015 results regarding
the Company’s business and prospects and the negative
commentaries in the financial press, the Defendantfiduciaries continued to offer the SunEdison Stock Fund
as a Plan investment option, made no reasonable
investigation of the prudence of continued investment of
Plan assets in SunEdison Stock and took no protective
action with regard to the Plan’s assets invested in
SunEdison Stock.
191. On November 19, 2015, following the release of
SunEdison’s financial results for the third quarter of
2015, Real Money reported that:
How did the former darling of the S&P 500 sink so
low? It seems the company cannot catch a break, as
liquidity concerns have caught the attention [of] Wall
Street analysts as well as hedge funds, who pared
down their position in the company. The Missouribased renewable energy company develops, builds
and operates solar and wind power plants. As part of
its business, the company spun off two companies –
TerraForm Global (GLBL) and TerraForm Power
(TERP), both YieldCos – to operate its projects. As
of Wednesday’s market close, its stock price has
fallen 83% this year to $3.25 from $19.74.
“The company overextended itself, continuing to
make big acquisitions even when it became clear that
the market had turned against them,” Jim Cramer
said of the company in August as the stock was

-App. 121aalready in freefall.
Recent news hasn’t been much better for SunEdison.
The
company’s
disappointing
third-quarter
earnings, released on November 10, raised questions
about its ability to meet current obligations.
The reality is this: SunEdison’s debt went from $2.6
billion to $11.7 billion currently,” Gordon Johnson of
Axiom Capital Management told Real Money. “A lot
of that debt was due to the purchase of companies
and projects they intended to drop down to the
YieldCo. They can no longer do that so the question
is can they sell that stuff into the open market at
accretive margins?”
The company’s current ratio, which measures
current assets vs. current liabilities, stands at 1.3,
below the 1.5 to 2.0 range considered prudent by
stock analysts.
Axiom also takes issue with the company meeting its
targets and how it measures– and discloses – its
margins. In October, SunEdison said it planned to
sell projects at 18% to 19% gross margin, but it
reported that the projects were actually sold at 15%.
Making matters worse, SunEdison said that the
project excluded equipment, according to James
Bardowski of Axiom.
“When you include the full solar system, they
actually sold it at 9.6% gross margin – far below what

-App. 122athey told everyone a month prior,” Bardowski told
Real Money.
Also concerning analysts is a $160 million loan
SunEdison received from Goldman Sachs. Axiom as
well as other analysts believe the loan was used to
pay off another loan from Deutsche Bank. The
company stated an interest rate on the loan of 9.25%,
but paid a hefty origination fee, which made the
effective rate closer to 15% — a high rate for shortterm financing.
“There’s an absence of transparency in their
financials,” said Doug Kass, of Seabreeze Partners
Management and columnist for Real Money Pro. In
reference to the company’s sales figures as well as
the Goldman Sacks loan.
While fundamental issues about the company’s
sustainability persist, SunEdison has also taken
several other hits this week. On Monday, as hedge
funds submitted their 13Fs, it was revealed that
several, including David Einhorn’s Greenlight
Capital and Dan Loeb’s Third Point, significantly
pared down or completely exited their positions in
SunEdison during the third quarter. Share of stock
plummeted 33% on Tuesday, in response to the news.
Adding to the pile, on Wednesday its shares were
halted as the price shot up as high as 19% on a rumor
that Blackstone was going to invest in SunEdison’s
debt. When those rumors proved to be untrue, the

-App. 123astock fell in after-hours trading.
See “Will Troubled SunEdison Need to Raise More
Equity?,” Real Money, Nov. 19, 2015 (emphasis added).
192. Barron’s also echoed the analysts’ concerns
regarding SunEdison’s liquidity, as well as analyst
downgrades of SunEdison Stock:
UBS dropped its price target to $3 a share from $6
on Wednesday. Analyst Julien Dumoulin-Smith
explained:
We value SUNE on a SOTP [sum of the parts] basis
using a combination of EV/EBITDA and DCF
[distributable cash flow’ approaches plus the market
value of LP ownership stakes in TERP and GLBL.
We no longer assign any credit for GP incentive
distribution rights (~$2/sh previously) and we now
subtract the value of -$169M of expensive (9.25%)
term loans taken out in August as disclosed in the
most recent 10Q (another $0.50). We’ve decreased
Vivint Solar (VSLR)’s cash balance from ~$150 mn
to $82 mn per the earnings update. It remains
unclear the new sale price for the VSLR assets to
TERP via SUNE (who is responsible for pricing this
sale, presumably driving further downgrade if
unable to receive relief on VSLR terms).
SUNE shares have been sliding this month
following third quarter results that raised
questions about its liquidity and ability to afford
all its recent acquisitions. Reports that hedge

-App. 124afunds were unloading their holdings in the third
quarter and that management was not providing
answers to analysts’ questions have made matters
worse.
See “SunEdison Closes Below $3 A Share,” Barron’s,
Nov. 19, 2015 (emphasis added).
193. All in all, SunEdison’s Stock plunged by 83%
during the second half of 2015, as investors became
increasingly concerned about the Company’s ability to
finance its plans, according to Bloomberg. In addition to
the enormous decline of its stock price, the Company
continued to experience other serious financial difficulties
during the fall of 2015, including a dearth of liquidity,
falling margins, and a reclassification of $739 million of its
debt from “non- recourse” to “recourse.” However,
throughout this time, despite the red flags concerning,
inter alia, the Company’s extraordinary debt and its
ability to survive, raised by both the Company’s own
quarterly reports, as well as the financial press covering
the Company, the Defendant- fiduciaries did nothing to
investigate the prudence of Company Stock as an
investment for retirement nor to protect the Plan
Participants’ interests invested in SunEdison Stock.
194. The Company’s struggles continued in 2016. On
January 7, 2016, SunEdison filed Form 8-K with the SEC,
announcing pricing of $725 million of second lien secured
term loans and entry into a series of exchange
agreements, through which SunEdison swapped its debt
for a mix of equity and new debt with a higher interest
payment than the old debt did, resulting in $738 million
debt restructuring. However, SunEdison’s desperate
move to restructure its debt in an effort to stay afloat did

-App. 125anot succeed in propping up the Company Stock price,
which has already been declining for months during the
preceding year (which went ignored by the Plan’s
fiduciaries). The same date of the debt restructuring
announcement, it was reported that:
Shares of the solar power semiconductor
manufacturer are down over 40% following a series
of complex moves that the company made to reduce
debt.
First of all, SunEdison is offering a new $725 million
second lien loan that will be used to pay about $170
million on a second lien credit. Included in this loan
are 28.7 million shares worth of warrants.
Also, $580 million worth of notes will be traded for a
$225 million note due in 2018, plus 28 million common
shares. Finally, 11.8 million common shares are
being traded for $158.3 million in preferred stock.
This has triggered today’s massive sell-off because
how dilutive it is for investors. Unfortunately,
diluting the stock seems like a necessary evil for
SunEdison, which desperately needs to reduce its
debt. However, no one was expecting the costs to be
this high.
See “Why Is SunEdison Stock Crashing?,” Zacks Equity
Research, Jan. 7, 2016.

-App. 126a195. Neither did SunEdison’s January 7, 2016
announcement that it was restructuring its debt stave off
the analysts’ concerns about the Company’s ability to
survive. On the contrary, more alarms concerning, inter
alia, SunEdison’s massive debt, liquidity risks, and ability
to raise more funds for project financing continued to
sound in the financial press:
Highlights of Debt Restructuring
SunEdison revealed that it is offering a $725 million
second lien loan comprising of $500 million of A1
loans and $225 million of A2 loans. Both the loans, to
mature on Jul 2, 2018, carry an interest rate of
LIBOR+10%. The loan also includes 28.7 million
shares worth of warrants.
This loan is part of its series of exchange
agreements with certain holders of its Convertible
Senior Notes due 2018, 2020, 2022 and 2025 and
Perpetual Convertible Preferred Stock (the “2018
Notes,” “2020 Notes,” “2022 Notes,” “2025 Notes,”
and “Preferred Stock,” respectively).
The company intends to use part of the net proceeds
to repay the existing $170 million second lien credit.
The remaining will be utilized for the payment of
interests, transaction costs and general corporate
purposes.
Also, $580 million worth of notes will be traded for a
$225 million note due in 2018, plus 28 million common
shares. Finally, 11.8 million common shares will be

-App. 127atraded for $158.3 million in preferred stock.
What Triggered the Sell-off?
According to Bloomberg, though the aforementioned
deals will increase SunEdison’s net debt position by
$42 million, it will add $555 million to liquidity — a
very positive strategy for a cash-strapped company.
Then what made investors sell the stock? The high
cost SunEdison is incurring to enhance liquidity.
Citing Sven Eenmaa, an analyst at Stifel Financial
Corp., Bloomberg revealed that the new transaction
will increase SunEdison’s annual interest expenses
by about $40 million. The financial data provider also
stated that this will dilute existing shareholders by
approximately 18%.
Conclusion
It is to be noted that SunEdison has been
struggling to finance its projects due to the
tremendous debt burden it incurred because of the
string of buyouts, including First Wind and Solar
Grid Storage, made over the past one year.
The situation worsened in July last year when
SunEdison entered into a definitive agreement to
acquire Vivint Solar Inc. VSLR in a cash-stock deal
worth $2.2 billion. The deal made investors

-App. 128aincreasingly cautious about its rising debt pressure.
These acquisitions, once believed to be strategic, are
now burning a hole in SunEdison’s pocket. The
acquisitions have taken a toll on its balance sheet
with total outstanding debt (including current
portion) nearly doubling to $11.7 billion at the end of
third-quarter 2015 from $6.3 billion a year ago.
Although SunEdison has taken a series of
initiatives, such as lowering its offer price for the
Vivint Solar buyout and quitting the development
projects in Brazil, to improve the liquidity position,
we don’t see any material impact on its balance
sheet.
Further, we believe that with the recent sell-off, it
will become difficult for SunEdison to raise more
funds for project financing. Therefore, as the going
gets tough for the company, we would advise
investors to stay away from this Zacks Rank #3
(Hold) stock for now.
See “SunEdison Dives 39% on Complex Debt
Restructuring Moves,” Zacks Equity Research, Jan. 8,
2016 (emphasis added).
196. Following SunEdison’s January 7, 2016 debt
restructuring announcement, it has been widely reported
in the financial press, that the Company’s financial
prospects continue to look grim:
A move to reduce debt may tell us more about how
much trouble SunEdison Inc is in than anything

-App. 129aelse.
On the surface, you wouldn’t think a financial swap
that reduces both long- and short-term debt would
be a bad thing for a highly indebted company. But
for SunEdison Inc (NYSE: SUNE), the
announcement that it was swapping debt for
equity and a reduced amount of debt was met with
scorn on Wall Street. …
The problem for SunEdison is that it got so indebted
that creditors started demanding higher and higher
interest rates. At the same time, the company was
forced to pivot strategies to selling projects to third
parties, which is lower margin than holding them on
the balance sheet. The combination of higher
borrowing costs and lower margins may be too
much for SunEdison to overcome.
The thing with debt...
*

*

*

The problems with debt start to show if returns don’t
exceed the cost of debt. And with $11.7 billion in
debt, $7.9 billion of which is at the parent
company, the cost of debt is high for SunEdison.
*

*

*

According to analyst Sven Eenmaa at Stifel
Financial Corp., the exchange offer made on
Thursday will actually increase interest expense

-App. 130aannually by about $40 million because it exchanged
low interest rate convertible debt for higher interest
rate term debt. With this included, SunEdison’s
interest costs are about $276 million per year.
*

*

*

Just breaking even will be a challenge based on the
numbers above, but it’s possible with an expected 3.5
GW installed in 2016. The real problems start to
emerge when you start looking at its future cost of
debt.
…the $725 million term loans announced yesterday
came with interest rates of LIBOR + 10%, or about
10.85% as of today at 6-month LIBOR rates.
That’s an insanely high interest rate compared to
competitors like First Solar and SunPower, who are
paying LIBOR plus 3.5% or less on short-term debt.
Not only does that mean interest costs may be
increasing further in the future, it make it harder
for SunEdison to build projects with competitive
financing structures versus competitors.
*

*

*

The general theme here is that SunEdison’s
business is moving toward the lower- margin
business of selling projects to third parties at the
same time its borrowing costs are trending higher.
That’s a slippery slope for any business, and it
doesn’t bode well for SunEdison, especially when

-App. 131ait’s competing against companies with much
lower cost structures.
As an investor, I’m staying far away from a high-risk
company like SunEdison. It’s possible the company
survives all of these challenges, but the path it’s
currently on is unsustainable, and I think there’s a
lot more dilution and/or restructuring to be done
before it gets out from under its messy financial
situation.
The history of highly indebted companies in
renewable energy isn’t good, and the path forward
for SunEdison doesn’t look like a profitable one for
investors.
“SunEdison Inc’s Digging a Hole It May Never Get Out
Of”, The Motley Fool, Jan. 9, 2016 (emphasis added).
197. Indeed, as the market did not react positively to
SunEdison’s debt restructuring maneuver announced on
January 7, 2016, the value of the Plan’s assets invested in
SunEdison Stock continued to erode, reflecting the
severe deterioration of SunEdison Stock’s price:
…24/7 Wall St. has tracked five companies in which
shareholders were destroyed last week.
*

*

*

-App. 132aInvestors pummeled SunEdison Inc. (NYSE:
SUNE) after it restructured more of its debt this
week, sending the share price down 46% at one
point. The restructuring deal extinguishes about
$580 million in convertible debt and $158.3 million in
preferred stock. The so-called Second Lien Secured
Term Loans are expected to close on January 11, and
SunEdison expects to receive $725 million in cash.
After paying off approximately $170 million on its
existing second lien credit facility, SunEdison will
retain $555 million for, among other things, general
corporate purposes.
The transactions will dress up the company’s balance
sheet, but the price is very high, according to one
analyst cited by Bloomberg. SunEdison’s interest
expense is likely to grow by $40 million a year and
existing shareholders are being slapped with about
18% dilution to the value of their shares. Over the
past week, the stock dropped roughly 30%. Shares of
SunEdison closed at $3.41 late on Friday, with a
consensus price target of $14.93 and a 52-week range
of $2.55 to $33.45.
See “5 Stocks That Destroyed Shareholders This Past
Week,” 24/7 Wall St.com, Jan. 9, 2016 (emphasis added).
198. On January 12, 2016, as SunEdison Stock
continued on its downward slide, it was reported that:
Gordon Johnson has doubts about SunEdison Inc
(NYSE: SUNE)’s chances of making it through
the year.

-App. 133aSpeaking Tuesday on PreMarket Prep, Johnson said
he’s concerned by the company’s debt.
“SunEdison amassed a massive amount of debt...
The majority of that debt was used to buy projects
they intended to drop down into their yieldco,”
Johnson said, noting that SunEdison took on $10
billion in new debt from 2011-2015. “Essentially what
happened is the yieldco story ended, and this was a
company left with a lot of debt and a lot of projects
which are extremely capital intensive. When the
yieldco story fell apart, you didn’t have that buyer of
first resort.”
The stock, which traded as high as $33.45 in July, was
trading around $3 on Tuesday morning. The stock
was briefly halted on a circuit breaker.
The question now, according to Johnson, is whether
SunEdison can sell these projects in the third-party
merchant market. It’s been trying since the second
quarter of 2015, yet so far haven’t been able to sell
outside its own warehouses and yieldcos.
This is the core of Johnson’s worry: “Given the
number of deals and the type of deals that they’ve
done...if they’re unable to sell those projects, I don’t
know how much longer the equity can last.”
When asked if SunEdison’s new financing deal
was a good move, Johnson responded, “Absolutely
not. I think this deal makes me more cautious on

-App. 134athe company’s ability to make it through 2016. ”
See “Axiom’s Gordon Johnson ‘More Cautious’ On
SunEdison’s Ability To Make It Through 2016,”
Benzinga.com, Jan. 12, 2016 (emphasis added).
199. On January 12, 2016 alone, SunEdison Stock
plummeted by 29% in mid-day trading, and closed down
9.6 % further undermining the Company’s ability to
survive:
More concerns about high debt costs are hitting
SunEdison and calling its future into question.
What: Shares of SunEdison Inc (NYSE: SUNE) fell
as much as 29% mid-day on Wall Street Tuesday
after another analyst questioned the company’s
long-term survival.
So what: Analyst Gordon Johnson at Axiom Capital
Management raised more concerns about the
company’s recent debt restructuring. Details of that
restructuring can be seen here, but the short story is
that SunEdison traded debt for a combination of
equity and new debt that actually holds a higher
interest payment than the old debt.
What’s concerning is that the restructuring came
with debt that holds an interest rate in excess of 10%,
incredibly high considering the fact that SunEdison
bid aggressively to win projects on the idea that it
had a low cost of capital. Johnson said on a podcast
this morning, “I don’t know how much longer the

-App. 135aequity can last.”
Now what: SunEdison has been in a downward
spiral and it’s a situation that will be almost
impossible to get out of at this point. The company
needs low cost funding to build projects and needs
new projects to pay for debt already on the balance
sheet. With both working against the company
there’s not a likely scenario where it can get enough
funding to dig out of its current hole. For investors,
the risk of bankruptcy sometime in the next year
is too big to ignore and I see no reason to buy the
stock now.
See “Why SunEdison Inc’s Shares Dropped Another 29%
Today,” The Motley Fool, Jan. 12, 2016 (emphasis added).
200. SunEdison Stock hit a new 52-week trading low
of $2.36 on January 12, 2016, closing at $3.02. Summing
up the serious issues plaguing the Company, one financial
publication reported as follows:
…Separately,
recently,
TheStreet
Ratings
objectively rated this stock according to its “riskadjusted” total return prospect over a 12-month
investment horizon. . . .
TheStreet Ratings has this to say about the
recommendation:
We rate SUNEDISON INC as a Sell with a ratings
score of D. This is driven by a few notable
weaknesses, which we believe should have a greater
impact than any strengths, and could make it more

-App. 136adifficult for investors to achieve positive results
compared to most of the stocks we cover. The
company’s weaknesses can be seen in multiple
areas, such as its generally high debt
management risk, generally disappointing
historical performance in the stock itself and
feeble growth in its earnings per share.
Highlights from the analysis by TheStreet Ratings
Team goes as follows:
The debt-to-equity ratio is very high at 8.33 and
currently higher than the industry average,
implying increased risk associated with the
management of debt levels within the company.
Along with the unfavorable debt-to-equity ratio,
SUNE maintains a poor quick ratio of 0.76, which
illustrates the inability to avoid short-term cash
problems.
Looking at the price performance of SUNE’s
shares over the past 12 months, there is not much
good news to report: the stock is down 82.14%, and
it has underperformed the S&P 500 Index. In
addition, the company’s earnings per share are
lower today than the year-earlier quarter.
Naturally, the overall market trend is bound to be a
significant factor. However, in one sense, the stock’s
sharp decline last year is a positive for future
investors, making it cheaper (in proportion to its
earnings over the past year) than most other stocks
in its industry. But due to other concerns, we feel the
stock is still not a good buy right now.

-App. 137a-

SUNEDISON INC’s earnings per share declined
by 19.5% in the most recent quarter compared to
the same quarter a year ago. The company has
reported a trend of declining earnings per share
over the past two years. . . .
See “Here’s Why SunEdison (SUNE) Stock Is
Plummeting Today,” The Street, Jan. 12, 2016 (emphasis
added).
201. On February 29, 2016, the Company admitted
that its Audit Committee had been conducting an internal
investigation since November 2015 or earlier when it filed
with the SEC a Form NT 10- K reporting that it would
delay filing of its Form 10-K Annual Report. SunEdison
cited the activity of its Audit Committee as the reason for
the delay, identifying “the need to complete all steps and
tasks necessary to finalize the Company’s annual financial
statements” as well as “ongoing inquiries and
investigations by the Audit Committee.”
202. In March 2016, SunEdison announced that the
filing of its Annual Report on Form 10-K for the year
ended December 31, 2015 with the SEC would be delayed
beyond the extended due date of March 15, 2016. The
scope of work required to finalize the Company’s financial
statements included in the 2015 Annual Report on Form
10-K expanded due to the identification by management
of material weaknesses in its internal controls over
financial reporting, primarily resulting from deficient
information technology controls in connection with newly
implemented systems. Because of these material
weaknesses, additional procedures are necessary for
management to complete the Company’s annual financial
statements and related disclosures, and for the

-App. 138aCompany’s independent registered accounting firm,
KPMG LLP, to finalize its audits of the Company’s annual
financial statements and the effectiveness of internal
controls over financial reporting as of December 31, 2015.
In addition, an investigation by the Company’s Audit
Committee concerning the accuracy of the Company’s
anticipated financial position previously disclosed to the
Company’s Board was not finalized until April 2016.
203. Incredibly, it was not until March 2016 that a
blackout notice (the “Notice”) was issued to its directors
and executive officers informing them of a temporary
suspension of contributions to the SunEdison Stock Fund
in the Plan, as a result of the announced delayed filing of
the Company’s fiscal 2015 Annual Report on Form 10-K
with the SEC. By this time, the stock price was $1.50$2.00 per share. During the blackout period, Plan
Participants were temporarily unable to invest
contributions to the Plan in the SunEdison Stock Fund or
transfer any amount from any other investment option
into the SunEdison Stock Fund. In a Form 11-K filed by
the Plan on July 13, 2016, the Plan stated that the
blackout period will continue until the Company has filed
its 2015 Annual Report on Form 10-K and is current in its
required SEC filings.
204. In March 2016, SunEdison received a subpoena
from the U.S. Department of Justice (the “DOJ”) seeking
information and documentation relating to: (a) certain
financing activities in connection with the Company’s
acquisition of Vivint, (b) the conduct of a former nonexecutive employee who is alleged to have committed
wrongdoing in connection with the Vivint termination
negotiations, (c) the previously disclosed investigations by
the Company’s Audit Committee, (d) intercompany
transactions involving the Company and each of TERP

-App. 139aand Global and (e) the financing of the Company’s
Uruguay projects in connection with project costs and
equity contributions that remain to be contributed by the
Company and the DOJ may have additional requests.
Also, the Company received a nonpublic, informal inquiry
from SEC covering similar areas.
205. In April 2016, SunEdison and certain of its
subsidiaries filed a voluntary petition for relief (the
“Bankruptcy Petition”) under Chapter 11 of the United
States Bankruptcy Code (the “Bankruptcy Code”) in the
United States Bankruptcy Court for the Southern
District of New York (the “Bankruptcy Court”) under the
caption In re SunEdison, Inc., Case No. 16-10992 (the
“Bankruptcy Case”). SunEdison stated that it intended to
continue to operate its business as a “debtor-inpossession” under the jurisdiction of the Bankruptcy
Court and in accordance with the applicable provisions of
the Bankruptcy Code and the orders of the Bankruptcy
Court.
206. In April 2016, SunEdison received a delisting
notification (the “Delisting Notice”) from the staff of
NYSE Regulation (the “Staff”). The Delisting Notice
advised the Company that, following the Company’s
announcement that it and certain of its domestic and
international subsidiaries had filed the Bankruptcy
Petition under the Bankruptcy Code in the Bankruptcy
Court, the Company’s securities were subject to delisting
from the New York Stock Exchange (the “NYSE”). The
Delisting Notice noted that the common stock was
suspended immediately from trading at the market
opening on the NYSE on April 21, 2016.
207. Accordingly, during the Relevant Period,
SunEdison Stock was not a prudent investment option for
the Plan Participants, in light of, inter alia, (a) the known

-App. 140amaterial information regarding the Company’s business
and prospects; (b) poor historical performance of
SunEdison Stock; (c) massive amounts of debt
threatening the Company’s ability to finance its projects
and thereby the Company’s survival; (d) the Company’s
rising debt-to-equity ratio; (e) the Company’s likelihood
of bankruptcy; (f) the Company’s high debt management
risk; and (g) the Company’s losses as noted in
SunEdison’s quarterly reports.
DEFENDANTS HAD A CONTINUING DUTY TO
MONITOR THE SUITABILITY OF SUNEDISON
STOCK IN THE PLAN BUT FAILED TO DO SO
208. Under trust law, a trustee has a continuing duty
to monitor trust investments and remove imprudent ones.
This continuing duty exists separate and apart from the
trustee’s duty to exercise prudence in selecting
investments at the outset. Here, the Investment
Committee Defendants failed to monitor the SunEdison
Stock Fund and remove it from the list of investment
options within the Plan as it was clearly an imprudent
investment option for the reasons stated
below:
•

In the spring of 2015, the Company took on
massive debt consisting of $337 million in 3.75%
Guaranteed Exchangeable Senior Secured
Notes due 2020 (the “Exchangeable Notes”)
and a $410 million two-year loan (the “Margin
Loan”) in order to fund a new massive
acquisition. In repeated presentations and SEC
filings, the Defendants categorized the
Exchangeable Notes and the Margin Loan as
“non- recourse” debt, meaning among other
things that the lenders could not resort to the

-App. 141aCompany for repayment of the debt. In reality,
as investors learned months later in November
2015 when the Company abruptly recategorized the debt in its public filings, this
$750 million in debt was actually recourse debt,
with highly adverse repercussions for the
Company’s financial position.
•

As early as mid-2015, global markets turned
decisively against SunEdison and its growth
strategy. And, as recognized by analysts
reports (including the May 19, 2015 Avondale
Partners article and August 31, 2015 J.P.
Morgan North American Equity Research
article), investor demand for energy stock was
weak— with an increasingly negative shift in
attitudes toward yieldcos.

•

SunEdison’s overall corporate debt rose from
$7.2 billion at the end of 2014 to $10.7 billion by
the end of the second quarter of 2015.

•

On July 20, 2015, SunEdison announced in a
press release that it had entered into a merger
agreement with Vivint for $2.2 billion in cash,
stock and convertible notes. By the time of the
Vivint Solar Acquisition, the Company was
already highly leveraged and in financial
distress as evidenced by its quarterly reports
discussed below. As such, SunEdison needed
TERP’S liquidity and credit resources to help
finance the Vivint Solar Acquisition.
Consequently, SunEdison used its control over

-App. 142aTERP (SunEdison retained over 90% of the
voting power in TERP Power after its IPO) to
compel TERP to purchase the assets that
SunEdison was acquiring as part of its
acquisition of Vivint. As alleged in a derivative
action against SunEdison filed on behalf of
TERP, Appaloosa Investment Limited
Partnership I[] v. SunEdison, Inc., et al., Case
No. 11898 (Del. Ch. Jan. 12, 2016), unlike the
traditional utility-scale projects that TERP
acquired from SunEdison in the past, which
involved credit-worthy counterparties and
generated reliable cash flows, the residential
rooftop solar assets that SunEdison was selling
to TERP as part the Vivint Solar Acquisition,
had individual homeowners as counterparties,
reflecting significantly higher credit risk and
lower reliability of cash generation.
•

The market’s negative reaction to the Vivint
Solar Acquisition drove down SunEdison’s
stock price from $31.56 on the trading day (July
17, 2015) before the announcement of the Vivint
Solar Acquisition compared to $26.01 per share
by the end of the following week.

•

Due to the chilled investor demand for Global’s
stock, SunEdison agreed to acquire $30 million
of Global’s Class A common stock in its IPO,
which has been expected to be purchased by
public investors.

•

According to SunEdison’s internal auditors and

-App. 143aproject managers, by July 2015, SunEdison’s
liabilities vastly eclipsed its revenue, and
SunEdison was in a hiring freeze, despite its
ostensible growth.
•

Chatila and Wuebbels reassured investors in
August 2015 that SunEdison had “greater than
$1 billion” in ready cash available, leading
analysts to comment positively that any
liquidity concerns “appear [] more of a
perception than a reality.” In fact, as investors
(which included Plan Participants) learned after
April 2016, that $1 billion included a $500 million
credit facility that “SunEdison couldn’t access”
and should never have been included in the
presentations of the Company’s liquidity, which
meant that Defendants Chatila and Wuebbels
overstated the Company’s liquidity by 50%.

•

On August 6, 2015, Wuebbels reassured
investors that “we don’t see any additional
financings to be able to achieve this [expected]
growth.” But the Company had already been
secretly negotiating with Goldman Sachs to
take out a second lien one-year loan of $169
million, with an effective interest rate (including
fees) of 15% (the “Goldman Sachs Loan”). The
Company closed the Goldman Sachs Loan just
four days after Wuebbels claimed the Company
did not require “additional financings.” When
investors learned – months later – that the
Company had been forced to take out this
extraordinarily onerous loan, analysts stated
that the “unusual” loan pointed to “emergency

-App. 144acash needs,” as no borrower would be forced to
take out a loan on such terms other than a
“distressed company.”
•

From at least August 7, 2014, Defendants knew
and internally discussed with SunEdison
employees that the Company’s liquidity was
already seriously constrained. SunEdison, at
the direction of Chatila and Wuebbels among
others, and as a matter of undisclosed practice,
routinely refused to pay critical vendors even
when those vendors threatened to cease all
services. As SunEdison later admitted in its
Bankruptcy
Proceeding,
SunEdison’s
“[v]endors
[we]re
generally
not
interchangeable, and the risk of nonpayment
could delay construction, risking significant loss
in the value for SunEdison stakeholders.”

•

According to the complaints filed in the
Whistleblower Actions, on August 27, 2015,
Chatila and Wuebbels reported to the
SunEdison Board that SunEdison would be
cash negative in the fourth quarter of 2015 and
the first quarter of 2016. Specifically, the entire
Board was informed that SunEdison would
have a “cash- burn rate” of $425 million in the
fourth quarter of 2015 and a further net cash
reduction of $32 million in the first quarter of
2016. Such information regarding SunEdison’s
cash shortfall, however, was concealed from the
investing public.

-App. 145a•

On September 2, 2015, in an interview published
in Bloomberg, defendant Chatila reassured
investors that SunEdison would “start
generating cash for a living . . . . probably early
2016 or late 2015.” As investors (and Plan
Participants) learned after April 2016, just
“[d]ays earlier, an internal presentation to
SunEdison’s board showed the company
wouldn’t have positive cash flow until at least
the second quarter of 2016.”

•

According to the complaints filed in the
Whistleblower
Actions,
between
midSeptember and October 2015, the entire Board
was repeatedly informed of SunEdison’s
liquidity problems, including the finding by an
investigation led by Domenech and Wuebbels
that, by October 2015, SunEdison had only $342
million in unrestricted cash.

•

In late October 2015, executives from the
Company’s controlled Yieldcos subsidiaries
TERP and Global internally “raised concerns
with SunEdison’s Board about the extent of
SunEdison’s liquidity and the accuracy of
SunEdison’s public statements regarding its
financial condition.” Then, SunEdison’s senior
officials internally raised concerns to the
SunEdison Board with concerns that
“SunEdison was running out of money and
wasn’t being honest with investors about its
financial problems.”

-App. 146a•

On October 8, 2015, according to the complaints
in the Whistleblower Actions, Domenech and
Perez met with defendants Hernandez and
Tesoriere to discuss SunEdison’s liquidity
problems. At the meeting, Domenech and Perez
demanded that the Board investigate
SunEdison’s liquidity problems and the
accuracy of its financial statements. According
to Domenech and Perez, the Board rebuffed
their demand for a new investigation and
instead, asked them to wait for the results of an
“active” investigation led by defendant
Blackmore, who acted as Hernandez’s
“sounding board” on the issue of SunEdison’s
liquidity.

•

Following an October 26 Board meeting at
which Chatila and Wuebbels made a
presentation regarding SunEdison’s liquidity
problems, Domenech and Perez met or spoke
separately with defendants Williams, Zwirn,
and Blackmore regarding the liquidity
problems. During these conversations, each of
these Board members showed their knowledge
of SunEdison’s liquidity problems.

•

In October 2015, Defendants knew the entire
$349 million margin loan became mandatorily
pre-payable and the Company did not have the
funds to readily pay it.

•

Chatila and Wuebbels claimed to investors
(which included Plan Participants) in a

-App. 147aNovember 9, 2015 conference call that the
company had $1.4 billion in liquidity at the end
of the third quarter. The Wall Street Journal
(“WSJ”) later reported on April 14, 2016 that, at
the same time that these Defendants claimed
that SunEdison had $1.4 billion in available
liquidity, an internal non-public report
circulated within SunEdison that day showed
that the Company had only $90 million in
available cash. According to the WSJ,
discrepancies between the Company’s public
statements about its liquidity and its internal
figures so troubled senior SunEdison officials
that they raised these concerns directly to the
Company’s Board of Directors. They told the
Board that “SunEdison was running out of
money and wasn’t being honest with investors
about its financial problems.” The allegations
made by Domenech and Perez in the
Whistleblower Actions confirm the WSJ’s
account.
•

Indeed, in November 2015, SunEdison’s cash
shortages were so severe that there was no way
it could pay off the Margin Loan – as it was now
required to do or risk cross default on $8 billion
in debt – without drastic action. In what was
later termed the “Friday Night Massacre,”
Chatila and Wuebbels exercised SunEdison’s
power to fire the YieldCo’s senior executives
(who had raised disclosure concerns just weeks
earlier), appoint defendant Wuebbels as CEO to
the YieldCos, and reconstitute the YieldCo’s
Board-level conflicts committees to approve the

-App. 148apurchase of assets in India called “the India
Projects.” This allowed SunEdison to take the
money from YieldCo coffers – ostensibly for the
India Projects – and pay off the Margin Loan
with just minutes to spare. As Global later
detailed in a sworn complaint filed against its
own parent, SunEdison, Defendants deceived
Global’s new Conflicts Committee by
“misrepresenting
SunEdison’s
liquidity,”
“omitting to disclose to Global and its Conflicts
Committee material information known to them
about SunEdison’s liquidity,” and “failing to
correct material misstatements made to Global
and its Conflicts Committee with respect to
SunEdison’s liquidity.” At the time, however,
the Defendants issued a press release touting
the new “streamlined” management and the
acquisition of the India Projects as a “win-win”
for both SunEdison and Global shareholders.
•

On April 4, 2016, news emerged that Global
(with the authorization of longstanding
SunEdison Director Peter Blackmore) filed a
lawsuit accusing SunEdison executives of
“misrepresenting SunEdison’s liquidity” and
looting Global to cover up SunEdison’s own
financial weakness.

•

SunEdison later admitted to the Bankruptcy
Court on April 21, 2016 that: “[I]n October 2015
the entire Margin Loan became mandatorily
prepayable. This Prepayment, which amounted
to $439 million, drained SunEdison’s cash
reserves and fundamentally changed its and the

-App. 149aYieldCos’ financial outlook.” (Emphasis added).
209. The price of SunEdison Stock collapsed by
100% during the Relevant Period. The Plan’s losses would
have been avoided, in whole or in part, had Defendants
complied with their ERISA fiduciary duties, including,
but not limited to: a) investigating, evaluating, and
deciding whether SunEdison Stock was a prudent
retirement investment in light of SunEdison’s severe
liquidity problems from the start of the Relevant Period;
b) following proper disclosure, freezing or limiting
additional purchases of SunEdison Stock by the Plan; and
c) allowing for the orderly liquidation of the Plan’s
holdings of SunEdison Stock.
210. The Plan suffered millions of dollars in losses
because Defendants caused substantial assets of the Plan
to be imprudently invested, or allowed Participants to
remain invested in Company Stock during the Relevant
Period, in breach of Defendants’ fiduciary duties. These
losses were reflected in the diminished account balances
of the Plan Participants.
211. Defendants failed to actively monitor and
assess whether an investment of retirement savings in
SunEdison Stock was prudent, in light of the
deteriorating financial condition of the Company and
severe liquidity problems which presented a material risk
of complete loss to the SunEdison Stock Fund. As a
consequence of Defendants’ actions, regardless of any
ability to divest, Participants did not exercise
independent control over their investments in the
SunEdison Stock Fund, and Defendants are liable under
ERISA for losses caused by the investment in the
SunEdison Stock Fund when it was imprudent to make

-App. 150asuch investments.
SPECIAL CIRCUMSTANCES – PUBLIC
INFORMATION
212. Defendants breached their fiduciary duties
when they completely ignored the public information
regarding the financial stability of the Company (“Special
Circumstances”) that clearly indicated that SunEdison
Stock was an imprudent investment for the Plan. For
example:
(a) On May 19, 2015, Avondale Partners
published an article warning that
SunEdison’s YieldCos “could prove to be
more volatile than expected.”
(b) As early as mid-2015, global markets
turned decisively against SunEdison and its
growth strategy.
(c) Within a week after the July 20, 2015
announcement of the Vivint Solar
Acquisition, SunEdison’s stock price
dropped from $31.56 on July 17, 2015 to
$25.55 on July 29, 2015.
(d) The market’s chilled reaction to Global’s
IPO required SunEdison to purchase $30
million of Global’s Class A common stock in
the IPO.
(e) On October 8, 2015, Law360 reported that
the shares of NRG Energy Inc.’s yieldco, a
SunEdison competitor, plunged nearly 70%
between June and October 2015.
(f)

On November 9, 2015, the market learned
that the Company abruptly re- categorized
the debt in its public filings and described
the $750 million in debt as recourse debt,

-App. 151awhich had highly adverse repercussions for
the Company’s financial position. In
November 2015, SunEdison stock traded in
a range of a high of $7.98 to a low of $2.82
per share.
(g) In and around November 2015, SunEdison
took desperate action later referred to as
the “Friday Night Massacre.” On the very
day of the default deadline, November 20,
2015, Chatila and Wuebbels, and Martin H.
Truong, the Company’s Senior Vice
President, General Counsel and Corporate
Secretary, seized control of SunEdison’s
affiliates by reconstituting the YieldCos’
boards so that they could use the assets of
Global to pay SunEdison’s debts.
(h) On March 28, 2016, the market learned in a
Wall Street Journal article that the SEC
had opened an investigation “into whether
SunEdison overstated its liquidity [in the
fall of 2015]” and that the Department of
Justice (“DOJ”) had opened a broad
investigation into the Company’s activities
and public statements. In March 2016,
SunEdison stock traded in a range of a high
of $2.13 to a low of $0.54 per share.
213. The plethora of widely publicized information
described above demonstrates that SunEdison Stock was
not a prudent investment for retirement savings.
Therefore, Defendants should have stopped purchasing
additional shares and divested the Plan of its current
SunEdison Stock holdings after disclosing their reasons
for doing so.
214. Based on this publicly available information

-App. 152adescribed above, the Investment Committee Defendants
had available to them numerous options for actions they
could have undertaken in an effort to satisfy their
fiduciary duties, including divesting the Plan of Company
stock.
215. Such actions based on public information would
have prevented millions of dollars of losses for the Plan
and would not have run afoul of the federal securities laws
because these actions were based on public information.
216. The Investment Committee Defendants’
decisions respecting the Plan’s investment in SunEdison
Stock, under the circumstances alleged herein,
constituted a breach of fiduciary duty because a prudent
fiduciary acting under similar circumstances would have
acted to protect Plan Participants from the substantial
losses that SunEdison Stock posed during the Relevant
Period.
217. The Investment Committee Defendants
breached their duties to prudently and loyally manage the
Plan’s assets by allowing the Plan to continue to hold
shares of SunEdison Stock and to continue to purchase
additional shares as this asset was not prudent in light of
the financial crisis facing SunEdison. During the
Relevant Period, as discussed supra, these Defendants
knew or should have known that SunEdison Stock was not
a suitable and appropriate Plan investment. Investment
in SunEdison Stock during the Relevant Period clearly
did not serve the Plan’s purpose of encouraging savings,
and in fact caused enormous monetary losses to the Plan
and wiped out Participants’ retirement savings. During
the Relevant Period, despite their knowledge of the
imprudence of the investment, the Investment
Committee Defendants failed to take any meaningful
steps (and in fact took no steps) to protect the Plan

-App. 153aParticipants from the inevitable losses that they knew
would likely occur because the stock was imprudent asset
for retirement savings.
DEFENDANTS’ “NON-PUBLIC” INFORMATION
218. As set forth above, Defendants also had “nonpublic” information available to them which indicated that
the SunEdison Stock Fund was not a prudent investment
for retirement savings. Defendants had available to them
numerous options for actions they could have undertaken
in an effort to satisfy their fiduciary duties, without
violating United States securities laws, including making
appropriate disclosures of their intention to take action on
behalf of Plan Participants.
219. Defendants also could have divested the Plan of
Company Stock.
220. These actions would have saved the Plan
millions of dollars.
221. Defendants breached their duties to prudently
and loyally manage the Plan’s assets by allowing the Plan
to hold shares of SunEdison Stock — even as it was an
imprudent investment—and to purchase additional
shares. During the Relevant Period, Defendants knew or
should have known that SunEdison Stock was not a
suitable and appropriate Plan investment for retirement
savings. They also knew that once the insider information
was disclosed, the Plan and its Participants would suffer
dramatic losses to their retirement savings.
222. Defendants could not have reasonably
concluded that ceasing additional purchases of SunEdison
Stock for the Plan would do more harm than good to the
SunEdison Stock Fund and Plan by potentially causing a
drop in SunEdison’s stock price and concomitant drop in
the value of the SunEdison Stock already held in the Fund

-App. 154aand/or Plan. Defendants had, even prior to the beginning
of the Relevant Period, already observed a significant
drop in the value of SunEdison Stock accompanied by a
myriad of alarming facts as the set forth above.
223. As of July 2015, the Plan held fewer than
approximately 800,000 shares of SunEdison Stock, or less
than one half of one percent (0.3%) of all shares
outstanding. Officers and Directors held, in aggregate, 1.4
million shares, or approximately 04% of the outstanding
shares. The top ten institutional shareholders, consisting
largely of private investment funds and mutual funds,
held 43.5% of the outstanding common shares, or 137.0
million shares. The remaining 55.8% of the shares were
held by other reporting institutions and retail investors .
Relative to all other shareholder categories, the Plan held
significantly fewer shares at the beginning of the
Relevant Period.
[Graphic omitted]
224. The number of shares held by the Plan was also
miniscule when compared to small fraction of the
reported trading volume for the SunEdison Stock. The
graph below shows that on average the Plan’s shares were
just 3% of the daily trading volume. The average weekly
trading volume for SunEdison Stock during the period
July 20, 2015 through April 20, 2016 was
approximately 233 million shares. At approximately
1 million shares, the Plan shares were less than one half
of one percent (0.4%) of the weekly trading volume.
[Graphic omitted]
As SunEdison’s financial condition continued to
deteriorate throughout the Relevant, continuing Stock
Fund purchases for the Plan became even more
damaging. In this context, no reasonable fiduciary could

-App. 155aconclude that freezing new investment in SunEdison
Stock in the Plan and the orderly divestment of the Plan’s
SunEdison Stock, which represented a very small fraction
of the outstanding shares of this very widely traded stock,
would have caused more harm than good. The alternative
– i.e. doing nothing as the stock plummeted, resulted in a
complete loss to Plan Participants. Even assuming,
hypothetically, that SunEdison Stock would have dropped
a material amount in reaction to the Plan’s disclosure of
its decision to freeze purchases and divest – a highly
debatable proposition at best and more appropriate for
expert testimony – any such decline would have been less
than a total loss of the Plan’s investment. . As
demonstrated in the chart in ¶ 240, it is economically
inconceivable that any action to discontinue stock
purchases for the Plan and redirect investments to the
other Plan alternative, would have resulted in more harm
than the total loss of investment that the Plan ultimately
sustained.
225. During the Relevant Period, when Plaintiffs
allege the Plan should have been divesting of the
SunEdison Stock Fund, the Plan was a net purchaser of
units in the SunEdison Stock Fund. On a common share
equivalent basis, ownership of SunEdison stock increased
from approximately 800,000 shares to 1,350,000 shares
between July 2015 and April 2016. At the same time,
reporting institutional investors were dumping
SunEdison Stock. During the quarter-end period
beginning June 30, 2015 through March 31, 2016,
institutional investors divested of 176 million shares.12
Net sales in the quarter ended September 30, 2015 totaled
24.7 million shares. In the quarter ended December 31,
2015, net sales of SunEdison stock by institutional
12

Source: S&P CapitalIQ.

-App. 156ainvestors totaled 75.6 million shares. During the period
July 1, 2015 through March 31, 2016, the largest net
sellers included, as follows:
[Graphics omitted]
226. At least three (3) major companies discontinued
participant investment in the company stock fund for
their Defined Contribution Plans during the Relevant
Period, including Discover Financial Services, Xerox
Corp., and Allegion plc. It does not appear that the
discontinuation of investment, nor the divestiture of the
stock fund, caused any significant disruption in the stock
price, thus causing “no more harm than good.”
[Graphic omitted]
227. In sum, Defendants, who were the fiduciaries of
the Plan, breached their fiduciary obligations to Plan
Participants by failing to monitor the investment and take
action to prevent a total loss of Plan assets invested in the
SunEdison Stock Fund.
PROTECTIVE ACTIONS DEFENDANTS COULD
HAVE TAKEN REGARDING THE PLAN’S ASSETS
INVESTED IN SUNEDISON STOCK DURING THE
RELEVANT PERIOD
228. The Relevant Period begins on July 20, 2015
because at least by then, Defendants should have been
aware that investment in SunEdison Stock was no longer
prudent for the Plan.
229. Rather than do nothing (as they did),
Defendants should have taken numerous steps with
regard to the Plan’s assets invested in SunEdison Stock
to fulfill their fiduciary duties to the Plan under ERISA.
As set forth more fully below, none of these steps (a)
would have violated securities laws or any other laws, or
(b) would have been more likely to harm the SunEdison

-App. 157aStock Fund than to help it.
230. Defendants should have monitored the
SunEdison Stock Fund and assessed the appropriateness
of the Plan’s investment in light of the Company’s
deteriorating business prospects and liquidity
constraints, which heighted the Company’s risk profile in
excess of that appropriate for a retirement savings
vehicle.
231. Defendants
should
have
frozen
new
investments in SunEdison Stock Fund for Plan
Participant contributions, after making the proper
disclosure of such action.
232. Defendants also should have undertaken an
orderly divestment of the SunEdison Stock Fund held by
the Plan, and redirected the proceeds into other
investment options available to Plan Participants during
the Relevant Period.
233. None of these actions would have implicated, let
alone been in violation of, federal securities laws or any
other laws. Further, none would have caused the Plan
more harm than was ultimately suffered due to a complete
loss in value of the SunEdison Stock.
234. Further, Defendants also could have: (a) sought
guidance from the DOL or SEC as to what they should
have done; and (b) resigned as Plan fiduciaries to the
extent they could not act loyally and prudently; and/or
retained outside experts to serve either as advisors or as
independent fiduciaries specifically for the SunEdison
Stock Fund.
DISCONTINUING INVESTMENT IN SUNEDISON
STOCK WOULD NOT HAVE DONE MORE HARM
THAN GOOD
235. Discontinuing investment in Company Stock

-App. 158awould not have done more harm than good. First, any
announcement by the Plan or Defendants that the Plan
was discontinuing the option of investment in Company
Stock for Plan Participants would not have materially
affected SunEdison’s Stock price given the fact that there
was already a plethora of news in the public domain as of
the start of the Relevant Period indicating major and
substantial problems at SunEdison.
236. For example, as noted above, by August 7,
2015, SunEdison Stock’s price had already dropped to
$17.08, whereas it had traded over $31.00 prior to the
announcement of the Vivint Solar Acquisition. That same
day, SunEdison issued a press release announcing its
financial results for the 2015 second quarter, reporting a
loss of $263 million. The Company sustained a net loss of
$0.93 per share. SunEdison also reported that gross
margins on the projects that the Company had sold to
TERP were only 12.5%, a drastic cut from SunEdison’s
prior guidance of 18%. Furthermore, according to its
financials, SunEdison’s debt now stood at a whopping $11
billion, which included debt from a number of multi-billion
dollar deals to acquire new wind and solar assets.
237. Since Defendants themselves had already
disclosed this material information to the market on
August 6, 2015 concerning SunEdison’s whopping loss of
$231 million, and since the stock had dropped from $31 to
$17 from the time of the announcement of the Vivint
acquisition on July 20, 2015, any announcement by the
Plan or Defendants that the Plan was discontinuing the
option of Plan Participants investing in Company Stock
would not have had any, or only de minimis, further effect
on the stock price.
238. Thus, since there would have been no or only de
minimis effect on SunEdison’s Stock price had

-App. 159aDefendants disclosed an intent to discontinue the Plan
Participants’ option of investing in SunEdison Stock at
the beginning of the Relevant Period, avoiding future
contributions to SunEdison Stock would not have caused
more harm than good to Plan Participants than
continuing to allow contributions to SunEdison Stock
since Plan Participants would have avoided further
substantial losses in SunEdison Stock, which eventually
declined to zero when it was delisted by the stock
exchange in the spring of 2016.
239. Moreover, Plan Participants would not have
suffered more harm than good from the discontinuance of
SunEdison Stock as an investment option in the Plan
because the alternative investments available in the Plan
substantially outperformed SunEdison Stock from the
beginning of the Relevant Period through the Chapter 11
filing date in April 2016. The following chart from the
Plan’s Form 11-K filed on July 13, 2016 identifies the
investment options available in the Plan as of 12/31/15:
[Graphic omitted]
240. The chart below shows the investment
performance of SunEdison Stock relative to an index of
the other Plan investments that represent more than 5%
of the total asset value of the
[Graphic omitted]
241. As these facts demonstrate, Plan Participants
who invested $100 in SunEdison Stock on July 20, 2015
would have lost all but $1.47 of their investment as of April
16, 2016. The same investment in the above alternative
investment options lost only $2.17.
THE RELEVANT LAW: CLAIMS FOR RELIEF
UNDER ERISA
242. ERISA requires that every plan name one or

-App. 160amore fiduciaries who have “authority to control and
manage the operation and administration of the plan.”
ERISA § 1102(a)(1). Additionally, under ERISA, any
person or entity, other than the named fiduciary that in
fact performs fiduciary functions for the Plan is also
considered a fiduciary of the Plan. A person or entity is
considered a Plan fiduciary to the extent:
(i) he exercises any discretionary authority or
discretionary control respecting management of
such plan or exercises any authority or control
respecting management or disposition of its assets,
(ii) he renders investment advice for a fee or other
compensation, direct or indirect, with respect to any
moneys or other property of such plan, or has any
authority or responsibility to do so, or (iii) he has any
discretionary
authority
or
discretionary
responsibility in the administration of such plan.
ERISA § 3(21)(A)(i), 29 U.S.C. § 1002(21)(A)(i).
243. At all relevant times, Defendants are/were and
acted as fiduciaries within the meaning of ERISA §
3(21)(A)(i), 29 U.S.C. § 1002(21)(A)(i).
244. ERISA § 502(a)(2), 29 U.S.C. § 1132(a)(2),
provides, in pertinent part, that a civil action may be
brought by a participant for relief under ERISA § 409, 29
U.S.C. § 1109.
245. ERISA § 409(a), 29 U.S.C. § 1109(a), “Liability
for Breach of Fiduciary Duty,” provides, in pertinent
part, that:
any person who is a fiduciary with respect to a plan
who breaches any of the responsibilities, obligations,
or duties imposed upon fiduciaries by this title shall

-App. 161abe personally liable to make good to such plan any
losses to the plan resulting from each such breach,
and to restore to such plan any profits of such
fiduciary which have been made through use of
assets of the plan by the fiduciary, and shall be
subject to such other equitable or remedial relief as
the court may deem appropriate, including removal
of such fiduciary.
246. ERISA §§ 404(a)(1)(A) and (B), 29 U.S.C. §§
1104(a)(1)(A) and (B), provide, in pertinent part, that a
fiduciary shall discharge his duties with respect to a plan
solely in the interest of the participants and beneficiaries,
for the exclusive purpose of providing benefits to
participants and their beneficiaries, and with the care,
skill, prudence, and diligence under the circumstances
then prevailing that a prudent man acting in a like
capacity and familiar with such matters would use in the
conduct of an enterprise of a like character and with like
aims.
247. These fiduciary duties under ERISA §
404(a)(1)(A) and (B) are referred to as the duties of
loyalty, exclusive purpose and prudence and are the
highest known to the law and entail, among other things:
•

the duty to conduct an independent and
thorough investigation into, and continually to
monitor, the merits of all the investment
alternatives of a plan;

•

the duty to avoid conflicts of interest and to
resolve them promptly when they occur. A
fiduciary must always administer a plan with an
“eye single” to the interests of the participants
and beneficiaries, regardless of the interests of
the fiduciaries themselves or the plan sponsor;

-App. 162a•

the duty to disclose and inform, which
encompasses: (1) a negative duty not to
misinform; (2) an affirmative duty to inform
when the fiduciary knows or should know that
silence might be harmful; and (3) a duty to
convey complete and accurate information
material to the circumstances of participants
and beneficiaries.

248. Accordingly, if the fiduciaries of a plan know, or
if an adequate investigation would reveal, that an
investment option is no longer a prudent investment for
that plan, then the fiduciaries must disregard any plan
direction to maintain investments in such stock and
protect the plan by investing the plan assets in other,
suitable, prudent investments.
249. ERISA § 405(a), 29 U.S.C. § 1105 (a), “Liability
for breach by co-fiduciary,” provides, in pertinent part,
that:
[I]n addition to any liability which he may have under
any other provision of this part, a fiduciary with
respect to a plan shall be liable for a breach of
fiduciary responsibility of another fiduciary with
respect to the same plan in the following
circumstances: (A) if he participates knowingly in, or
knowingly undertakes to conceal, an act or omission
of such other fiduciary, knowing such act or omission
is a breach; (B) if, by his failure to comply with
section 404(a)(1), 29 U.S.C. § 1104(a)(1), in the
administration of his specific responsibilities which
give rise to his status as a fiduciary, he has enabled
such other fiduciary to commit a breach; or (C) if he
has knowledge of a breach by such other fiduciary,
unless he makes reasonable efforts under the
circumstances to remedy the breach.

-App. 163a250. Plaintiffs therefore bring this action under the
authority of ERISA § 502(a) for Plan- wide relief under
ERISA § 409(a) to recover losses sustained by the Plan
arising out of the breaches of fiduciary duties by
Defendants for violations under ERISA § 404(a)(1) and
ERISA § 405(a).
REMEDIES FOR BREACHES OF FIDUCIARY
DUTY
251. As noted above, as a consequence of
Defendants’ breaches, the Plan suffered significant
losses.
252. ERISA § 502(a), 29 U.S.C. § 1132(a) authorizes
a plan participant to bring a civil action for appropriate
relief under ERISA § 409, 29 U.S.C. § 1109. Section 409
requires “any person who is a fiduciary . . . who breaches
any of the . . . duties imposed upon fiduciaries . . . to make
good to such plan any losses to the plan….” Section 409
also authorizes “such other equitable or remedial relief as
the court may deem appropriate….”
253. Plaintiffs, the Plan, and the Plan Participants
are therefore entitled to relief from Defendants in the
form of: (1) a monetary payment to the Plan to make good
to the Plan the losses to the Plan resulting from the
breaches of fiduciary duties alleged above in an amount to
be proven at trial based on the principles described above,
as provided by ERISA § 409(a), 29 U.S.C. § 1109(a); (2)
injunctive and other appropriate equitable relief to
remedy the breaches alleged above, as provided by
ERISA §§ 409(a) and 502(a), 29 U.S.C. §§ 1109(a) and
1132(a); (3) reasonable attorney fees and expenses, as
provided by ERISA § 502(g), 29 U.S.C. § 1132(g), the
common fund doctrine, and other applicable law; (4)
taxable costs; (5) interests on these amounts, as provided
by law; and (6) such other legal or equitable relief as may

-App. 164abe just and proper.
254. Each Defendant is jointly and severally liable
for the acts of the other Defendants as a co-fiduciary.
COUNT I
FAILURE TO PRUDENTLY MANAGE THE
PLAN’S ASSETS (BREACHES OF FIDUCIARY
DUTIES IN VIOLATION OF ERISA §§ 404(a)(1)(B)
AND
405 BY THE INVESTMENT COMMITTEE
DEFENDANTS)
255. Plaintiffs incorporate the allegations contained
in the previous paragraphs of this Complaint as if fully set
forth herein.
256. This Count alleges fiduciary breaches against
the Investment Committee Defendants (the “Prudence
Defendants”) for failing to do a proper investigation into
the continued prudence of investing Plan assets in
Company Stock and for continuing to allow the
investment of the Plan’s assets in SunEdison Stock
throughout the Relevant Period despite the fact that they
knew or should have known that such investment was
imprudent as a retirement vehicle because the Company’s
investment risk profile had been so dramatically altered
due to its failing business prospects that it was no longer
a prudent retirement investment.
257. At all relevant times, as alleged above, the
Prudence Defendants were fiduciaries of the Plan within
the meaning of ERISA § 3(21)(A), 29 U.S.C. § 1002(21)(A)
in that they exercised discretionary authority or control
over the administration and/or management of the Plan

-App. 165aand/or disposition of the Plan’s assets.
258. Under ERISA, fiduciaries who exercise
discretionary authority or control over management of a
plan or disposition of a plan’s assets are responsible for
ensuring that all investment options made available to
participants under a plan are prudent. Furthermore, such
fiduciaries are responsible for ensuring that assets within
the plan are prudently invested. The Prudence
Defendants were responsible for ensuring that all
investments in Company Stock in the Plan were prudent.
The Prudence Defendants are liable for losses incurred as
a result of such investments being imprudent.
259. Upon information and belief, Defendants failed
to engage in a reasoned decision- making process
regarding the prudence of SunEdison Stock. An adequate
investigation by Defendants would have revealed to the
Prudence Defendants that investment by the Plan in
SunEdison Stock was clearly imprudent during the
Relevant Period. A prudent fiduciary acting under similar
circumstances would have acted to protect Plan
Participants against unnecessary losses, and would have
made different investment decisions.
260. The Prudence Defendants breached their
duties to prudently manage the Plan’s assets invested in
SunEdison Stock. During the Relevant Period, the
Prudence Defendants knew or should have known that, as
described herein, SunEdison Stock was not a suitable and
appropriate investment for the Plan. Yet, during the
Relevant Period, despite their knowledge of the
imprudence of the investment, the Prudence Defendants
failed to take any meaningful steps to protect Plan
Participants from losses stemming from the Plan’s
investment in SunEdison Stock.
261. The Prudence Defendants further breached

-App. 166atheir duty of prudence by failing to divest the Plan of
Company Stock during the Relevant Period, and/or by
ceasing additional purchases of Company Stock, when
they knew or should have known that it was not a suitable
and appropriate investment for the Plan.
262. The Prudence Defendants also breached their
duty of prudence by failing to provide complete and
accurate information regarding SunEdison’s true
financial condition and, generally, by conveying
inaccurate information regarding the Company’s future
outlook. During the Relevant Period, upon information
and belief, Defendants portrayed a positive attitude
toward the Company despite contrary information. As
such, Plan Participants could not appreciate the true risks
presented by investments in Company Stock, and
therefore could not make informed decisions regarding
their investments in the Plan.
263. As a result of Defendants’ knowledge of and, at
times, implication in, creating and maintaining public
misconceptions concerning the true financial health of
SunEdison, any generalized warnings of market and
diversification risks that Defendants made to the Plan
Participants regarding the Plan’s investment in
SunEdison Stock did not effectively inform the Plan
Participants of the past, immediate, and future dangers of
investing in Company Stock.
264. The Prudence Defendants also breached their
co-fiduciary obligations by, among their other failures,
knowingly participating in each other’s failure to protect
the Plan from inevitable losses. The Prudence Defendants
had or should have had knowledge of such breaches by
other fiduciaries of the Plan, yet made no effort to remedy
them.
265. As a direct and proximate result of the breaches

-App. 167aof fiduciary duties during the Relevant Period alleged
herein, the Plan and, indirectly, the Plan Participants lost
a significant portion of their retirement investments. Had
the Prudence Defendants taken appropriate steps to
comply with their fiduciary obligations during the
Relevant Period, the Plan could have liquidated some or
all of its holdings in Company Stock, and/or not have
purchased additional imprudent SunEdison Stock, and
thereby eliminated, or at least reduced, the losses to Plan
Participants.
266. Pursuant to ERISA § 502(a), 29 U.S.C. §
1132(a) and ERISA § 409, 29 U.S.C. § 1109(a), Defendants
in this Count are liable to restore the losses to the Plan
caused by their breaches of fiduciary duties alleged in this
Count.
COUNT II
BREACH OF DUTY OF LOYALTY (BREACHES
OF FIDUCIARY DUTIES IN VIOLATION OF
ERISA §§ 404(a)(1)(A) AND 405 BY THE
DIRECTOR DEFENDANTS, AND INVESTMENT
COMMITTEE DEFENDANTS)
267. Plaintiffs incorporate the allegations contained
in the previous paragraphs of this Complaint as if fully set
forth herein.
268. This Count alleges fiduciary breaches against
the Director Defendants and Investment Committee
Defendants (the “Loyalty Defendants”) for continuing to
allow the investment of the Plan’s assets in SunEdison
Stock throughout the Relevant Period despite the fact
that they knew or should have known that such
investment was imprudent as a retirement vehicle

-App. 168abecause (the Company’s basic risk profile had been so
dramatically altered due to changed circumstances that it
was no longer a prudent retirement investment.
269. At all relevant times, as alleged above, the
Loyalty Defendants were fiduciaries of the Plan within
meaning of ERISA § 3(21)(A), 29 U.S.C. § 1002(21)(A).
Consequently, they were bound by the duties of loyalty,
exclusive purpose and prudence.
270. ERISA § 404(a)(1)(A), 29 U.S.C. §
1104(a)(1)(A), imposes on plan fiduciaries a duty of
loyalty; that is, a duty to discharge their duties with
respect to a plan solely in the interest of the participants
and beneficiaries and for the exclusive purpose of
providing benefits to participants and beneficiaries.
271. The duty of loyalty includes the duty to speak
truthfully to the plan and its participants when
communicating with them. A fiduciary’s duty of loyalty to
plan participants under ERISA includes an obligation not
to materially mislead, or knowingly allow others to
materially mislead, plan participants and beneficiaries.
As the Supreme Court “succinctly explained” in Varity
Corp. v. Howe, 516 U.S. 489 (1996), “[l]ying is inconsistent
with the duty of loyalty owed by all fiduciaries.” Maez v.
Mountain States Tel. & Tel. Inc., 54 F.3d 1488, 1499 (10th
Cir. 1995) (citing Varity Corp., 516 U.S. at 506).
272. During the Relevant Period, the Loyalty
Defendants breached their duty to avoid conflicts of
interest and to promptly resolve them by, inter alia:
failing to timely engage independent fiduciaries who
could make independent judgments concerning the Plan’s
investments in Company Stock; and by otherwise placing
their own and/or the Company’s interests above the
interests of the Plan Participants with respect to the
Plan’s investment in the Company’s securities.

-App. 169a273. During the Relevant Period, upon information
and belief, certain Defendants, including the Director
Defendants, made direct and indirect communications
with the Plan Participants in which they omitted or
misrepresented information regarding or materially
related to investments in Company Stock. These
communications included, but were not limited to, SEC
filings, town hall meetings with Company employees,
including the Plan Participants, press releases, and Plan
documents (including Summary Plan Descriptions).
Defendants, including the Director Defendants, also
acted as fiduciaries to the extent of this communication
activity.
274. Further, Defendants, as the Plan’s fiduciaries,
knew or should have known certain basic facts about the
characteristics and behavior of the Plan Participants,
well-recognized in the 401(k) literature and the trade
press13 concerning employees’ natural bias toward
13

See, e.g., David Blanchett, CFA, CFP, Morningstar
Investment Management, “Employer Stock Ownership in 401(k)
Plans and Subsequent Company Stock Performance,” July 1, 2013
at 7; David K. Randall, Danger in Your 401(k), Forbes.com
(August 30, 2010), available at:
www.forbes.com/forbes/2010/0830/health-retirement-savingserisa-danger-in-401k_print.html); Liz Pulliam Weston, 7 Ways to
Mess Up Your 401(k), MSN.com (December 31, 2007), available
at:articles.moneycentral.msn.com/RetirementandWills/InvestFor
Retirement/7MostCommon401kBlunders.aspx); Joanne Sammer,
Managed Accounts: A new direction for 401(k) plans, Journal of
Accountancy, Vol. 204, No. 2 (August 2007), available at:
www.aicpa.org/pubs/jofa/aug2007/sammer.htm); Roland Jones,
How Americans Mess Up Their 401(k)s, MSNBC.com (June 20,
2006), available at: www.msnbc.msn.com/id/12976549/); Bridgitte
C. Mandrian and Dennis F. Shea, The Power of Suggestion:
Inertia in 401(k) Participation and Savings Behavior, 116 Q. J.
Econ. 4, 1149 (2001), available at:
mitpress.mit.edu/journals/pdf/qjec_116_04_1149_0.pdf); Nellie

-App. 170ainvesting in company stock, including that:
•

Out of loyalty, employees tend to invest in
company stock;

•

Employees tend to over-extrapolate from
recent returns, expecting high returns to
continue or increase going forward;

•

Employees tend not to change their investment
option allocations in the plan once made; and

•

Lower income employees tend to invest more
heavily in company stock than more affluent
workers, though they are at greater risk.

•

Knowing of these natural biases toward
investment of Company Stock, Defendants
should have been on high alert to protect the
interests of the Plan Participants. Defendants,
however, disregarded their duties of loyalty to
the benefit of the Company as demonstrated by
the Plan’s substantial investment of its assets in
Company Stock, which goes against the grain of
best investment practices.

275. Because at least some of the Defendants were
compensated in SunEdison Stock and owned SunEdison
Stock, these Defendants had a conflict of interest which
Liang & Scott Weisbenner, 2002, Investor behavior and the
purchase of company stock in 401(k) plan - the importance of
plan design, Finance and Economics Discussion Series 2002-36,
Board of Governors of the Federal Reserve
System
(U.S.), available
at:
www.federalreserve.gov/pubs/feds/2002/200236/200236pap.pdf ).

-App. 171aput them in the position of having to choose between their
own interests as executives and stockholders, and the
interests of the Plan Participants, whose interests
Defendants were obligated to loyally serve with an “eye
single” to the Plan. See generally Mertens v. Hewitt
Assoc., 508 U.S. 248, 251-52 (1993);
276. 29 U.S.C. § 1104(a)(1)(B). These Defendants
abandoned their duties to the Plan and its Participants,
and failed to consider at any time during the Relevant
Period what was in the best interest of the Plan and its
Participants as they should have done as Plan fiduciaries.
277. The Loyalty Defendants also breached their cofiduciary obligations by, among their other failures,
knowingly participating in each other’s failure to protect
the Plan from inevitable losses. The Loyalty Defendants
had or should have had knowledge of such breaches by
other fiduciaries of the Plan, yet made no effort to remedy
them.
278. As a consequence of the Loyalty Defendants’
breaches of fiduciary duty during the Relevant Period by
putting the interests of themselves and the Company
ahead of the Plan and its participants, the Plan suffered
substantial losses, as its holdings of Company Stock were
devastated. If the Loyalty Defendants had discharged
their fiduciary duties to loyally manage and invest the
Plan’s assets, the losses suffered by the Plan would have
been minimized or avoided. Therefore, as a direct and
proximate result of the breaches of fiduciary duties
alleged herein, the Plan and, indirectly, Plaintiffs and the
Plan’s other participants, lost a significant portion of their
retirement investments.
279. Pursuant to ERISA § 502(a), 29 U.S.C. §
1132(a), and ERISA § 409, 29 U.S.C.§ 1109(a), Defendants
in this Count are liable to restore the losses to the Plan

-App. 172acaused by their breaches of fiduciary duties alleged in this
Count.
COUNT III
FAILURE TO ADEQUATELY MONITOR
OTHER FIDUCIARIES AND PROVIDE
THEM WITH ACCURATE INFORMATION
– (BREACHES OF FIDUCIARY DUTIES IN
VIOLATION OF ERISA § 404 BY THE
COMPANY, THE DIRECTOR
DEFENDANTS AND THE INVESTMENT
COMMITTEE DEFENDANTS)
280. Plaintiffs incorporate the allegations contained
in the previous paragraphs of this Complaint as if fully set
forth herein.
281. This Count alleges fiduciary breaches against
the Director Defendants, and the Investment Committee
Defendants (the “Monitoring Defendants”).
282. At all relevant times, as alleged above, the
Monitoring Defendants were fiduciaries of the Plan,
within the meaning of ERISA § 3(21)(A), 29 U.S.C. §
1002(21)(A). Thus, they were bound by the duties of
loyalty, exclusive purpose, and prudence.
283. As alleged above, the scope of the fiduciary
responsibilities of the Monitoring Defendants included
the responsibility to appoint, remove, and, thus, monitor
the performance of other Plan fiduciaries.
284. Under ERISA, a monitoring fiduciary must
ensure that monitored fiduciaries are performing their
fiduciary obligations, including those with respect to the
investment and holding of a plan’s assets, and must take

-App. 173aprompt and effective action to protect the plan and
participants when they are not.
285. The monitoring duty further requires that
appointing fiduciaries have procedures in place so that on
an ongoing basis they may review and evaluate whether
the “hands-on” fiduciaries are doing an adequate job (for
example, by requiring periodic reports on their work and
the plan’s performance, and by ensuring that they have a
prudent process for obtaining the information and
resources they need). In the absence of a sensible process
for monitoring their appointees, the appointing
fiduciaries would have no basis for prudently concluding
that their appointees were faithfully and effectively
performing their obligations to the plan’s participants or
for deciding whether to retain or remove them.
286. Furthermore, a monitoring fiduciary must
provide the monitored fiduciaries with complete and
accurate information in their possession that they know
or reasonably should know that the monitored fiduciaries
must have in order to prudently manage the plan and the
plan’s assets, or that may have an extreme impact on the
plan and the fiduciaries’ investment decisions regarding
the plan.
287. During the Relevant Period, the Monitoring
Defendants breached their fiduciary monitoring duties
by, among other things:
•

failing, at least with respect to the Plan’s
investment in Company Stock, to properly
monitor their appointee(s), to properly evaluate
their performance, or to have any proper
system in place for doing so, and standing idly
by as the Plan suffered significant losses as a
result of the appointees’ imprudent actions and
inaction with respect to Company Stock;

-App. 174a•

failing to ensure that the monitored fiduciaries
appreciated the true extent of the Company’s
precarious financial situation and the likely
impact that financial failure would have on the
value of the Plan’s investment in Company
Stock;

•

to the extent any appointee lacked such
information, failing to provide complete and
accurate information to all of their appointees
such that they could make sufficiently informed
fiduciary decisions with respect to the Plan’s
assets and, in particular, the Plan’s investment
in Company Stock; and

•

failing
to
remove
appointees
whose
performance was inadequate in that they
continued to permit the Plan to make and
maintain investments in the Company Stock
despite the practices that rendered it an
imprudent investment during the Relevant
Period.

288. As a consequence of the Monitoring
Defendants’ breaches of fiduciary duty, the Plan suffered
tremendous losses. If the Monitoring Defendants had
discharged their fiduciary monitoring duties as described
above, the losses suffered by the Plan would have been
minimized or avoided.
289. The Monitoring Defendants are liable as cofiduciaries because they knowingly participated in each
other’s fiduciary breaches as well as those by the
monitored fiduciaries, they enabled the breaches by those
Defendants, and they failed to make any effort to remedy
these breaches despite having knowledge of them.
290. Therefore, as a direct and proximate result of

-App. 175athe breaches of fiduciary duty by the Monitoring
Defendants during the Relevant Period alleged herein,
the Plan and, indirectly, the Plan Participants, lost
substantial retirement savings.
291. Pursuant to ERISA §§ 409, 502(a)(2) and (a)(3),
29 U.S.C. §§ 1109, 1132(a)(2) and (a)(3), the Monitoring
Defendants are liable to restore the losses to the Plan
caused by their breaches of fiduciary duties alleged in this
Count and to provide other equitable relief as
appropriate.
REQUEST FOR RELIEF
WHEREFORE, Plaintiffs request the following
relief:
A.

A Judgment that the Defendants, and each
of them, breached their ERISA fiduciary
duties to the Plan Participants during the
Relevant Period;

B.

A Judgment compelling the Defendants to
make good to the Plan all losses to the Plan
resulting from Defendants’ breaches of their
fiduciary duties, including losses to the Plan
resulting from imprudent investment of the
Plan’s assets, and to restore to the Plan all
profits the Defendants made through use of
the Plan’s assets, and to restore to the Plan
all profits which the Participants would have
made if the Defendants had fulfilled their
fiduciary obligations;

C.

A Judgment imposing a Constructive Trust
on any amounts by which any Defendant was
unjustly enriched at the expense of the Plan
as the result of breaches of fiduciary duty;

-App. 176aD.

A Judgment awarding actual damages in
the amount of any losses the Plan suffered,
to be allocated among the Plan Participants’
individual accounts in proportion to the
accounts’ losses;

E.

A Judgment requiring that Defendants
allocate the Plan’s recoveries to the accounts
of all Plan Participants who had any portion
of their account balances invested in
SunEdison Stock maintained by the Plan in
proportion to the accounts’ losses
attributable to the decline in the price of
SunEdison Stock;

F.

A Judgment awarding costs pursuant to 29
U.S.C. § 1132(g);

G.

A Judgment awarding attorneys’ fees
pursuant to 29 U.S.C. § 1132(g) and the
common fund doctrine; and

H.

A Judgment awarding equitable restitution
and other appropriate equitable monetary
relief against the Defendants.
JURY DEMAND

Plaintiffs demand a trial by jury.
Dated: August 28, 2017
/s/ Robert I. Harwood
Robert I. Harwood
Daniella Quitt
HARWOOD FEFFER LLP
488 Madison Ave., 8th Floor
New York, NY 10022
Telephone: 212-935-7400
rharwood@hfesq.com

-App. 177adquitt@hfesq.com
Interim Lead Counsel for
ERISA Plaintiffs
GAINEY MCKENNA &
EGLESTON
Thomas J. McKenna
Gregory M. Egleston
440 Park Avenue South,
5th Floor
New York, New York 10016
Telephone: 212-983-1300
tjmckenna@gme-law.com
egleston@gme-law.com
BOTTINI & BOTTINI, INC.
Francis A. Bottini, Jr.
Albert Y. Chang
7817 Ivanhoe Avenue, Suite
102 La Jolla, CA 92037
Telephone:858-914-2001
fbottini@bottinilaw.com
achang@bottinilaw.com
LEVI & KORSINSKY LLP
Nancy Kulesa
30 Broad Street, 24th Floor
New York, NY 10004
Telephone: 212-363-7500
nkulesa@zlk.com
Executive Committee for
the ERISA Plaintiffs

